THE BUREAU OF ALCOHOL, TOBACCO,
   FIREARMS AND EXPLOSIVES’
 NATIONAL INTEGRATED BALLISTIC
INFORMATION NETWORK PROGRAM



       U.S. Department of Justice
      Office of the Inspector General
               Audit Division


           Audit Report 05-30
                June 2005
             THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS
               AND EXPLOSIVES’ NATIONAL INTEGRATED
             BALLISTIC INFORMATION NETWORK PROGRAM


                               EXECUTIVE SUMMARY

       Our audit assessed the Bureau of Alcohol, Tobacco, Firearms and
Explosives’ (ATF) management and implementation of the National
Integrated Ballistic Information Network (NIBIN) program. Through the
NIBIN program, the ATF deploys Integrated Ballistics Identification System
(IBIS) equipment to state and local law enforcement agencies for their use
in imaging and comparing crime firearms evidence. The equipment allows
firearms examiners and technicians to acquire analog images of the
markings made by a firearm on bullets and cartridge casings. 1 The images
are then electronically compared to other images in the system and a list of
potential matches is generated. A firearms examiner can then look at the
original evidence for potential matches to identify “hits,” which are
successful matches between ballistics images entered into NIBIN. 2 Hits
result in a linkage of two different criminal cases. 3 By minimizing the
amount of non-matching evidence that firearms examiners must inspect to
identify a hit, the NIBIN program enables law enforcement agencies to
discover links between crimes more quickly, and also to discover links that
would not have been possible to find without the technology. Linking one
crime to another can provide law enforcement agencies new leads to help
solve the crimes. 4

       We performed the audit to evaluate whether: (1) the NIBIN program
has been fully deployed with the capability to compare ballistic images on a
national level; (2) controls are adequate to ensure that all bullets and
cartridge casings collected at crime scenes and from test-fires of crime

       1
         A firearms technician enters the firearms evidence into NIBIN. A firearms
examiner performs the detailed review and examination of potential matches identified by
NIBIN to confirm actual matches.
       2
          The IBIS equipment, which is part of NIBIN, is used to capture and store evidence
images in the NIBIN database. When we refer to the entry of evidence into NIBIN, we are
referring to the use of the IBIS equipment to enter the evidence.
       3
         The ATF publishes a “Hits of the Week” document that provides a synopsis of how
NIBIN is successfully used to help solve firearms-related crimes. Appendix XI contains a
recent example of the “Hits of the Week” publication.
       4
         For information on how NIBIN can be used to link crimes and identify new leads to
help solve crimes, see the ATF’s recent “Hits of the Week” publication in Appendix XI.

                                             i
firearms are entered into NIBIN; and (3) ballistic images of bullets and
cartridge casings from newly manufactured, imported, or sold firearms are
entered into NIBIN, in violation of the Firearm Owners’ Protection Act of
1996.

Summary of Audit Results

      As of January 2005, the NIBIN program had been deployed to 231 of
the 38,717 law enforcement agencies or divisions of law enforcement
agencies that had received an Originating Agency Reporting Identifier (ORI)
number from the Federal Bureau of Investigation (FBI). 5 Through the 231
agencies with IBIS equipment, a total of 7,653 agencies with ORI numbers
had contributed evidence into NIBIN.

      Since fiscal year (FY) 2000, $96.3 million was made available to
support the NIBIN program, of which $95.1 million was expended as of the
end of FY 2004. As of October 22, 2004, the deployed equipment had been
used to enter approximately 888,000 records of firearms evidence into
NIBIN. However, we found that the program equipment was not deployed to
state and local law enforcement agencies that could best utilize it. For
example, 71 state and local law enforcement agencies that received the
program equipment were entering little evidence into the system. On the
other hand, 37 state and local law enforcement agencies that did not receive
the program equipment were submitting substantial amounts of evidence for
entry into NIBIN to those agencies that received the equipment.

      The NIBIN program also is capable of comparing ballistic images on a
national level, but users rarely perform national searches because their
investigations rarely identify a need. However, we identified seven NIBIN
partner agencies that could benefit from additional guidance or training from




      5
          Every agency that reports data for inclusion in the FBI’s Uniform Crime Reports
(UCR) is assigned a unique ORI number by the FBI. For the most part, only police agencies
have an ORI number and report crimes, but other agencies such as fire marshals, alcoholic
beverage control agencies, regional and special-purpose task forces, federal agencies, and
private colleges also have law enforcement responsibilities and are assigned ORI numbers.
Some agencies also have separate divisions for reporting purposes and each reporting
division has a separate ORI number.


                                            ii
the ATF when performing national searches. 6 For example, the Idaho State
Police indicated that it had not performed national searches because of a
lack of training.

       We also found that the ATF had not maximized the entry of bullets and
shell casings from crime scenes into NIBIN. For example:

       •   Participation in NIBIN among law enforcement agencies was low.

       •   Although the ATF has taken important steps to promote the NIBIN
           program by publishing program information on the Internet,
           addressing law enforcement groups, and conducting regional
           conferences for NIBIN partner agencies, the ATF needed to better
           promote the NIBIN program to improve participation.

       •   Many participating agencies were not entering bullet evidence into
           the system because the IBIS equipment used to image and
           compare crime firearms evidence did not produce good quality
           images of bullets. In addition, most participating agencies that had
           received the Rapid Brass Identification (RBI) units, which are small
           remote units used to capture cartridge casing images, were
           dissatisfied with the units and had either returned them to the ATF
           or quit using them entirely.

       •   The potential matches in NIBIN had not been reviewed by one high-
           volume partner agency since January 2002.

       •   Many partner agencies we visited had a significant backlog of
           evidence that had not been entered into NIBIN, primarily because
           of staffing shortages and other priorities. The backlog consisted of
           more than 15,200 bullets and cartridge casings. In addition, many
           of the partner agencies we surveyed also had a significant backlog
           of evidence not entered into NIBIN. The backlog consisted of about
           4,900 collected bullets, 10,800 collected cartridge casings, 10,900
           bullets collected from test-fired firearms, 5,300 cartridge casings



       6
         Partner agencies are law enforcement agencies that have received the IBIS
equipment and entered into a Memorandum of Understanding with the ATF regarding the
use of the equipment. At the time of our audit, there were 231 NIBIN partner agencies.
Non-partner agencies are other law enforcement agencies that have not received the IBIS
equipment. Some non-partner agencies participate in the NIBIN program by submitting
firearms evidence to a NIBIN partner agency for entry into NIBIN, while other non-partner
agencies do not participate in the NIBIN program.


                                            iii
          collected from test-fired firearms, and 9,700 firearms awaiting test-
          fire.

      •   More than 4 years after the Attorney General’s January 2001
          mandate that all firearms evidence seized by Department of Justice
          law enforcement agencies be entered into NIBIN, the ATF had not
          implemented a process to ensure all such evidence is entered into
          NIBIN. 7 An ATF official told us that funding constraints have
          precluded the ATF from test-firing all federally seized firearms and
          entering all evidence collected by federal agencies into NIBIN.

       Finally, we found that the ATF had established minimal controls to
ensure that ballistic images of bullets and cartridge casings from newly
manufactured, imported, or sold firearms are not entered into NIBIN in
violation of the Firearm Owners’ Protection Act of 1996. However, we found
no evidence that NIBIN users were entering prohibited data into the system.

       A more extensive discussion of each finding and its associated
recommendations is contained in the Findings and Recommendations section
of this report. The full details of our audit scope and methodology are
contained in Appendix I.

NIBIN Program Overview

       Every firearm has unique individual characteristics associated with its
barrel and firing mechanism. When a firearm is discharged, it transfers
these characteristics – in the form of microscopic scratches and dents – to
the bullets and cartridge casings fired within it. As the bullet travels through
the barrel of the firearm, the barrel leaves marks on the bullet. The
firearm’s breech mechanism also leaves marks on the ammunition’s
cartridge casing.

      Until the early 1990s, comparisons of bullet and cartridge casing
marks were manually performed by firearms examiners using comparison
microscopes that could compare two bullets or casings at the same time.
This process was very tedious and slow. After the comparison, the firearms
examiner made photographs of the images using the comparison
microscopes.

     With the development of digital cameras, the ballistic imaging process
was computerized in the early 1990s. Digital photographs of bullets and

      7
         The law enforcement agencies are the ATF, FBI, Drug Enforcement Administration,
Federal Bureau of Prisons, and United States Marshals Service.

                                           iv
cartridge casings were scanned into a computer, stored in a database, and
analyzed using a software program. All firearms examiners with access to
the computerized system could compare the marks on a large number of
bullets or cartridge casings. The computerized system was interconnected
across many law enforcement agencies through a telecommunications
system that permitted the rapid comparison of bullets and cartridge casings
used in crimes in one jurisdiction with those used in crimes in another.
Linking one crime to another can provide law enforcement agencies with
new leads that can help solve these crimes.

        Firearms technicians continue to use IBIS equipment to enter digital
images of the markings made by a firearm on bullets and cartridge casings
and perform comparisons to other bullets and cartridge casings entered into
the system. If a “high-confidence” candidate emerges as a possible match,
firearms examiners compare the original evidence to confirm a match. In
funding and supporting the NIBIN program, the ATF provides state and local
law enforcement agencies with an intelligence tool that many could not
afford otherwise.

      In the early 1990s, both the ATF and the FBI had ballistic imaging
systems. The ATF’s system was initially called CEASEFIRE, but was later
renamed the Integrated Ballistics Imaging System (IBIS). Initially, IBIS
compared only markings on bullets. The FBI’s system was called DRUGFIRE
and initially compared only markings on cartridge cases, but was later
expanded to compare markings on bullets. Because the ATF’s IBIS system
and the FBI’s DRUGFIRE system contained different firearms records, some
federal, state, and local law enforcement agencies used both systems.
However, the two systems were duplicative and inefficient. Ultimately, in
1999 the ATF and the FBI agreed to establish a unified system known as
NIBIN by using the: (1) IBIS equipment used by the ATF; and (2) secure,
high-speed telecommunications network used by the FBI. In December
1999, the ATF and the FBI entered into a new Memorandum of
Understanding (MOU) for joint agency implementation of the NIBIN
program.

Deploying NIBIN with Nationwide Search Capabilities

      Although the NIBIN program has been fully deployed with the
capability to compare ballistic images on a national level, we found that the
IBIS equipment has not been deployed to sites that could best utilize it, and
the nationwide search capability of NIBIN is rarely used.

      Deployment: In June 2000, the ATF established a plan to deploy the
IBIS equipment over a 24-month period during FYs 2001 and 2002. We

                                      v
analyzed the data provided by the ATF for the 231 law enforcement agencies
that had received the IBIS equipment and found that the ATF deployed it to
92 percent of the agencies by the end of FY 2002. The IBIS equipment sent
to the remaining agencies was completed after FY 2002. According to an
ATF official, delay in receiving the appropriation from Congress for FY 2002
was a contributing factor for not completing full deployment. Despite the
delays, however, the ATF deployed the IBIS equipment to all agencies for
which deployment was planned.

      While the IBIS equipment has been fully deployed, we determined that
it was not deployed effectively. We analyzed the 888,447 records of
firearms evidence entered into NIBIN as of October 22, 2004. We found that
71 partner agencies that received IBIS equipment through the NIBIN
program contributed very little evidence to NIBIN. We also found that 37
non-partner agencies that did not receive the IBIS equipment submitted
considerable evidence to NIBIN through a partner agency. Our analysis
showed that:

     •   196 partner agencies entered 888,447 records of firearms data into
         NIBIN;

     •   the top 30 (15 percent) partner agencies entered 608,280
         (68 percent) records of firearms data;

     •   71 (36 percent) partner agencies entered fewer than 1,000 records
         of firearms data;

     •   4 of the 71 partner agencies entered fewer than 100 records of
         firearms data;

     •   37 non-partner agencies submitted a substantial number of
         firearms data records, ranging from 1,491 to 39,200; and

     •   7 of the top 20 contributors of firearms data were non-partner
         agencies.

       The data indicates that the ATF needs to determine whether additional
IBIS equipment should be purchased and deployed to high-usage agencies,
or whether IBIS equipment should be redistributed from low- to high-usage
agencies. According to the former NIBIN Program Director who oversaw
deployment of the equipment, the initial focus of the ATF was to deploy the
equipment as quickly as possible. The ATF began monitoring the
participating partner agencies, but it used a simplistic measurement of the
monthly usage of each partner. No in-depth analyses or studies were done

                                     vi
to compare participation of partner agencies to non-partner agencies. The
current NIBIN Program Director told us that the ATF is considering
redistributing equipment to agencies who can better utilize it.

      Search Capability: We found that prior to November 2003, NIBIN
could only track and compare ballistic images locally or regionally, not
nationally. In November 2003, NIBIN was enhanced to allow nationwide
comparisons against all data within the system. According to NIBIN officials,
there is no authority or control over how the users elect to search the
database to compare nationwide evidence. ATF officials believe that the
users are the best judges in conducting searches within the system, because
they know best whether the crime evidence collected may be linked to other
crimes.

       We visited 22 of the 196 partner agencies (11 percent) that
contributed evidence into NIBIN and sent survey questionnaires to the
remaining 174 partner agencies (89 percent). We asked them how they
utilized the NIBIN search features. We found that NIBIN’s nationwide search
capability was rarely used because the participating agencies believed they
rarely needed to perform such searches. Also, the agencies rarely received
requests for searches from those agencies that submitted evidence for entry
into NIBIN. However, we did identify seven partner agencies (Prince
George’s County, Maryland Police Department; Omaha, Nebraska Police
Department Crime Laboratory; Idaho State Police; Massachusetts State
Police – Sturbridge; West Virginia State Police – Charleston; Kansas Bureau
of Investigation – Topeka; and the Lake County, Indiana Crime Laboratory)
that might benefit in performing nationwide searches with additional
guidance, training, or assistance from the ATF. These agencies indicated
that they did not perform national searches because of: (1) unfamiliarity
with, or lack of training on, how to use the system to perform the searches;
or (2) the time, manpower, or difficulty to perform the searches. Therefore,
additional guidance, training, or assistance from the ATF could enable these
agencies to perform national searches when the need arises.

Entering Ballistic Images into NIBIN

      We found that the ATF had not taken steps to maximize the entry of
firearms evidence into NIBIN. We determined that: (1) many law
enforcement agencies were not participating in the program;
(2) the ATF was promoting the program to law enforcement agencies, but
not enough to maximize participation; (3) many law enforcement agencies
were not maximizing the amount of firearms evidence collected and
submitted for entry into NIBIN; (4) a high-volume law enforcement agency
was not reviewing high-confidence matches in NIBIN; (5) many law

                                     vii
enforcement agencies were not adequately managing backlogged evidence;
and (6) other federal agencies were not maximizing their use of NIBIN.
Each of these problem areas are discussed below.

       Participating Law Enforcement Agencies: Only 7,653 of 38,717 U.S.
law enforcement agencies participated in NIBIN as of October 22, 2004.
Further, 96 percent of the evidence entered into NIBIN was contributed by
only 1,520 of the 7,653 agencies. Data in NIBIN is either collected and
entered by a NIBIN partner agency or collected by a non-partner agency and
submitted to a partner agency for entry. We reviewed the NIBIN data and
determined that participation among partner agencies varied widely. The
top 20 percent of partner agencies contributed 75 percent of the evidence to
NIBIN. The bottom 55 percent of partner agencies contributed only 9
percent of the evidence to NIBIN. We also compared the amount of data
entered into NIBIN to the amount of firearms crimes reported to the FBI.
We determined that while the gap between the reported firearms crimes and
the evidence entered into NIBIN has narrowed, the potential exists for
significant amounts of additional evidence to be entered into NIBIN each
year. We also found that some agencies had very high hit rates even
though the data they entered was comparatively low. The primary reason
given by these agencies for achieving high hit rates was that almost all
firearms evidence received was entered into NIBIN.

      Promoting the Program: The ATF has taken important steps to
promote the NIBIN program among law enforcement agencies by publishing
program information on the Internet, addressing law enforcement groups at
conferences, and conducting regional conferences for NIBIN partner
agencies. To evaluate ATF’s effectiveness, we asked officials at 16 partner
agencies we visited about the ATF’s promotion efforts. We also sent survey
questionnaires to 174 partner agencies and 411 participating non-partner
agencies that contributed evidence to NIBIN, and 85 non-participating non-
partner agencies. We found that:

     •   69 percent of the partner agencies visited had mostly positive
         comments about the ATF’s promotion of NIBIN, and 31 percent had
         mostly negative comments;

     •   70 percent of the partner agencies surveyed indicated that the ATF
         had provided assistance or guidance in promoting the program,
         while 30 percent indicated that the ATF did not provide such
         assistance or guidance;




                                    viii
       •   21 percent of the partner agencies surveyed indicated that they do
           not encourage other law enforcement agencies in the area to
           submit evidence for entry into NIBIN.

       •   61 to 79 percent of the participating non-partner agencies surveyed
           were not aware that the ATF promoted its initiatives through NIBIN
           publications and pamphlets; presentations and visual aids at law
           enforcement conferences; and communication with NIBIN users and
           with ATF local and regional representatives; 8 and

       •   64 to 100 percent of the non-participating non-partner agencies
           surveyed were not aware that the ATF promoted its initiatives
           through NIBIN publications and pamphlets; presentations and
           visual aids at law enforcement conferences; and communication
           with NIBIN users, and with ATF local and regional representatives.

       Collecting and Submitting Evidence: Our analysis of the data showed
that the more evidence was entered into NIBIN, the greater chance that hits
were identified. We found that for the 20 percent of partner agencies that
contributed 75 percent of the evidence to NIBIN, these partners also
identified 72 percent of the hits. For the bottom 55 percent of partner
agencies that contributed only 9 percent of the evidence, these agencies
identified only 9 percent of the hits. Consequently, our analysis indicated
that agencies are not entering the maximum amount of data into NIBIN to
produce favorable results. For example, we found that 72 percent of the
evidence in NIBIN was related to cartridge casings and only 28 percent was
related to bullets. NIBIN participants told us that the quality of the bullet
images produced by NIBIN was not adequate enough to generate hits. As a
result, many agencies were not entering bullet evidence or were entering
only a small proportion of bullet evidence, compared with cartridge casing
evidence.

      We also found that most of the agencies that received RBI units to
capture cartridge casing images were dissatisfied with the operation of those
units. Some of the agencies returned the RBI units to the ATF and other
agencies were no longer using them.



       8
         For the issue discussed in this and the following bullet, we asked the non-partner
agencies to indicate their awareness of each of the ATF initiatives discussed in the bullets.
The responses showed that some non-partner agencies were aware of some ATF initiatives
but were not aware of others. Therefore, we are reporting the percentage range of non-
partner agencies that were not aware of the grouped ATF initiatives.


                                              ix
       Comparing Images: Partner agencies who do not review the high-
confidence candidates within NIBIN to identify “hits” fail to fully utilize the
program’s capability. 9 We found that the Georgia Bureau of Investigation –
Decatur, a very high-volume NIBIN partner agency, did not examine
potential matches identified by NIBIN. At the time of our review, the
Georgia agency had not examined any potential matches since January 2002
and had about 3,350 high-confidence candidates that had not been
reviewed. An official from the Georgia Bureau of Investigation stated that
high-confidence candidates were not being reviewed because:
(1) funding for overtime was not available for firearms examiners, and
(2) firearms examiners had not had the opportunity to work with the IBIS
equipment. The agency official also told us that using the IBIS equipment
was considered a duty outside of the firearm examiner’s daily laboratory
activities.

      Backlog of Evidence Awaiting Entry: Delays in entering firearms
evidence into NIBIN prevent linking the evidence to other crimes that could
help authorities identify new leads and apprehend a criminal. Such
apprehensions could prevent additional crimes from being committed. To
determine whether participating agencies were entering firearms evidence
into NIBIN in a timely manner, we visited 22 NIBIN partner agencies and
sent survey questionnaires to the remaining 174 partner agencies that had
contributed evidence to the system. We also sent survey questionnaires to
411 participating non-partner agencies. We found that many of the partner
agencies we visited had significant backlogs of firearms evidence that had
not been entered into NIBIN. For example, one partner agency (the Prince
George’s County, Maryland, Police Department) had 1,000 or more bullets
and cartridge casings, and 269 test-fired bullets, cartridge casings, and
firearms that had not been entered into NIBIN. 10 We also found that many
of the partner agencies we surveyed had significant backlogs of firearms
evidence that had not been entered into NIBIN. The following shows a
summary of those partner agencies surveyed that had backlogged evidence.


       9
          A “hit” is a successful match between ballistics images entered into NIBIN and
results in a linkage of two different criminal cases. A “hit” links cases, not individual pieces
of evidence. Multiple bullets and cartridge casings may be entered as part of the same case
record. In this event, each discovered linkage to an additional case constitutes a “hit.”
According to this definition, linkages that were derived by investigative leads, hunches, or
previously identified laboratory examinations are not “hits.” The process for collecting and
entering ballistic evidence into NIBIN and comparing and identifying potential matches to
confirm “hits” is detailed in Appendix VIII.
       10
          An official at this partner agency told us that the backlog of bullets numbered in
the thousands. Since an exact number was not known, we used a conservative estimate of
1,000 or more.

                                               x
          Summary of Partner Agency Survey Responses Indicating
               a Backlog of Evidence Awaiting Entry into NIBIN
                                                               Amount
                                                      Number Awaiting
                    Type of Backlog                   Agencies Entry 11
   Bullets collected                                      86     4,905
   Cartridge cases collected                             107    10,796
   Bullets from test-fired firearms collected             55    10,911
   Cartridge casings from test-fired firearms
   collected                                              70     5,289
   Firearms awaiting test-fire                           119    9,738
 Source: Survey Questionnaires from Partner Agencies

     The participating non-partner agencies that were surveyed did not
have a significant amount of backlogged firearms evidence.

       Federal Agencies Using NIBIN: In January 2001, the Secretary of the
Treasury and the Attorney General issued memoranda requiring that all law
enforcement agencies within those two departments should trace every
recovered crime firearm through the ATF’s National Tracing Center and enter
bullets and cartridge casings found at crime scenes into NIBIN. During our
audit, we sent survey questionnaires to the ATF, FBI, Drug Enforcement
Administration (DEA), Federal Bureau of Prisons (BOP), and United States
Marshals Service (USMS) to ask whether or not they collect firearms
evidence. We found that all of the agencies except the BOP collect such
evidence. The BOP indicated that it does not collect firearms evidence
because this type of enforcement falls within the jurisdiction of the FBI.
Four agencies – the ATF, FBI, DEA, and USMS – also indicated that they
submit firearms evidence for entry into NIBIN. The DEA said that the only
locations it has for participation in the NIBIN program are the Los Angeles,
Chicago, and New York division offices. The DEA also explained that it is
currently working to revise the guidance given to division offices on the
ballistic testing of seized firearms, and that it will be working with the ATF on
specific requirements for firearms submissions to the NIBIN program.

      We also found that the ATF had established a pilot project in the
Los Angeles Gun Center to determine the feasibility and resources for
imaging 100 percent of the recovered firearms by federal agencies. During
the pilot project, the ATF developed protocols and procedures for test-firing
and imaging all firearms recovered in the Southern California area.
Protocols were also developed for maintaining and archiving test-fired


      11
         This amount of evidence awaiting entry into NIBIN is a conservative estimate
because some agencies did not provide numbers and other agencies provided only a range
of numbers. In all cases, we used the lower estimate.

                                          xi
evidence and associated documentation, so that the firearms evidence could
be destroyed. The NIBIN Program Director told us, however, that funding
was not available for the ATF to test-fire all federally seized firearms and
enter all firearms evidence collected by federal agencies into NIBIN.

Preventing Unauthorized Data from Being Entered into NIBIN

       The Firearms Owners’ Protection Act of 1986 prohibits the
establishment of any system of registration of firearms, firearms owners, or
firearms transactions or dispositions. This provision prohibits directly linking
ballistic images through a centralized computer database to both the
firearms themselves (a firearms registry) and the identities of the private
citizens who possess imaged firearms (firearms owners’ registry).
Therefore, the IBIS equipment deployed to law enforcement agencies
participating in the NIBIN program should not be used to capture or store
ballistic images from newly manufactured, imported, or sold firearms, and
can not be linked to any systems that contain such ballistic images.

      Two states, Maryland and New York, have adopted laws for
establishing systems that directly link images of newly manufactured or sold
handguns to handgun owners. The Maryland law, enacted in April 2000,
required that:

      •   manufacturers that ship or transport handguns to be sold, rented,
          or transferred in Maryland must test-fire all handguns shipped into
          the state after October 1, 2000, and provide a spent cartridge
          casing to the purchasing firearms dealer; and

      •   once the handgun is sold, the dealer must forward the cartridge
          casing to the state police, who must enter its markings in the
          state’s database.

       The New York law was enacted in August 2000 and required the
ballistic imaging of all handguns shipped into the state after March 1, 2001.
The theory behind the entry of newly manufactured or sold handguns is that
the markings on a fired bullet or an empty cartridge case found at a crime
scene could be compared to markings in the database, thus identifying the
handgun used by the criminal.

      Both Maryland and New York established database systems to track
firearms data on new handguns. The Maryland database is called the
Maryland – Integrated Ballistic Identification System (MD-IBIS) and is
operated by the Maryland State Police. The New York database is called the


                                       xii
Combined Ballistic Identification System (COBIS) and is operated by the
New York State Police.

       The ATF required NIBIN users to sign an MOU that prohibits them from
entering ballistic images of bullets and cartridge casings from newly
manufactured, imported, or sold firearms into NIBIN. During our site visits
to 22 NIBIN partner agencies and through our survey questionnaires to the
remaining 174 partner agencies that had contributed evidence into NIBIN,
we inquired as to whether the agencies entered data from new firearms into
NIBIN. None of the partner agencies indicated they did so. Using data from
the MD-IBIS and the COBIS databases, we also performed comparisons of
the firearms data in the NIBIN database to determine whether any new
handguns entered into the two state databases had also been entered into
NIBIN. While the comparisons identified a few matches, we determined that
the data was entered into NIBIN as a result of a crime and, therefore, did
not violate the prohibition against entering new firearms data into NIBIN.
We found no evidence that NIBIN users were entering prohibited data into
the system.

Recommendations

      To improve the operation and success of the NIBIN program, we made
12 recommendations to the ATF. These include recommendations to:

     •   determine whether to purchase additional equipment for
         deployment to high-usage non-partner agencies, or to redistribute
         equipment from low-usage partner agencies to high-usage non-
         partner agencies;

     •   research the reasons why some agencies achieved high hit rates
         with relatively low numbers of cases entered into NIBIN and share
         the results of such research to the remaining partner agencies for
         their use;

     •   establish a plan to better promote NIBIN;

     •   determine whether new technology exists to improve the image
         quality of bullets;

     •   provide guidance to partner agencies on reviewing correlations in a
         timely manner and on marking the correlations as viewed in NIBIN;

     •   monitor the non-viewed correlations of partner agencies and take
         corrective actions when a backlog is identified;

                                     xiii
•   research ways to eliminate the current backlog of firearms evidence
    awaiting entry into NIBIN; and

•   coordinate with the other Department of Justice law enforcement
    agencies that seize firearms and firearms evidence to ensure the
    evidence gets entered into NIBIN.




                               xiv
                           TABLE OF CONTENTS

INTRODUCTION ..................................................................... 1
Ballistic Images ........................................................................ 1
NIBIN Program Structure ........................................................... 4
Participating State and Local Law Enforcement Agencies................. 6
Participating Federal Agencies..................................................... 7
The NIBIN Network ................................................................... 8
Monitoring Participating Partner Agencies ................................... 11
Prohibition Against Entering New Firearms Data Into NIBIN .......... 12
The Future of the NIBIN Program .............................................. 13
Prior Audits and Evaluations ..................................................... 14

FINDINGS AND RECOMMENDATIONS ...................................                            18

1. NIBIN CAPABILITY TO COMPARE BALLISTIC IMAGES
   ON A NATIONAL LEVEL ....................................................                 18
Deploying IBIS Equipment .......................................................            18
Comparing Images...................................................................         21
Conclusion ..............................................................................   23
Recommendations....................................................................         24

2. ENTERING BALLISTIC IMAGES INTO NIBIN ......................                              25
Data Entered Into NIBIN ...........................................................         25
Law Enforcement Participation in NIBIN ......................................               26
Program Promotion ..................................................................        32
Collecting and Submitting Firearms Evidence ...............................                 39
Images Correlation Process .......................................................          43
Backlogged Evidence ................................................................        46
Federal Agencies......................................................................      48
Conclusion ..............................................................................   49
Recommendations....................................................................         50

3. PREVENTING ENTRY OF NEW FIREARMS DATA
   INTO NIBIN......................................................................         52
NIBIN Data Prohibitions ............................................................        52
Controls Established by the ATF .................................................           52
States That Maintain Their Own Databases ..................................                 53

STATEMENT ON COMPLIANCE WITH LAWS AND
 REGULATIONS.................................................................... 56

ACRONYMS ........................................................................... 58
APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND
 METHODOLOGY .................................................................. 59

APPENDIX II – NIBIN PROGRAM HISTORY............................ 66

APPENDIX III – EXAMPLE MEMORANDUM OF
 UNDERSTANDING BETWEEN THE ATF AND THE NIBIN
 PARTNER AGENCIES ........................................................... 68

APPENDIX IV – LIST OF NIBIN SITES AND TYPE OF
 EQUIPMENT DEPLOYED TO EACH SITE................................ 76

APPENDIX V – PROCESS USED BY THE ATF TO IDENTIFY
 SITES WHERE IBIS EQUIPMENT WAS DEPLOYED ................ 85

APPENDIX VI – MAP OF NIBIN REGIONS............................... 87

APPENDIX VII – DIAGRAMS OF PARTITIONS CONTAINED
 ON NIBIN SERVERS ............................................................ 88

APPENDIX VIII – PROCESS FOR COLLECTING AND
 ENTERING EVIDENCE INTO NIBIN, COMPARING THE
 EVIDENCE TO IDENTIFY POTENTIAL MATCHES, AND
 EXAMINING POTENTIAL MATCHES TO CONFIRM HITS ....... 108

APPENDIX IX – NIBIN SUPPORT .......................................... 112

APPENDIX X – MEMORANDA DIRECTING THAT ALL
 DEPARTMENT OF JUSTICE AND DEPARTMENT OF THE
 TREASURY LAW ENFORCEMENT AGENCIES ENTER
 BULLETS AND CARTRIDGE CASINGS FOUND AT CRIME
 SCENES INTO NIBIN.......................................................... 117

APPENDIX XI – ATF NIBIN PROGRAM HITS OF THE WEEK .... 121

APPENDIX XII – HOW NIBIN SEARCHES ARE USED BY
 NIBIN PARTNER AGENCIES WE VISITED ........................... 122

APPENDIX XIII – EXPLANATION OF “RARELY” AND
 “NEVER” RESPONSES FOR REGIONAL SEARCHES............... 125

APPENDIX XIV – EXPLANATION OF “RARELY” AND
 “NEVER” RESPONSES FOR NATIONAL SEARCHES............... 126
APPENDIX XV – ATF’S RESPONSE TO THE DRAFT AUDIT
 REPORT............................................................................. 129

APPENDIX XVI – OFFICE OF THE INSPECTOR GENERAL,
 AUDIT DIVISION, ANALYSIS AND SUMMARY OF
 ACTIONS NECESSARY TO CLOSE THE REPORT.................... 140
                                    INTRODUCTION

      Through its National Integrated Ballistic Information Network (NIBIN)
program developed in 1999, the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) deploys Integrated Ballistic Identification System (IBIS)
equipment to state and local law enforcement agencies. IBIS equipment
creates crime-firearms evidence images that are stored in the NIBIN
database and are compared to other evidence images in the database.
Matching images identify links to other crimes. By identifying links to other
crimes, law enforcement authorities may identify new leads that help solve
the crimes. Examples of how NIBIN has been used to link and solve crimes
are contained in the ATF’s recent “Hits of the Week” publication at
Appendix XI.

Ballistic Images

      Every firearm has individual characteristics that are as unique to it as
fingerprints are to human beings. When a firearm is discharged, it transfers
these characteristics — in the form of microscopic scratches and dents — to
the projectiles and cartridge casings fired in it. The barrel of the firearm
marks the projectile traveling through it, and the firearm’s breech
mechanism marks the ammunition’s cartridge casing. The primary markings
that are unique to a given firearm are detailed below.

       Land and groove markings around the circumference of a bullet:
Some markings left on the side of a bullet are incidental to the machining of
the interior of the barrel, while other markings, such as grooves, are
intended to impart rotation to the bullet when in flight. The red arrows in
Illustration 1 point to the land and groove markings on the side of a fired
bullet. The red arrows in Illustration 2 point to the groove markings on the
outside of a deformed bullet.

             Illustration 1                                      Illustration 2




     Source: Mitretek Technical                            Source: Mitretek Technical
     Report 2002-CCJT-004 12                               Report 2002-CCJT-004

       12
         This report is entitled Ballistic Identification Capability Modeling-A Guide for State
Program Establishment and was prepared under a cooperative agreement with the
Department of Justice’s Office of Justice Programs, National Institute of Justice.
                                               1
       Firing pin impression on the primer face of a shell casing: When the
firing pin strikes the primer of a cartridge casing, the firing pin leaves a dent
in the primer. The two primary types of firing pins are center firing pins
(Illustration 3) and rim firing pins (Illustration 4). The red arrows in
Illustration 3 point to the firing pin dents left in the primer of fired center
firing cartridge casings. The white arrows in Illustration 4 point to the firing
pin dents left in the primer of a fired rim firing cartridge casing.

             Illustration 3                             Illustration 4




        Source: Mitretek Technical                Source: Mitretek Technical
        Report 2002-CCJT-004                      Report 2002-CCJT-004

       Breech face markings on the primer face of a shell casing: When a
firing pin strikes the primer, resulting in an explosion inside the cartridge
casing, the bullet is propelled forward out of the barrel of the firearm and
the cartridge casing is propelled rearward towards the breech of the firearm.
The green arrows in Illustration 3 point to markings incidental to the
machining of the breech that were imparted to the primer end of a center
firing cartridge casing.

       Extractor/ejector markings on the primer end of a shell casing: In the
case of a revolver, when a round of ammunition has been fired, the bullet is
propelled out of the firearm barrel and the empty cartridge casing remains
within the firearm barrel until removed by the firearm user. With semi-
automatic or automatic weapons, the cartridge casings are automatically
ejected from the firearm. The black arrow in Illustration 5 on the next page
points to the markings imparted by the mechanism that extracts the
cartridge casing from the firearm.




                                        2
                                Illustration 5




                             Source: Mitretek Technical
                             Report 2002-CCJT-004

       From the 1930s to the early 1990s, firearms examiners compared
bullet and cartridge casing marks using comparison microscopes that could
compare two bullets or casings at the same time. This was a very tedious
process. Afterwards, photographic snapshots of the images from the
comparison microscopes could be made and distributed. Generally, the
sharing of such results was done locally.

       In the early 1990s, the ballistic imaging and matching process was
computerized. Digital cameras were used to photograph bullets and
cartridge casings. Afterwards, the images were scanned into a computer,
stored in a database, and analyzed using a software program. All firearms
examiners with access to the computerized system could compare the marks
on a large number of bullets or cartridge casings. When the computerized
system was interconnected across many law enforcement agencies through
a telecommunications system, like NIBIN, it permitted the rapid comparison
of bullets and cartridge casings used in crimes in one jurisdiction with those
used in crimes in another jurisdiction.

      The types of comparisons made by NIBIN of the primary markings on
bullets and shell casings with those of reference images are shown below.

                       Comparison of Bullet Markings –
                        Images of Recovered Bullets
                         Versus a Reference Image




                           Source: Mitretek Technical
                           Report 2002-CCJT-004

                                      3
                    Comparison of Firing Pin Impressions –
                    Images of Recovered Cartridge Casings
                         Versus a Reference Image




                          Source: Mitretek Technical
                          Report 2002-CCJT-004


                  Comparison of Breech Face Impressions –
                   Images of Recovered Cartridge Casings
                        Versus a Reference Image




                          Source: Mitretek Technical
                          Report 2002-CCJT-004

         Firearms technicians use the IBIS equipment to enter digital images
of the markings made by a firearm on bullets and cartridge casings and
perform comparisons to other bullets and cartridge casings entered into the
system. If a high-confidence candidate emerges as a possible match,
firearms examiners compare the original evidence. By minimizing the
amount of non-matching evidence that firearms examiners must inspect to
find a confirmable match, the NIBIN program enables law enforcement
agencies to discover links between crimes more quickly, including links that
would have been lost without the technology. In funding and supporting this
program, the ATF provides state and local law enforcement agencies with an
intelligence tool that many could not afford on their own.

NIBIN Program Structure

     Since FY 2000, $96.3 million has been made available to support the
NIBIN program, of which $95.1 million had been expended as of the end of
FY 2004.


                                      4
      Prior to NIBIN, the ATF and the FBI had separate systems for imaging
and comparing ballistics evidence. To eliminate the redundancy, the
agencies began working together in 1997 to consolidate the two systems.
As a result, the NIBIN program was established to combine the ATF’s and
the FBI’s ballistic imaging efforts into a single coordinated law enforcement
system. 13

      In December 1999, the ATF and the FBI entered into a Memorandum
of Understanding (MOU) for joint agency implementation of the NIBIN
program. The MOU established the NIBIN Executive Board (Board) and
called for the ATF and the FBI to implement the NIBIN program. The
responsibilities for each entity are described below.

      NIBIN Executive Board: The membership of the Board is made up of
a: (1) senior ATF executive, (2) senior FBI executive, and (3) senior
executive representing the interest of state and local law enforcement. 14
The Board develops and implements a global NIBIN strategy and establishes
program policy regarding external relationships. In addition, the Board
provides guidance to the ATF, the FBI, and partner agencies regarding
automated ballistics imaging and related networking. 15 The Board also
convenes and oversees a working group to provide expert technical advice. 16

      ATF: The ATF has overall responsibility for the entire NIBIN program,
including:

      •    hardware and software development,

      •    deployment and installation of the IBIS equipment,

      13
           For a history of the NIBIN program, see Appendix II.
      14
         At the time of the audit, the state and local law enforcement representative on
the NIBIN Executive Board was the Deputy Commissioner of the Boston Police Department.
      15
           Partner agencies are law enforcement agencies that have received the IBIS
equipment and entered into an MOU with the ATF regarding the use of the equipment. At
the time of our audit, there were 231 NIBIN partner agencies. Non-partner agencies are
other law enforcement agencies that have not received the IBIS equipment. Some non-
partner agencies participate in the NIBIN program by submitting firearms evidence to a
NIBIN partner agency for entry into NIBIN, while other non-partner agencies do not
participate in the NIBIN program.
      16
           The technical working group consists of seven members. Both the ATF and the
FBI select three members each and the Board selects the remaining member. The technical
working group provides advice and recommendations to the Board on technical matters,
addresses issues of current interest in the forensic firearms area, and responds to tasks
directed by the Board.

                                             5
      •    training,

      •    security,

      •    maintenance,

      •    user protocols and support, and

      •    quality control of the NIBIN program.

       FBI: Until October 2003, the FBI was responsible for the
establishment, maintenance, and funding of the high-speed integrated,
nationwide network that connected the NIBIN program equipment. In
addition, the FBI was responsible for generating and disseminating statistical
and activity reports regarding the network communication system. In
October 2003, after realizing that having two agencies responsible for
different aspects of the same national program was an ineffective
management arrangement, the FBI relinquished its network responsibilities
and authority to the ATF. The FBI’s role in NIBIN, other than that of a
participating partner under the NIBIN program, ceased. Consequently, the
ATF became solely responsible for all aspects of the NIBIN program.

Participating State and Local Law Enforcement Agencies

       State and local law enforcement agencies participate in the NIBIN
program based on an MOU with the ATF. The MOU establishes and defines a
partnership that will result in the installation, operation, and administration
of the IBIS equipment for the collection, analysis, and dissemination of
firearms data. The agencies that sign the MOU and receive the IBIS
equipment are referred to as partner agencies. The MOU must be executed
before the ATF can deploy any IBIS equipment into a state or local
laboratory. The ATF purchases IBIS equipment for deployment to the
partner agencies, provides upgrades and service for the equipment, and
administers the network over which the equipment communicates. The ATF
also provides a week-long training course for new users of the system. The
NIBIN partner agencies agree to: (1) support the program with adequate
staffing and resources, (2) enter as much crime firearms evidence as
possible into their IBIS systems, (3) share evidence and intelligence
information with other law enforcement agencies, and (4) abide by the ATF
regulations for use of NIBIN. 17


      17
          More details regarding the MOU between the ATF and each NIBIN partner agency
are contained in Appendix III.
                                          6
Participating Federal Agencies

      The FBI’s lab, located in Quantico, Virginia, is the only federal agency
other than the ATF that has the IBIS equipment. In January 2001, the
Attorney General and Secretary of the Treasury issued memoranda directing
that all law enforcement agencies within those departments should enter
bullets and cartridge casings found at crime scenes into NIBIN (See
Appendix X). Until March 2003, the ATF was part of the Department of the
Treasury. With the passage of the Homeland Security Act of 2002, the ATF’s
regulatory and revenue collecting functions relating to alcohol and tobacco
were realigned within the newly created Alcohol and Tobacco Tax and Trade
Bureau of the Department of the Treasury. The ATF was transferred as a
bureau to the Department of Justice.

     The ATF has encouraged other federal agencies to participate in the
NIBIN program through one of the partner agencies or through one of the
ATF servers in laboratories located in Ammendale, Maryland; Atlanta,
Georgia; and Walnut Creek, California.

        To help ensure the ATF and other federal agencies complied with the
mandate of the Attorney General and the Secretary of the Treasury, the ATF
initially developed two options for getting federally held agency firearms
evidence entered into NIBIN. The first option asked the NIBIN partner
agencies to accept federally seized firearms from their local area ATF offices
for test-fire and entry into NIBIN. However, the ATF did not consider this a
good option because of the funding and resources needed to obtain the
ammunition to test-fire the firearms seized. The second option provided
that all federal firearms evidence be taken into ATF custody, shipped to one
of the three ATF laboratories, and entered into NIBIN. This option also had
drawbacks, such as manpower shortages at the ATF laboratories.

      To overcome the drawbacks associated with the two options, the ATF
developed a pilot program that placed IBIS equipment for at least one year
in the ATF’s newly formed Southern California Regional Crime Gun Center,
known as the Los Angeles Gun Center (Gun Center). The pilot project
required the ATF to hire an IBIS technician on a contract basis to work at the
Gun Center and enter images of the ATF’s recovered firearms evidence, as
well as images of federal firearms evidence recovered by other agencies in
the Southern California area.

       As part of the pilot program, the ATF and its NIBIN contractor
(Forensic Technology, Inc.) developed protocols and procedures for test-
firing and imaging all firearms recovered in the Southern California area.
Protocols were also developed for maintaining and archiving test-fired

                                      7
evidence and associated documentation, so that the firearms evidence could
be destroyed.

       The overall purposes of the pilot program were to: (1) ensure ATF’s
lead as “the firearms agency”; (2) maintain self-reliance and control of the
ATF’s NIBIN program as it pertained to federally seized firearms; (3) develop
a realistic policy regarding the Treasury mandate and ensure that it was
implemented and adhered to; (4) determine the feasibility and resources for
imaging 100 percent of the recovered firearms by federal agencies;
(5) develop protocols and procedures on a pilot scale to implement the
policy; (6) ensure that all federally recovered firearms were traced through
the National Tracing Center; 18 (7) have technical representatives interact
with the users on a local level; and (8) dispatch the technical
representatives to a local laboratory to assist with any backlog of NIBIN
entries.

      For details about the Department of Justice law enforcement agencies’
compliance with the Attorney General’s January 2001 mandate, see
Finding 2 in the Findings and Recommendations section of this report.

The NIBIN Network

      The NIBIN program network operates with regional servers in each of
the three ATF laboratories. The NIBIN servers provide service to
12 geographical regions as shown in Appendix VI. As shown in Appendix
VII, within each server each geographical region is divided into partitions
where the firearms data from the NIBIN partner agencies is stored. The
NIBIN partner agencies are assigned to regions and partitions for the
purpose of performing searches and comparing firearms evidence within a
particular partition in its respective region.

       Regional Server: The regional server is the central data repository for
the region where all images are stored and electronic comparisons are made
of bullet and cartridge casing images to identify potential matches. The cost
of each regional server is about $209,700. As of January 28, 2005, the
NIBIN program had 14 servers, including 2 test servers (5 servers and 1 test
server at the ATF’s Ammendale, Maryland Laboratory, 4 servers at the ATF’s
Walnut Creek, California Laboratory, 3 servers at the ATF’s Atlanta, Georgia
Laboratory, and 1 test server at the ATF’s contractor site in Largo, Florida).
A photograph of a NIBIN server is shown on the next page.



       18
           The ATF established the National Tracing Center and gave it responsibility for
tracing firearms used in crimes and recovered at crime scenes.
                                              8
                                NIBIN Server




                        Source: Forensic Technology, Inc.

       Remote Data Acquisition Station (RDAS): Linked via a local area
network (LAN) to a regional server, each RDAS enables users to acquire
images of bullet and cartridge casings evidence through the use of an
automated microscope and a digital imaging computer. The images
collected by the RDAS are given a unique “digital signature” and sent to the
regional server for comparison and storage. The regional server
electronically compares the digital signatures and ranks them according to
their degree of similarity. Comparison results are then sent back to the
RDAS where they are viewed by the local firearms technician and examiner.
The cost of a complete RDAS setup is about $250,400. As of January 28,
2005, the NIBIN program had 216 RDAS units. A photograph of a NIBIN
RDAS unit is shown below.

                              NIBIN RDAS Unit




                        Source: Forensic Technology, Inc.

       Rapid Brass Identification (RBI): The RBI is a totally portable
cartridge casing system that permits the on-site imaging of fired cartridge
casings. An RBI unit transmits the acquired images through an RDAS unit

                                      9
for processing and comparison by the regional server. Afterwards, the
results are transmitted back through the RDAS unit to the RBI unit. The
cost of an RBI unit is about $35,500. As of January 28, 2005, the NIBIN
program had 31 RBI units. A photograph of a NIBIN RBI unit is shown
below.

                              NIBIN RBI Unit




                     Source: ATF

       Matchpoint: A Matchpoint unit consists of proprietary software and a
desktop computer that are connected via a LAN or an RDAS unit to the
regional server. A Matchpoint is compatible with the IBIS equipment and
acts as an additional workspace for analyzing images. With a Matchpoint,
ballistics analysis can be conducted from various locations using a LAN. The
cost of a Matchpoint unit is about $32,500. As of January 28, 2005, the
NIBIN program had 68 Matchpoint units. A photograph of a NIBIN
Matchpoint unit is shown below.

                          NIBIN Matchpoint Unit




                       Source: Forensic Technology, Inc.

       As of January 28, 2005, the IBIS equipment had been deployed to 231
sites under the NIBIN program. Appendix IV contains a list of the 231 sites,
along with the type of equipment deployed to each site. The process used

                                     10
by the ATF to identify the sites where the IBIS equipment was deployed is
described in Appendix V.

       As of October 22, 2004, 888,447 records of firearms data had been
collected and entered into the NIBIN program by 196 partner agencies,
including the ATF and FBI. 19 As of that date, the NIBIN program had also
generated a total of 10,622 “hits.” 20

Monitoring Participating Partner Agencies

       The ATF monitors the usage of the IBIS equipment deployed to the
NIBIN partner agencies by compiling a monthly acquisition report and a
quarterly watch list. 21 Each month, the ATF accesses each RDAS unit to
determine the number of bullets and cartridge casings that have been
entered at each site. The ATF reviews the data to determine whether the
partners are actively using the IBIS equipment. At the end of each quarter,
statistical data on entries is reviewed and compiled into the watch list by ATF
staff showing low-usage sites.

      After the first three-month period of low-usage, the ATF sends a
“Notice of Insufficient Usage” letter to the partner agency’s head and
laboratory director. The letter advises the partner agency to contact the ATF
to discuss ways to increase usage of the IBIS equipment. If the usage levels
remain low during the three months after the first “Notice of Insufficient

       19
          Although the 196 partner agencies included the New York City Police Department
(NYPD), the NYPD was not an official partner agency at the time of our audit. The NYPD
had not signed the MOU with the ATF, although the two agencies were in negotiation to
connect the NYPD to NIBIN. According to the ATF’s NIBIN contractor, the NYPD’s ballistic
evidence is maintained in NIBIN, but the evidence is not automatically searchable by other
NIBIN partner agencies. If other partner agencies have a need to search the NYPD data,
the agencies submit a justification to the ATF and the ATF, along with the NYPD, will
consider the request on a case-by-case basis.
       20
           A “hit” is a successful match between ballistics images entered into NIBIN and
results in a linkage of two different criminal cases. A “hit” links cases, not individual pieces
of evidence. Multiple bullets and cartridge casings may be entered as part of the same case
record. In this event, each discovered linkage to an additional case constitutes a “hit.”
According to this definition, linkages that were derived by investigative leads, hunches, or
previously identified laboratory examinations, are not “hits.” The process for collecting and
entering ballistic evidence into NIBIN, and comparing and identifying potential matches to
confirm “hits” is detailed in Appendix VIII.
       21
           The monthly acquisition report contains details of the number of bullets and
cartridge casing entries that have been made, and the number of “hits” that have resulted
from such entries for each RDAS unit site. The activity of the RBI units is rolled into the
usage data for the RDAS unit where the RBI data is submitted. The watch list shows RDAS
units with low-usage during a given reporting period.

                                              11
Usage” letter, the ATF arranges a visit to the partner agency to discuss
program participation and equipment usage. If usage is still low during the
three months after the site visit and the agency’s plan is not adequate to
resolve the problem, the ATF removes the IBIS equipment for use at other
locations. Our concerns about the ATF’s monitoring of NIBIN users to
maximize participation in the program are discussed in detail in Findings 1
and 2 in the Findings and Recommendations section of this report.

Prohibition Against Entering New Firearms Data Into NIBIN

      The Firearms Owners’ Protection Act of 1986 prohibits the
establishment of any system of registration of firearms, firearms owners, or
firearms transactions or dispositions. This provision prohibits federal
agencies from directly linking ballistic images through a centralized
computer database to both the firearms themselves (a firearms registry) and
the identities of the private citizens who possess imaged firearms (firearms
owners’ registry). Therefore, the IBIS equipment deployed to law
enforcement agencies participating in the NIBIN program cannot be used to
capture or store such ballistic images.

       In April 2000, the State of Maryland adopted the first ballistic imaging
law requiring the establishment of state ballistic imaging systems that
directly link the images of newly manufactured or sold handguns to handgun
owners. The law required that:

      •   manufacturers that ship or transport handguns to be sold, rented,
          or transferred in Maryland must test-fire all handguns shipped into
          the state after October 1, 2000, and provide a spent cartridge
          casing to the purchasing firearms dealer; and

      •   once the handgun is sold, the dealer must forward the cartridge
          casing to the state police, who must enter its markings in the
          state’s database.

      In August 2000, the State of New York enacted a similar law requiring
the ballistic imaging of all handguns shipped into the state after March 1,
2001.

       The theory behind the entry of newly manufactured or sold handguns
is that the markings on a fired bullet or an empty cartridge casing found at a
crime scene could be compared to markings in the database, thus identifying
the handgun used by the criminal.



                                      12
       The following flowchart illustrates the process of how newly
manufactured or sold handguns are processed for entry into the state
ballistic imaging systems.

                        Process for Entering Ballistic Data
                       from Newly Manufactured Firearms
                            into a State IBIS System




                   Source: Mitretek Technical Report
                   2002-CCJT-004

       However, in a September 2004 report, the Maryland State Police
(MSP) questioned the cost effectiveness of imaging new handguns into the
Maryland IBIS (MD-IBIS) and New York Combined Ballistic Information
System (COBIS) state systems. The MSP’s Forensic Sciences Division
determined that the Maryland MD-IBIS system had not identified any hits
even though the system had been in operation for four years at a cumulative
cost of almost $2.6 million. The report also stated that the New York COBIS
system had not identified any hits even though almost 80,000 cartridge case
profiles had been entered into the system and the system’s annual cost was
about $4 million. In the report, the MSP’s Forensic Science Division
recommended the MD-IBIS program be suspended. This report is discussed
in further details in the Prior Audits and Evaluations section of this
Introduction.

The Future of the NIBIN Program

      The ATF has not made any plans to deploy IBIS equipment to
additional agencies beyond the 231 agencies that already have received it.
Agencies that are interested in receiving the IBIS equipment can submit a
request and justification to the ATF and the ATF will consider each request
on a case-by-case basis. The ATF has plans to perform annual upgrades of
the IBIS software based on feedback from the users. Within the ATF, there



                                     13
are also plans to link NIBIN with N-Force and the National Tracing Center. 22
Further, the ATF plans to work on improving the safeguards and controls
within NIBIN to prevent unlawful security breaches into the system.

      The potential exists for linking NIBIN with other ATF operations, such
as the ATF’s regional gun centers, which serve as a clearinghouse for
firearms information. The centers gather regional crime data and firearms
tracing results and use analytical technology such as crime mapping and
crime analysis to develop detailed information about trends in firearms-
related crimes. This information helps to create investigative leads and
assists federal, state, and local law enforcement in deploying resources
where they are needed most.

      The ATF is also conducting a pilot program called “COPS and DOCS,”
which joins together health care and law enforcement professionals who
recover firearms evidence and enter it into NIBIN. Depending on the
program’s results, the COPS and DOCS program may be expanded. The
COPS and DOCS program has been implemented at two hospitals in Atlanta,
Georgia (Grady Memorial Hospital and DeKalb Medical Center). When
gunshot victims are brought into the hospital, bullets from wounds are
packaged with identifying information and placed in an evidence box that is
located in the hospital’s operating room. The bullets are retrieved each
week by an ATF agent and taken to the ATF crime laboratory for entry into
NIBIN.

Prior Audits and Evaluations

       In September 1996, the General Accounting Office (GAO) found that
five systems and one subsystem contained data that readily identified retail
purchasers or possessors of specific firearms. 23 The GAO reviewed two ATF
systems and found that both systems complied with the data restrictions for
recording or transferring firearms licensee records to a government facility
or establishing a registry of firearms, firearms owners, or firearms
transactions or dispositions. The GAO report noted that neither system
violated the appropriation rider that prohibited consolidating or centralizing
licensee records. The GAO also found the ATF had not systematically


       22
          N-Force is a case management system that is available to ATF staff. The ATF
established the National Tracing Center and gave it responsibility for tracing firearms used
in crimes and recovered at crime scenes.

       23
           General Accounting Office, ATF Compliance with Firearms Licensee Data
Restrictions, GAO/GGD 96-174, September 1996. On July 7, 2004, the GAO was renamed
the Government Accountability Office.

                                             14
analyzed its data systems and information practices to affect the
appropriation rider.

       In March 1998, the Department of the Treasury Office of the
Inspector General (OIG) reviewed the ATF’s IBIS system and found several
management control weaknesses that needed: (1) guidance and procedures
to clarify the ownership of IBIS databases, establish minimum usage criteria,
and track direct and indirect program costs; (2) contingency planning for the
possible reduction of future program funding; and (3) the development of
results-oriented measures to assess program performance. The report also
noted that these control weaknesses resulted in an incompatible, competing
FBI system, and contracting procedures that allowed the IBIS contractor to
imply a Treasury Department and ATF product endorsement through the
contractor’s Internet advertisements. 24 These conditions occurred because
the ATF initially concentrated on placing IBIS systems throughout the
country without first establishing focused controls and making
comprehensive plans for managing use of the system.

      In July 2001, the Congressional Research Service provided the 107th
Congress with a brief history of how NIBIN evolved and operated. 25 The
report also addressed the expansion of NIBIN to cover new firearms
purchases. Congress subsequently introduced bills requiring all newly
manufactured and imported handguns to be ballistically imaged.

       In October 2001, the California Department of Justice conducted a
study indicating that automated computer matching systems do not provide
conclusive results. 26 Among other things, the study stated that: (1) current
systems may not be as efficient for rim-fire firearms and are limited to auto-
loading weapons; (2) all potential “hits” must be confirmed by a firearms
examiner; (3) firearms that generate markings on cartridge casings can
change with use and be altered by the user; (4) cartridge casings from
different manufacturers of ammunition may be marked differently by a
single firearm that may not correlate favorably; and (5) not all firearms
generate markings on cartridge casings that can be identified back to the
firearm.


       24
          Bureau of Alcohol, Tobacco and Firearms (ATF), Bureau of Alcohol, Tobacco, and
Firearms (BATF) Integrated Ballistic Identification System, 98-069, March 1998.
       25
            Congressional Research Service, Report for Congress, National Integrated
Ballistics Information Network (NIBIN) for Law Enforcement, July 2001.
       26
         California Department of Justice, Technical Evaluation: Feasibility of a Ballistic
Imaging Database for All New Handgun Sales, October 2001.

                                              15
       In May 2002, in response to the October 2001 California Department
of Justice’s report, the ATF issued its own report describing the use of the
IBIS equipment for the NIBIN program and discussing the technical issues
raised in the California report relative to the crime firearm system deployed
by the ATF. 27 In response to the issues raised in the California report, the
ATF stated that the IBIS equipment cannot solve crimes by perfectly
producing definitive matches of evidence. Further, the ATF noted that there
is no substitute for human expertise and initiative by firearms examiners
who confirm matches by examining the original evidence. The report stated
in conclusion that no investigative tool is perfect or will be effective in every
situation, but the fact that NIBIN can search a case file with thousands of
exhibits in minutes provides an invaluable opportunity to law enforcement
agencies that participate in the NIBIN program.

       In January 2003, the California Department of Justice completed a
study that evaluated ballistic identification systems and determined the
feasibility of utilizing a statewide system of firearms data from test-fired and
sold firearms. 28 The study identified issues that needed resolution before a
system could be implemented in the State of California. Those issues
included: (1) further refinement and maturing of the technology, (2) using
emerging technologies as an alternate to the state system that may provide
a simpler and more economical means of matching a firearm to cartridge
cases found at crime scenes, and (3) the need for the federal government to
get involved because of the financial and structural resources that will
ensure a comprehensive database.

       In a September 2004 report, the MSP Forensic Sciences Division
addressed the continuing problems of the MD-IBIS system, including the
inability of the MD-IBIS to provide hits and to enhance or expedite crime
investigations. 29 The program had been in existence four years at a
cumulative cost of $2,567,633. The report also identified concerns
regarding the integrity of the databases. Test-fires were supposed to be
included with a firearm when it was shipped from the manufacturer, but in at
least one instance it was determined that a firearms dealer was actually
doing the test-fires and submitting the results to MD-IBIS. The report
recommended that the program be suspended, that a repeal of the collection
of cartridge cases from current law be enacted, and that the laboratory

       27
          Bureau of Alcohol, Tobacco and Firearms (ATF), Ballistic Imaging and Comparison
of Crime Gun Evidence, May 2002.
       28
         California Department of Justice, Feasibility of a California Ballistic Identification
System, January 2003.
       29
        Maryland State Police, Forensic Sciences Division, MD-IBIS Progress Report,
September 2004.
                                               16
technicians associated with the program be transferred to another unit. As
of our audit, the Maryland program had not been suspended.




                                    17
                    FINDINGS AND RECOMMENDATIONS

     1. NIBIN CAPABILITY TO COMPARE BALLISTIC
     IMAGES ON A NATIONAL LEVEL

     We determined that the ATF completed deployment of the
     IBIS equipment during FY 2003 to all 231 sites contained
     in its deployment plan. However, some of the equipment
     was not sent to agencies that could best utilize it. Our
     analyses found that 37 agencies that did not receive IBIS
     equipment had submitted more firearms data for entry into
     NIBIN than some agencies that received the IBIS
     equipment. This analysis indicates a need for the ATF to
     determine whether additional IBIS equipment should be
     purchased and deployed to these high-usage agencies, or
     whether IBIS equipment should be redistributed from low-
     to high-usage agencies. We also determined that NIBIN is
     capable of comparing ballistic images on a national level
     and that most NIBIN users are aware of this capability.
     We identified seven agencies that could benefit when
     performing nationwide searches with additional guidance,
     training, or assistance from the ATF.

Deploying IBIS Equipment

      To evaluate the ATF’s deployment of IBIS equipment to participating
law enforcement agencies, we: (1) interviewed NIBIN program officials at
the ATF, (2) obtained and reviewed the ATF’s deployment plan for NIBIN,
(3) reviewed the methodology used by the ATF to select participants for the
program, (4) compared the current status of deployment to the deployment
schedule, and (5) obtained and analyzed firearms data entered into NIBIN
for both partner agencies and non-partner agencies.

      In a June 7, 2000, memorandum, the NIBIN Executive Board
established a deployment plan with a tentative 24-month schedule for
delivering the IBIS equipment during FYs 2001 and 2002. NIBIN sites were
selected to receive equipment based on such factors as population, rate of
violent crime, and demonstration of commitment to ballistic technology
through the past use of IBIS or DRUGFIRE equipment. Through this
preliminary deployment plan, site surveys were conducted at each agency
scheduled to receive equipment to ensure that the type of equipment sent
matched the needs and capabilities of the receiving agency. The ATF’s
NIBIN contractor conducted site visits and met with upper management
from the partner agencies. The contractor used a site survey to obtain
information to deliver and install the IBIS equipment. The contractor also
                                       18
discussed the responsibilities of each agency and provided a copy of the
MOU that was to be executed between the ATF and each partner agency.
The contractor also provided each partner agency with the technical
requirements that the facility needed to meet before the IBIS equipment
could be provided. The contractor coordinated with local ATF personnel and
each partner agency’s staff on the details of deploying the equipment and
coordinating the necessary training. Finally, NIBIN officials told us that they
committed to placing at least one site in each state to ensure nationwide
coverage.

       We determined that much of the equipment was delivered before the
deployment plan, methodology, and budget were established. Specifically,
according to the ATF, the IBIS equipment was sent to 65 of the 231 NIBIN
sites before FY 2001. 30 Candidates were evaluated on a case-by-case basis
and, as funding became available, the equipment was delivered.

      In addition, the IBIS equipment was sent to 19 of the 231 NIBIN sites
after FY 2002. An ATF official explained that most of the equipment was
sent prior to development of the deployment plan because the ATF’s focus
was on moving the equipment as quickly as possible. The official attributed
the delay in completing full deployment by the end of FY 2002 to:
(1) delays in receiving the congressional appropriation for FY 2002,
(2) problems during equipment installation, and (3) the transition of the
FBI’s responsibilities for the network to the ATF. Despite the delays, to date
the ATF has deployed the IBIS equipment to all agencies for which delivery
was planned.

      While the IBIS equipment has been fully deployed, we determined that
it was not sent to agencies that could best utilize it. We obtained a copy of
the NIBIN database as of October 22, 2004, and found that 196 partner
agencies had entered 888,447 pieces of firearms data into the system. 31 We
also determined that at least 7,653 law enforcement agencies that had
received Originating Agency Reporting Identifier (ORI) numbers from the FBI




       30
         According to the ATF, full deployment of the IBIS equipment was completed in
May 2003, at which time it had been sent to 227 NIBIN partner agencies. Subsequent to
May 2003, IBIS equipment was delivered to 13 additional agencies that requested it and
taken back from 9 sites that no longer needed it. Therefore, as of January 2005, the IBIS
equipment was in use at 231 NIBIN partner agencies.
       31
         The remaining partner agencies received only RBI units that submit data through
an RDAS unit. The NIBIN tracks data by RDAS and not by RBI.

                                            19
contributed the 888,447 data items. 32 We analyzed the entries and found
that many of the partner agencies that received the IBIS equipment had
entered only minimal firearms data into NIBIN, whereas some non-partner
agencies that did not receive the IBIS equipment had submitted much more
firearms data for entry into the system. Our analysis showed that:

       •    196 partner agencies had entered 888,447 records of firearms data
            into NIBIN;

       •    the top 30 (15 percent) partner agencies entered 608,280
            (68 percent) records of firearms data;

       •    71 (36 percent) partner agencies entered fewer than 1,000 total
            records of firearms data, and 4 of those 71 partner agencies
            entered fewer than 100 total records of firearms data;

       •    37 non-partner agencies submitted a substantial number of
            firearms records, ranging from 1,491 to 39,200; and

       •    7 of the top 20 contributors of data were non-partner agencies.

       As the data indicates, some partner agencies that received IBIS
equipment contributed very little evidence to NIBIN. Conversely, some non-
partner agencies that did not have the IBIS equipment submitted
considerable evidence through a partner agency. Accordingly, the ATF
needs to determine whether additional IBIS equipment should be purchased
and deployed to these high-usage agencies, or whether IBIS equipment
should be redistributed from low-usage agencies to high-usage agencies.
The NIBIN Program Director told us that the ATF’s initial focus was to deploy
the equipment as quickly as possible and that not enough attention was
directed towards ensuring the equipment was sent to sites that could best
utilize it. Around 1999, the ATF began monitoring the partner agencies, but
it was a simplistic measurement of the monthly usage of each partner. The
NIBIN Program Director told us that no in-depth analyses or studies were
done to compare participation of partner agencies to non-partner agencies.
The official also stated that the ATF is considering redistributing equipment

       32
           Every agency that reports data for inclusion in the FBI’s Uniform Crime Reports
(UCR) is assigned a unique ORI number by the FBI. For the most part, only police agencies
have an ORI and report crimes, but other agencies such as fire marshals, alcoholic beverage
control agencies, regional and special-purpose task forces, federal agencies, and private
colleges also have law enforcement responsibilities and are assigned ORI numbers. Some
agencies also have separate divisions for reporting purposes and each reporting division has
a separate ORI number. We could not match the data entered to the ORI numbers
contributing the data for 115,092 of the 888,447 data items entered because the ORI
numbers were not entered into the system.
                                            20
from low-usage agencies to high-usage agencies because they can better
utilize the equipment.

Comparing Images

       We interviewed ATF officials to see if IBIS was capable of performing
nationwide comparisons of ballistic images associated with crime firearms.
Nationwide comparisons can help law enforcement officials link crimes across
jurisdictions when the same firearm is used to commit crimes in multiple
jurisdictions. We also visited 22 of the 196 NIBIN partner agencies that
contributed evidence to NIBIN as of October 22, 2004, and sent survey
questionnaires to the remaining 174 partner agencies that contributed
evidence to NIBIN to understand how each uses the nationwide comparison.

       We determined that prior to November 2003, NIBIN tracked and
compared ballistic images either locally or regionally. The NIBIN system is
made up of servers located in Ammendale, MD; Atlanta, GA; and Walnut
Creek, CA, connected to the 12 NIBIN regions as shown in Appendix VI.
Most of the regions are further divided into sub-regions covering NIBIN
partner agencies within the same region as shown in Appendix VII. For
example, the Walnut Creek, CA, server is connected to four regions, one of
which is Region 1a for Southern California. The Southern California region is
partitioned into 3 sections covering the southern, central, and northern
sections of Region 1a. The southern partition serves 2 partner agencies; the
northern partition serves 3 partner agencies; and the central partition serves
10 partner agencies.

      NIBIN automatically performs a local search as data is entered into the
system. A local search is one where the data is compared against other data
in the same partition within the region. For example, in Region 1a when a
partner agency in the southern partition enters evidence into NIBIN, the
evidence is automatically compared against other evidence entered by that
partner agency as well as evidence entered by the other partner agency
within the southern region partition of Region 1a.

      Before November 2003, a regional search could also be performed by
the agency entering the data, but the search was not automatic and had to
be manually selected. The agency performing the search could select the
entire region, or could select which agencies within the region to include and
not include in the search. Nationwide searches were not possible.

      In November 2003, NIBIN was enhanced to allow nationwide searches
against all data in the system. The nationwide search is similar to the
regional search, except that the search must be made against one server at
a time, and the searching agency must first select which server to search
                                      21
against. The server then can choose to search against either all regions and
agencies, or specific regions or agencies within the server.

      According to NIBIN officials, the ATF delegates to users the authority
and control over how to search the database to compare nationwide firearms
evidence. Officials believe that the users are the best judges in conducting
searches within the system because they know best whether the crime
evidence collected might be linked to other crimes. Further, the users are
more familiar with the cases and crimes in their respective areas. Officials
added that, with a handful of exceptions, almost all firearms crimes occur in
the vicinity where the firearms are found. Generally, users make nationwide
database searches only on high-profile cases that are either national in
nature or where the user has specific leads in the case.

      Through site visits to 22 NIBIN partner agencies and survey
questionnaires sent to the remaining 174 NIBIN partners that received RDAS
equipment, we asked each agency how it performs searches. We found that
the nationwide search capability was rarely used because the participating
agencies rarely had a need to perform such searches or rarely received
requests for such searches from agencies that submitted evidence to them
for entry into NIBIN. Examples of typical responses we received from the 22
NIBIN partner agencies we visited related to how they use the search
capabilities are included in Appendix XII.

      We received responses from 160 of the 174 NIBIN partner agencies
that were mailed surveys. For the 160 surveys we received back, 153
answered our question related to regional searches and 152 answered our
question related to national searches. As shown in the following table, the
survey results showed that national and regional searches are not used often
by some partner agencies.

                   Responses from Surveyed Partner Agencies
                     Regarding their Use of NIBIN Searches

                                                                  Upon
                         Always    Seldom    Rarely   Never      Request
      Regional
      searches          104       23        5         4          17
      National
      searches          2         37        25        15         73
     Source: Survey Questionnaires from NIBIN Partner Agencies

     The explanations regarding the regional searches for the agencies that
responded “rarely” or “never” are contained in Appendix XIII. The


                                       22
explanations regarding the national searches for the agencies that
responded “rarely” or “never” are contained in Appendix XIV.

      The site visit and survey results showed that most of the agencies
were aware of the regional and nationwide search capabilities but did not
perform them, because the agencies either did not see a need for searching
beyond their local area or had received no requests from the submitting
non-partner agencies. However, we identified seven partner agencies that
indicated they did not perform the regional or national searches because of:

      •    unfamiliarity with, or lack of training on, how to use the system to
           perform the searches (Omaha Police Department Crime Laboratory;
           Prince George’s County (MD) Police Department; and the Idaho
           State Police); and

      •    the time, manpower, or difficulty to perform the searches (West
           Virginia State Police – Charleston; Kansas Bureau of Investigation –
           Topeka; Massachusetts State Police – Sturbridge; and the Lake
           County (IN) Crime Laboratory). 33

      As a result, if a situation arises where a regional or national search
might be warranted, these agencies may not be able to perform the
searches and may have to seek assistance from the ATF, which could delay
the results and affect the agencies’ investigations. The ATF needs to ensure
that these agencies receive the training, guidance or assistance to perform
regional or national searches from one of the ATF laboratories or the NIBIN
contractor.

Conclusion

      The ATF did not fully deploy the NIBIN program equipment as planned
within the two-year schedule. While the ATF planned to complete
deployment by the end of FY 2002, eight percent of the NIBIN partner
agencies received their equipment in FY 2003. Although the system was not
deployed on schedule, it was fully deployed by the time of our audit.
However, the ATF was more concerned with distributing the equipment as
quickly as possible instead of ensuring that it was sent to sites that could

      33
           Two of the seven partner agencies (Omaha Police Department Crime Laboratory
and Prince George’s County (MD) Police Department) were part of the 22 partner agencies
we visited. These agencies’ responses regarding searches performed are included in the
table at Appendix XII. The other five partner agencies (West Virginia State Police –
Charleston; Idaho State Police; Kansas Bureau of Investigation – Topeka; Massachusetts
State Police – Sturbridge; and the Lake County (IN) Crime Laboratory) were part of the 174
partner agencies surveyed. These agencies’ responses regarding searches performed are
included in the tables at Appendices XIII and XIV.
                                           23
best utilize it. As a result, we found that many non-partner agencies that
did not receive IBIS equipment submitted more evidence into NIBIN than
partner agencies that received the IBIS equipment. Consequently, the ATF
needs to determine whether additional equipment should be purchased and
sent to the high-usage non-partner agencies, or whether it should be
redistributed from the low- to the high-usage non-partner agencies.

       We also determined that: (1) NIBIN does have the capability to
perform comparisons on a nationwide basis, and (2) most of the NIBIN
partner agencies were aware of the nationwide search capabilities of NIBIN.
However, the nationwide search feature of NIBIN is rarely used because
most participating partner agencies rarely need to perform such searches.
Also, those agencies rarely receive requests for nationwide searches from
non-partner agencies submitting evidence to them. We did identify a small
number of partner agencies that might benefit when performing nationwide
searches with additional guidance, training, or assistance from the ATF.

Recommendations:

We recommend that the ATF:

1.   Determine whether additional IBIS equipment should be purchased and
     deployed to high-usage non-partner agencies, or whether equipment
     should be redistributed from the low-usage partner agencies to high-
     usage non-partner agencies.

2.   Provide additional guidance, training, or assistance to the partner
     agencies that indicated they did not perform regional or nationwide
     searches because they either lacked an understanding of the process or
     lacked manpower to perform such searches.




                                     24
            2. ENTERING BALLISTIC IMAGES INTO NIBIN

            The ATF needs to take steps to increase the number
            of ballistic images entered into NIBIN. Only about
            20 percent of the law enforcement agencies with
            potential to participate in NIBIN actually contributed
            evidence into the system. Participation in NIBIN
            could be improved if the ATF: (1) better promotes
            the use and benefits of NIBIN to law enforcement
            agencies, and (2) involves the partner agencies more
            in promoting the NIBIN program to other law
            enforcement agencies in their area. We also found
            that participating agencies were submitting a much
            smaller proportion of bullets into NIBIN than
            cartridge casings because NIBIN did not produce
            good quality images of bullets. Most of the agencies
            stated that it was not worth the resources needed to
            enter bullets in the system because the poor quality
            images resulted in few hits. In addition, we found
            potential matches in NIBIN had not been reviewed
            by one high-volume partner agency since January
            2002, and therefore potential matches were not
            identified and pursued. The ATF also needs to
            provide guidance to NIBIN partners by stressing the
            importance of viewing potential matches
            (correlations) in a timely manner and by ensuring
            that NIBIN accurately reflects the status of the
            viewed correlations.

Data Entered Into NIBIN

      We requested from the ATF a copy of its NIBIN database showing all
the records entered regarding discharged bullets, cartridge casings, related
information records, associated case-information records, and firearms
information records. The ATF provided the requested data as of October 22,
2004, through its contractor (Forensic Technology, Inc.) located in Montreal,
Canada. The data was presented in multiple tables in a relational database.
For more details about the tables in the NIBIN database, see the Data
Analysis section of Appendix I. The database contained the following records
for 196 NIBIN partner agencies:

     •   888,447 records of firearms evidence (bullets and cartridge
         casings) with each record containing 11 fields of information,


                                     25
     •   514,731 records of cases with each record containing 8 fields of
         information, and

     •   254,187 records of firearms with each record containing 15 fields of
         information.

      The law enforcement agency that entered the evidence, or submitted
the evidence for entry, is identified in the database cases table by its
Originating Agency Reporting Identifier (ORI) number. To determine the
agencies (based on ORI number) that submitted evidence into NIBIN, we
linked the NIBIN cases table to the NIBIN evidence table. However, we were
unable to link the ORI numbers in the cases table for 55,193 of the 514,731
cases to evidence in the evidence table because of the following omissions or
errors in the cases table.

     •   52,392 records in the cases table had “unknown” entered in the
         ORI field.

     •   Two NIBIN partner agencies (Colorado Bureau of Investigation –
         Montrose and Rhode Island State Crime Laboratory) entered
         duplicate case ID numbers for its own cases. As a consequence, it
         was impossible to link the cases table to the evidence table for
         these agencies. A total of 2,801 records in the cases table for these
         two agencies contained duplicate case ID numbers. Of the total,
         478 records were from the Colorado Bureau of Investigation –
         Montrose and 2,323 records were from the Rhode Island State
         Crime Laboratory.

      As a result of these omissions and errors, we were unable to link the
ORI numbers from the 55,193 cases in the cases table to 115,092 evidence
items in the evidence table. Consequently, we were only able to link the
remaining 459,538 cases in the cases table to 773,355 records of evidence
in the evidence table from 194 NIBIN partner agencies. Thus, our analyses
of the NIBIN data in this report are limited to the 773,355 records of
evidence contributed by 194 NIBIN partner agencies.

Law Enforcement Participation in NIBIN

       One factor essential to the success of the NIBIN program is the wide
participation of law enforcement agencies. The ATF identified 38,717 law
enforcement agencies or divisions of law enforcement agencies that received
an ORI number from the FBI and that were potential candidates for
participating in NIBIN. We analyzed the 773,355 evidence records that were
entered into, or submitted for entry into, NIBIN as of October 22, 2004. Of
that total, we determined that only 7,653 (20 percent) of the 38,717 law
                                       26
enforcement agencies that had received ORI numbers had actually
contributed evidence to NIBIN. These 7,653 agencies included partner and
non-partner agencies. A closer examination of the evidence records
revealed that the top 20 percent of law enforcement agencies (1,520)
submitted 96 percent (739,959) of the 773,355 evidence records in NIBIN.
The remaining agencies submitted only 4 percent (33,396) of the evidence
records in NIBIN. Since the non-partner agencies submit their evidence to
partner agencies for entry into NIBIN, we further analyzed the 773,355
evidence records to determine if a similar trend existed based on the partner
agencies that contributed the evidence data. This analysis identified a
similar trend as shown in the following table.

                             Contributed Records Into NIBIN
                                 Top 20      Next 25     Bottom 55
                                Percent of Percent of    Percent of
                                 Partner     Partner       Partner
                                Agencies    Agencies      Agencies
            Cases Data             75%         15%          10%
            Evidence Data          75%         16%           9%
                          34
            Firearms Data          73%         17%          10%
            Source: OIG Analysis of NIBIN Database Records

        The distribution of data contributed by the partner agencies is found
to be highly skewed. More descriptive results of our analyses, including the
number of cases, evidence, and firearms contributed, are presented in the
following charts, which show columns for the amount of data entered into
NIBIN by each group of partner agencies, and also show a line above the
columns to represent the cumulative amount of data entered.




      34
            The 254,187 records in the NIBIN firearms table were contributed by 184 partner
agencies.

                                             27
                          Distribution of NIBIN Case Records
                         Among Contributing Partner Agencies
                          600,000




                                                                                              100%
                          500,000




                                                                                             80%
                          400,000


   Total Cases Entered




                                                                                                                                   Percent of Cases Entered
                                                                                             60%
                          300,000




                          200,000                                                            40%
                                          386,026




                          100,000                                                            20%


                                                              78,838
                                                                                49,867

                                 0                                                           0%
                                      20% of Partners    25% of Partners   55% of Partners

                                                         Partners


                                     Source: OIG Analysis of NIBIN
                                     Database Cases Records

               Distribution of NIBIN Evidence Records
                Among Contributing Partner Agencies
                         1,000,000



                                                                                             100%


                          800,000
                                                                                                     Percent of Evidence Entered




                                                                                             80%
Total Evidence Entered




                          600,000

                                                                                             60%




                          400,000
                                                                                             40%
                                          666,322




                          200,000
                                                                                             20%



                                                             138,325
                                                                               83,800
                                0                                                            0%
                                      20% of Partners    25% of Partners   55% of Partners

                                                         Partners

                                     Source: OIG Analysis of NIBIN
                                     Database Evidence Records
                                                        28
                                                   Distribution of NIBIN Firearms Records
                                                    Among Contributing Partner Agencies

                                         300,000




                                                                                                           100%
                                         250,000




                                                                                                                  Percent of Firearms Entered
                                         200,000                                                           80%
                Total Firearms Entered




                                         150,000                                                           60%




                                         100,000                                                           40%
                                                         185,892




                                          50,000                                                           20%


                                                                           42,596
                                                                                             25,699
                                              0                                                            0%
                                                     20% of Partners   25% of Partners   55% of Partners
                                                                       Partners

                                                    Source: OIG Analysis of NIBIN
                                                    Database Firearms Records

      We sought to evaluate the extent of evidence contributed to NIBIN in
comparison to the extent of potential evidence based on the FBI’s Uniform
Crime Reports (UCR). 35 Through the UCR, law enforcement agencies report
to the FBI data regarding a variety of crimes, including firearms-related
crimes of robbery and aggravated assault. Other reported crimes may
involve firearms but are not reported as a firearms-specific crime. We
obtained the FBI’s UCR data for 2000 through 2003, the most recent data
available as of our audit. From the data, we extracted the number of
firearms crimes reported each year and compared this data to the amount of
evidence entered into NIBIN during the same time period.

       35
            The UCR program encompasses approximately 17,000 law enforcement agencies
nationwide that voluntarily contribute crime statistics. The program seeks to generate a
reliable set of crime statistics for use in law enforcement administration, operation, and
management. Agencies voluntarily provide summarized reports on offenses, persons
arrested, and law enforcement officers killed and assaulted. For the most part, agencies
submit monthly crime reports to a centralized crime-records facility within their state. The
state UCR program then forwards the data, using uniform-offense definitions, to the FBI’s
national UCR program. Agencies in states that do not have a state program submit their
statistics directly to the national program. The FBI compiles, publishes, and distributes the
data to participating agencies, state UCR programs, and others interested in crime data.


                                                                            29
      We originally attempted to compare, for NIBIN participating agencies,
the crime rate according to the UCR to the level of evidence contributed to
NIBIN. However, meaningful comparisons were not possible based on the
available data because of variables such as population size, population
density, geographic location, and other demographic factors. Instead, to
construct a rough estimate of the extent to which NIBIN contains a
reasonable proportion of potential firearms evidence, we compared the
nationally reported number of reported firearms crimes to the amount of
evidence entered into NIBIN for calendar years 2000 through 2003. The
results of our comparison are illustrated in the following chart.

                                                    Crimes Involving Firearms Reported in UCR
                                                    and Firearms Evidence Entered into NIBIN
            Number of Crimes Involving Firearms




                                                  350,000


                                                  300,000

                                                  250,000


                                                  200,000

                                                  150,000

                                                                                             UCR Firearms
                                                  100,000
                                                                                             Crimes
                                                                                             NIBIN Firearms
                                                   50,000                                    Evidences


                                                      -
                                                            2000   2001        2002   2003




                                                                   Calendar Years

                                                  Source: FBI UCR and NIBIN Database Records

      The chart shows that the gap between the firearms crimes reported
and the evidence entered into NIBIN has narrowed from about 169,000 in
2000 to about 118,000 in 2003. This result was to be expected since the
ATF was deploying much of the IBIS equipment during this time period.
However, the chart also shows that there is potential for significant amounts
of additional evidence to be entered into NIBIN each year.

      As also would be expected, we found that the number of hits identified
for a partner agency is closely tied to the number of cases and evidence
contributed by that partner agency, as shown in the following chart.




                                                                          30
                       Distribution of Hits Compared to
                         Cases and Evidence Entered




  90%
              75%75%
  75%      72%


  60%
                                                                 % of Hits
  45%                                                            % of Cases
                                                                 % of Evidences
  30%
                             19%
                                15%16%
  15%                                           9% 10% 9%

   0%
          20% of Partners   25% of Partners    55% of Partners

        Source: OIG Analysis of NIBIN
        Database Cases and Hits Data


       The data indicates that as more available data is entered into NIBIN,
the greater the chance of getting hits. Since a hit can provide a link to
another crime, the hit could result in additional leads to investigators in
solving a crime involving the use of a firearm. Therefore, to maximize the
success of the NIBIN program, it is essential that the ATF and the partner
agencies fully promote participation by more law enforcement agencies. The
ATF’s efforts to promote the program are discussed in the next section of
this finding.

       While the aggregate of the NIBIN data shows that more hits result as
more data is entered, we found that some partner agencies had very high hit
rates even though the data they entered was comparatively low as
illustrated in the following table.




                                          31
                Analysis of Hits Compared to Cases Entered
                                                      Total
                                                     Cases                Hit
              Partner Agency                 State  Entered      Hits    Rate
 Johnson Co. Sheriff’s Office                 KS          13        5   38.5%
 Allegheny Co. Coroner’s Office               PA       5,030     813    16.2%
 Kansas Bureau of Investigation – Topeka      KS         308      40     13%
 Monroe Co. Department of Public Safety       NY       1,045     134    12.8%
 Maryland State Police                        MD       1,535     193    12.6%
 Massachusetts State Police – Danvers         MA         166      20     12%
 Minneapolis Police Department                MN       1,331     160     12%
 Long Beach Police Department                 CA       1,072     110    10.3%
 Santa Ana Police Department                  CA       1,976     183     9.3%
 Westchester Co. Department of Public
 Safety                                       NY         640       54   8.4%
 San Diego Police Department                  CA         531       43   8.1%
 Boston Police Department                     MA       5,741      431   7.5%
Source: OIG Analysis of NIBIN Database Cases and Hits Data

      We contacted the 12 agencies and asked what they did to get such a
high hit rate. Eight of the 11 agencies that responded told us the primary
reason for the high hit rate was because they enter almost all of the
recovered bullet and cartridge casing evidence into NIBIN. The remaining
three agencies did not believe their hit rates were as high as the ATF’s NIBIN
data indicated, but provided no documentation to dispute the ATF’s NIBIN
data. The ATF should further research why these agencies are so successful
and should apply the results of such research to the majority of partner
agencies that are not as successful.

Program Promotion

       Given the low participation by most law enforcement agencies, we
discussed with ATF officials the process of promoting the NIBIN program.
ATF officials recognized that for the program to be most effective, state and
local law enforcement agencies must be well informed of the existence of the
NIBIN program and how it can benefit them. We found that while the ATF
has taken steps to promote the program, its promotion has been mostly
effective for the partner agencies, and less effective for the other agencies
that submit data through the partner agencies.

     We found that the ATF took the following steps to promote the
program.

      •   The ATF staff address law enforcement groups and appear at law
          enforcement conferences, including the National Association of

                                      32
         Chiefs of Police conference, of which the NIBIN program is
         affiliated.

     •   The ATF also conducts regional conferences for NIBIN partner
         agencies that provide briefings on developments in the system;
         answer questions; and allow partner agencies to make connections
         and share experiences.

     •   The ATF publishes program information on the Internet at the
         NIBIN program website (www.nibin.gov).

     •   The ATF also publishes limited program information on the agency’s
         main website (www.atf.gov).

     •   The ATF develops program publications that it makes available to
         interested agencies.

       We asked both participating and non-participating law enforcement
agencies to evaluate the ATF’s promotion of the NIBIN program and its
effectiveness. Specifically, we asked 16 NIBIN partner agencies we visited
about the ATF’s promotion efforts. We also sent survey questionnaires to:
(1) 174 partner agencies and 411 participating non-partner agencies that
had contributed evidence to NIBIN, and (2) 85 non-participating non-partner
agencies.

       Of the 16 partner agencies we visited, we found that 11 had mostly
positive comments about the ATF’s promotion of the program while 5 had
mostly negative comments. Positive comments include the following.

     •   The ATF has gone to various precincts to promote the program.
         (Detroit, Michigan, Police Department)

     •   The local ATF District Office’s contractor holds regional meetings
         annually where presentations are made to promote the benefits of
         participating in the program. Also, the ATF contractor holds the
         same types of meetings locally. (Boston, Massachusetts, Police
         Department and Rhode Island State Crime Laboratory)

     •   The ATF provides program brochures to regional and state
         laboratories. (Houston, Texas, Police Department)

     •   The ATF provides assistance or guidance in promoting the program,
         conducts presentations, and provides brochures and training.
         (Tulsa, Oklahoma, Police Department)

                                     33
      •   The ATF sent a spokesman to a conference, and also presented a
          slide show at a District Attorney conference. (Mississippi State
          Crime Laboratory)

      •   The ATF made a video about the NIBIN program and the IBIS
          equipment and sent a copy to every agency here.
          (Indianapolis/Marion County, Indianapolis, Forensic Laboratory)

      Negative comments include the following.

      •   Limited assistance is provided by the ATF, and so the department is
          not promoting the program. (Minneapolis, Minnesota, Police
          Department)

      •   The department does not solicit other law enforcement agencies to
          submit evidence, so the ATF’s promotional guidance is not used.
          (Denver, Colorado, Police Department)

      •   The ATF does not provide assistance or guidance in promoting the
          program in our area because of a state mandate that requires local
          law enforcement agencies to work and train with the state and local
          law enforcement agencies in the use of the laboratories. (Tacoma,
          Washington, State Patrol Crime Laboratory)

      •   The ATF does not provide any specific assistance or guidance in
          promoting the program. However, the ATF does attend and
          sponsor law enforcement meetings in the area. (Los Angeles,
          California, Police Department)

      Of the 174 partner agencies we surveyed, we obtained responses from
148 regarding the ATF’s promotion of NIBIN. While 70 percent (103) of the
responding agencies indicated that the ATF had provided assistance or
guidance in promoting the NIBIN program, the remaining 30 percent (45)
indicated that the ATF did not provide such assistance or guidance.

      Of the 411 participating non-partner agencies we surveyed, we
obtained responses from 228 agencies. From the responses, it appears that
the ATF’s promotion of the NIBIN program has not been effective. The
following table illustrates that the majority of these agencies were not aware
of the following ATF initiatives to promote the NIBIN program.




                                      34
                  Analysis of Participating Non-Partner Agency Responses
                   Related to the ATF’s Promotion of the NIBIN Program
                                                 Aware           Not Aware
                 ATF Initiative             Number Percent Number Percent
      NIBIN Publications                      59       26%      169     74%
      NIBIN Pamphlets                         57       25%      171     75%
      Presentations at law enforcement
      conferences                             53       23%      175     77%
      Visual aids at law enforcement
      conferences                             47       21%      181     79%
      Communication with NIBIN users          56       25%      172     75%
      Communication with ATF local
      and regional representatives            90       39%      138     61%
     Source: Survey Questionnaires Returned by Participating Non-Partner Agencies

            We also asked the participating non-partner agencies about their level
     of understanding of the NIBIN program as another way to measure the ATF’s
     effectiveness in promoting it. We found that about half the agencies had a
     high or medium level of understanding of certain aspects of the NIBIN
     program, while the other half had a low or no understanding, or did not
     answer the question, as shown in the following table.

                        Analysis of Participating Non-Partner Agencies’
                             Understanding of the NIBIN Program
                                                Percent                          Percent
 NIBIN Program Issues                            High/                No       Low/None/
                                High Medium     Medium   Low None   Answer     No Answer
 Ballistic imaging               39    64         45%     68   20     37          55%
 Usefulness of the entry of all
 projectiles, discharged
 cartridge casings, and test-
 fired evidence from firearms
 collected                       46    70       51%       63   20      29        49%
 Role of state and local law
 enforcement agencies in the
 NIBIN program                   43    71       50%       64   21      29        50%
 Definition of a “hit” in NIBIN  56    61       51%       58   22      31        49%
Source: Survey Questionnaires Returned by Participating Non-Partner Agencies

           For the 85 non-participating non-partner agencies surveyed, we
     obtained responses from 28 agencies. From the responses, it appears that
     the ATF’s promotion of the NIBIN program has been even less effective. The
     table below shows that the majority of these agencies were not aware of the
     following ATF initiatives to promote the NIBIN program.




                                           35
                      Analysis of Non-Participating Agency Responses
                    Related to the ATF’s Promotion of the NIBIN Program
                                                  Aware            Not Aware
                 ATF Initiative              Number Percent Number Percent
     NIBIN Publications                         6       21%       22      79%
     NIBIN Pamphlets                            2        7%       26      93%
     Presentations at law enforcement
     conferences                                3       11%       25      89%
     Visual aids at law enforcement
     conferences                                3       11%       25      89%
     Communication with NIBIN users             0        0%       28     100%
     Communication with ATF local and
     regional representatives                  10       36%       18      64%
    Source: Survey Questionnaires Returned by Non-Participating Agencies

            We also asked the non-participating non-partner agencies about their
     level of understanding of the NIBIN program as another way to measure the
     ATF’s effectiveness of promoting the program. We found that few agencies
     had a high or medium level of understanding of certain aspects of the NIBIN
     program, while most had a low or no understanding of the program, or did
     not answer the question, as shown in the table below.

                          Analysis of Non-Participating Non-Partner
                        Agencies’ Understanding of the NIBIN Program
                                           Percent                            Percent
 NIBIN Program Issues                       High/                    No     Low/None/
                           High   Medium   Medium    Low    None   Answer   No Answer
 Ballistic imaging          0       3        11%      6      7       12        89%
 Usefulness of the entry
 of all projectiles,
 discharged cartridge
 casings, and test-fired
 evidence from firearms
 collected                  0       4       14%        6       6       12        86%
 Role of state and local
 law enforcement
 agencies in the NIBIN
 program                    0       2        7%        6       8       12        93%
 Definition of a “hit” in
 NIBIN                      1       2       11%        6       7       12        89%
Source: Survey Questionnaires Returned by Non-Participating Non-Partner Agencies

           In addition to the ATF’s promotion of the NIBIN program, the partner
     agencies also promote the program to law enforcement agencies within their
     area to increase participation by non-partner agencies. During our visits to
     the NIBIN partner agencies, we determined that while some of them
     encourage other law enforcement agencies to participate, many do not
     encourage such participation. Examples of responses from the partner
     agencies that encourage participation included:
                                           36
     •   At least three times a year, representatives attend the police chief’s
         monthly meetings and discuss the NIBIN program. (Rhode Island
         State Crime Laboratory)

     •   Letters are sent to other law enforcement agencies promoting the
         use of the NIBIN program. (Omaha, Nebraska, Police Department
         Crime Laboratory)

     •   Brochures and e-mails are sent to other law enforcement agencies
         promoting the NIBIN program. Contacts with other agencies are
         made in person and by phone. The IBIS equipment is co-located
         with the training academy, and as a result, one of the courses for
         the recruits is related to NIBIN. (New Mexico Department of Public
         Safety – Santa Fe)

     •   Routine visits are conducted at rural police departments to inform
         them of the importance of submitting their evidence. Also,
         demonstrations are done on how to test-fire firearms and how to
         submit firearms evidence. In addition, monthly presentations are
         made to police departments and police chiefs about the laboratory
         operations, which include sections on the NIBIN program.
         (Tacoma, Washington, State Patrol Crime Laboratory)

     •   Presentations, which include sections about the NIBIN program, are
         made to local police departments and police chiefs. (Erie County,
         New York, Forensic Laboratory)

     Examples of responses from the partner agencies that did not
encourage participation included:

     •   We do not solicit other law enforcement agencies because the
         agency is too busy to take on more work, and because the county
         and the state already have their own equipment. (Minneapolis,
         Minnesota, Police Department)

     •   Law enforcement agencies are not solicited to submit firearms
         evidence. Most of the department’s 11 police districts are serviced
         and very few requests are from outside of the department.
         (Boston, Massachusetts, Police Department)

     •   Because of the caseload and because the state bureau of
         investigations performs firearms evidence entries for other law
         enforcement agencies, specific solicitations to law enforcement

                                      37
         agencies are not performed. Entries are performed for federal
         agencies, however. (Denver, Colorado, Police Department)

     •   As a crime laboratory, the agency does not solicit law enforcement
         agencies within their service area to submit firearms evidence,
         because it creates the feeling of animosity by encroaching on
         someone else’s area of responsibility. (Los Angeles, California,
         Police Department)

       We also sent survey questionnaires to the remaining 174 partner
agencies that contributed evidence to NIBIN to determine whether they
solicit other law enforcement agencies to participate in the NIBIN program.
Of the 160 partner agencies that returned the questionnaires, we
determined that:

     •   77 percent (123) stated that they do solicit other law enforcement
         agencies within their service area to submit firearms evidence,

     •   21 percent (33) of respondents indicated they do not encourage law
         enforcement agencies within their service area to submit firearms
         evidence, and

     •   2 percent (4) did not respond.

       We assessed the level of outreach of the NIBIN partner agencies from
the data in the NIBIN database by analyzing the number of law enforcement
agencies that had submitted evidence to each partner agency. The analysis
showed that while some partner agencies received evidence from other law
enforcement agencies for entry into NIBIN, many partner agencies received
very little evidence from other law enforcement agencies. For the 196
partner agencies that had contributed data to NIBIN, the average number of
law enforcement agencies that submitted data to a partner agency was 48
and the median was 32. One partner agency (Pennsylvania State Police –
Harrisburg) contributed data to NIBIN that was submitted by 478 other law
enforcement agencies, while 13 partner agencies only contributed their own
data. We found that 26 percent (51) of the 196 partner agencies either had
not received evidence from any other law enforcement agencies or had
received evidence from 10 or fewer other law enforcement agencies.

      Our analyses of data in the NIBIN database; interviews of partner
agency officials during site visits; and analyses of responses obtained from
partner agencies, participating non-partner agencies, and non-participating
non-partner agencies led us to conclude that the NIBIN program has not
been fully promoted to law enforcement agencies by the ATF or by the NIBIN
partner agencies. In our judgment, this lack of promotion contributes
                                        38
significantly to the low participation in the program by many partner and
non-partner agencies. The effectiveness of the NIBIN program could be
improved if the ATF more aggressively promotes NIBIN’s benefits in helping
to solve crimes, and encourages the partner agencies to promote the NIBIN
program to other law enforcement agencies in their area.

Collecting and Submitting Firearms Evidence

       Another factor essential to the success of the NIBIN program is for the
participating agencies to enter the maximum amount of evidence into the
system. As shown earlier, the more evidence entered into the system, the
greater the chance that hits will be identified. ATF officials told us it is not
only important to enter as much evidence as possible, but also to enter both
bullets and cartridge casings to take full advantage of the system’s
capabilities. To determine if the participating partners and non-partners
were entering the maximum evidence into the system, we determined the
type of data being entered by: (1) analyzing the evidence data entered into
NIBIN for each partner agency, (2) visiting 22 partner agencies and
discussing with agency officials the type of evidence entered into the
system, (3) sending survey questionnaires to the remaining 174 partners
that contributed evidence to NIBIN and to a sample of 411 participating non-
partner agencies asking similar questions, and (4) contacting via telephone
all the agencies that received the RBI units for imaging cartridge casings.

      Our analysis of the evidence entered into NIBIN showed that 72
percent (640,652) of the evidence entered was cartridge casings and only 28
percent (247,702) of the evidence was bullets. We analyzed this data
further and found that the top 10 percent of partner agencies that
contributed the most balanced mix of bullets and cartridge casings
contributed from 55 percent bullets/45 percent cartridge casings to 42
percent bullets/58 percent cartridge casings as shown in the following table.

        Analysis of Evidence Entered into NIBIN by Partner Agencies
        Contributing a Balanced Mix of Bullets and Cartridge Casings
                                                                         % Cartridge
                            Total                % Bullets   Cartridge   Casings To
        Partner           Evidence    Bullets    To Total     Casings       Total
        Agency            Entered     Entered    Evidence     Entered     Evidence
ATF Laboratory –
Walnut Creek (CA)            12,141      6,638     55%           5,503      45%
Florida Department of
Law Enforcement –
Pensacola                     1,575       817      52%             758      48%
North Carolina State
Bureau of Investigation
Crime Lab                    14,624      7,350     50%           7,274      50%
                                                                         % Cartridge
                                         39
                           Total              % Bullets     Cartridge     Casings To
          Partner        Evidence   Bullets   To Total       Casings         Total
          Agency         Entered    Entered   Evidence       Entered       Evidence
 Baltimore Co. PD             1,770      863    49%                907       51%
 Florida Department of
 Law Enforcement –
 Tampa                        7,307    3,521    48%             3,786        52%
 Erie Co. (NY) Forensic
 Lab                          2,411    1,131    47%             1,280        53%
 Georgia Bureau of
 Investigation – Decatur    33,175    15,209    46%            17,966        54%
 Charlotte PD                 9,339    4,322    46%             5,017        54%
 Knoxville PD                   235      106    45%               129        55%
 Greenville (SC) PD           1,745      761    44%               984        56%
 Georgia Bureau of
 Investigation –
 Savannah                     6,276    2,738    44%             3,538        56%
 ATF Laboratory –
 Atlanta                     19,744    8,649    44%            11,095        56%
 Hickory (NC) PD              1,372      604    44%               768        56%
 Bergen Co. (NJ)
 Sheriff’s Office             1,243      551    44%               692        56%
 North Dakota Dept. Of
 Health                           9         4   44%                 5        56%
 State of Connecticut
 Department of Public
 Safety                       5,663    2,418    43%             3,245        57%
 San Mateo Co. Sheriff's
 Office                         814      349    43%               465        57%
 Alabama Department of
 Forensic Sciences –
 Huntsville                   1,052      446    42%               606        58%
 Pasadena (TX) PD             1,566      664    42%               902        58%
 Kansas City Regional
 Crime Lab                      903      383    42%               520        58%
Source: OIG Analysis of NIBIN Database Evidence Data

      By comparison, the bottom 12 percent of partner agencies that
entered the fewest bullets as compared to cartridge casings contributed from
0 (zero) percent bullets/100 percent cartridge casings to 1 percent
bullets/99 percent cartridge casings as shown in the following table.

       Analysis of Evidence Entered into NIBIN by Partner Agencies
      Contributing Mostly Cartridge Casings and Few or No Bullets
                           Total                % Bullets    Cartridge     % Cartridge
        Partner          Evidence    Bullets    To Total      Casings       Casings To
        Agency           Entered     Entered    Evidence      Entered     Total Evidence
Newark (NJ) PD                 896          -      0%               896       100%
Massachusetts State
Police – Sturbridge            344          -      0%               344       100%


                                      40
                           Total               % Bullets   Cartridge    % Cartridge
          Partner        Evidence    Bullets   To Total     Casings      Casings To
          Agency         Entered     Entered   Evidence     Entered    Total Evidence
 Washington State Police
 – Spokane                      587         -     0%             587         100%
 Northern Utah
 Laboratory – Ogden             370         -     0%             370         100%
 Maryland State Police        1,924         -     0%           1,924         100%
 Illinois State Police –
 Fairview Heights             1,387         -     0%           1,387         100%
 Los Angeles Co. Sheriff's
 Office                       3,544         -     0%           3,544         100%
 Illinois State Police –
 Springfield                    481         -     0%             481         100%
 San Bernardino Co.
 Sheriff’s Office             1,634         1     0%           1,633         100%
 New York State Police –
 Albany                         955         1     0%             954         100%
 Washington State Patrol
 – Seattle                    5,659         7     0%           5,652         100%
 Las Vegas Metro PD             703         1     0%             702         100%
 California Department of
 Justice – Riverside            462         1     0%             461         100%
 Wisconsin State Patrol –
 Milwaukee                    2,370         6     0%           2,364         100%
 Massachusetts State
 Patrol – Sudbury             1,564         7     0%           1,557         100%
 Massachusetts State
 Patrol – Danvers               192         1     1%             191         99%
 Miami-Dade PD                7,597        43     1%           7,554         99%
 Minneapolis PD               1,713        10     1%           1,703         99%
 Tucson PD                    1,284         9     1%           1,275         99%
 Southwestern Institute of
 Forensic Sciences –
 Dallas                       1,378        12     1%           1,366         99%
 Bexar Co. (TX)
 Laboratory                     525         5     1%             520         99%
 Rhode Island State Crime
 Laboratory                   7,988        82     1%           7,906         99%
 Illinois State Police –
 Morton                         485         5     1%             480         99%
Source: OIG Analysis of NIBIN Database Evidence Data

      In our survey questionnaires and during our site visits to the partner
agencies, we asked officials to explain why they were not entering bullets
into NIBIN. Examples of responses from the partner agencies included:

      •    Bullets are not entered due to the shortage of manpower. There
           are priority cases that have to be worked in addition to NIBIN.
           More hits are from cartridge casings. (Prince George’s County,
           Maryland, Police Department)
                                        41
      •   The entry of bullets is extremely time-consuming and the system
          was not well-designed for bullets. (Minneapolis, Minnesota, Police
          Department)

      •   Some bullets from evidence are entered, but not from test-fires.
          The process takes considerably more time than entering cartridge
          casings and the hit rate on bullets is much lower than on cartridge
          casings. (Omaha, Nebraska, Police Department Crime Laboratory)

      •   Bullets are not entered due to the backlog of evidence awaiting
          entry. (Allegheny County, Pennsylvania, Coroner’s Office Forensic
          Laboratory Division)

      •   Bullets are not entered because: (1) the quality of the correlation
          result is poor, (2) minimal returns on results are obtained,
          (3) enough manpower is not available to enter both bullets and
          cartridge casings, and (4) the IBIS equipment does not allow for
          easy imaging of bullets. (Los Angeles, California, Police
          Department)

      •   Bullet evidence is not entered due to the low probability of success.
          (Illinois State Police – Joliet)

      We obtained similar responses from the participating non-partner
agencies that responded to our survey, 25 percent of whom indicated that
they submit few to no bullets for entry into NIBIN.

       As the responses show, the consistent theme from both the partner
agencies and the participating non-partner agencies is that the: (1) process
of entering bullets is difficult and time consuming, and (2) quality of bullet
images produced by the IBIS equipment is not adequate to produce enough
hits for the agencies to spend the time and resources necessary to enter
bullet evidence into NIBIN. The NIBIN Program Director agreed that some
partner agencies are not entering bullets into NIBIN. Consequently, the ATF
needs to determine whether new technology exists that will improve the
image quality of bullets enough to make it worthwhile for the participating
agencies to spend resources to enter the bullet data into NIBIN.

       In our interviews with the agencies that received RBI units for imaging
cartridge casings, we determined that most of the agencies were not
satisfied with the operation of the RBI units. Consequently, some of the
agencies returned the RBI units to the ATF and others were no longer using
them to enter cartridge casing evidence into NIBIN. We contacted 28
agencies that had received the RBI units to inquire about their use of the
                                      42
RBI units. We obtained responses from 25 of the 28 agencies regarding
their satisfaction and use of the RBI units. The discussions we had with 20
of the 25 agencies indicated they were not satisfied with the operation of the
RBI units. A sample of the comments we received from these agencies
included:

      •   The RBI unit is very unreliable, the modem fails, and the agency
          has trouble connecting to its RDAS partner. (Aurora, Colorado,
          Police Department)

      •   The RBI unit is no good, the lighting is bad, the images are not
          clear, and the download is slow. (Bridgeport, Connecticut, Police
          Department)

      •   The equipment breaks down often. (North Louisiana Crime
          Laboratory – Alexandria)

      •   All RBI units should be replaced with RDAS units. The lines should
          be upgraded to download faster. Also, 3-D imaging technology
          should be incorporated into the system. (Rockland County, New
          York, Sheriff’s Department)

      •   The system failed on several occasions and was down at least four
          months this past year. (Youngstown, Ohio, Police Department)

       From our discussions, we determined that 6 of the 25 agencies had
returned the RBI units to the ATF. In addition, 4 of the remaining 19
agencies indicated that they had either stopped using the RBI units to enter
cartridge casing evidence into NIBIN or used the units sparingly. The NIBIN
Program Director told us that the equipment manufacturer had developed a
new unit that is much better at imaging cartridge casings than the RBI units,
but the new unit is much more costly. We later were told by the NIBIN
program staff that the RBI unit is considered to be obsolete and is no longer
in production by the manufacturer. Given the dissatisfaction among users of
the RBI units, the ATF needs to perform an analysis of the current RBI users,
and any other potential users, to determine if they would use the new unit
enough to warrant the additional cost.

Images Correlation Process

     Another key factor that contributes to the success of the NIBIN
program is measuring similarities between ammunition components by
comparing their images entered into NIBIN using the IBIS equipment. This
process is referred to as the “correlation” process and resulting
measurements are called “correlations.” The process works as follows:
                                       43
      •   When images are captured by an RDAS unit, the data is sent from
          the unit to the regional server for storage and to generate
          correlations against other images in the regional database. Images
          that are captured by an RBI unit are sent by telephone line to the
          assigned RDAS unit. After a quality review, the images are
          transmitted to the regional server for comparison against images of
          other items in the regional database.

      •   The correlations of images are computed by algorithm electronically
          after examining the similarities between two images. If the images
          are very similar, they likely represent images of ammunition
          components fired from the same firearm.

      •   After the algorithm on the server compares the images, it ranks the
          list of images based on their correlation results. Since this process
          is automated by comparing images algorithmically, potential
          matches can be found in a large volume of images much faster than
          a firearms technician or examiner can view them manually.

      •   The correlation results for images with very high correlation scores
          are electronically sent back to the RDAS unit for evaluation.

      •   If the correlation results originated from an RBI unit, the agency
          possessing the RBI is telephoned with the results.

      After the correlation process is completed, the IBIS technician at the
submitting agency reviews the correlation results, selecting the top matches
and identifying these matches in the IBIS system as high-confidence
candidates. The high-confidence candidates must then be reviewed and
examined by a licensed firearms examiner who determines whether they are
actual matches resulting in a hit. To make this determination, the firearms
examiner obtains the original evidence to compare with the high-confidence
candidates. If the comparison results in a hit, the firearms examiner notifies
the IBIS technician, who then identifies the hit in the system.

      During our initial visits to NIBIN partner agencies, we found a very
high-volume NIBIN partner (Georgia Bureau of Investigation – Decatur) that
did not perform reviews of high-confidence candidates. At the time of our
audit, the Georgia agency had not reviewed and examined high-confidence
candidates since January 2002 – about 3,350 high-confidence candidates.
An official from the Georgia Bureau of Investigation stated that high-
confidence candidates were not being reviewed because: (1) funding for
overtime for firearms examiners was not available, and (2) firearms
examiners had not had the opportunity to work with the IBIS equipment.
                                        44
The agency official also told us that using the IBIS equipment was
considered a duty outside of the firearm examiner’s daily laboratory
activities.

       When partner agencies do not review the hits on high-confidence
candidates, it is a serious failure in utilizing the program’s capability.
Further, if high-confidence candidates are not reviewed, hits from the data
entered into NIBIN cannot be identified and leads that might help find and
convict a person involved in a firearms-related crime may not be pursued.
In addition, the significant amount of resources used to collect, transport,
store, protect, and enter the evidence into IBIS could be wasted. This
situation was magnified because the Georgia Bureau of Investigation was a
state crime laboratory that participating non-partner agencies relied on by
submitting evidence for entry into IBIS. However, because the state crime
laboratory did not review high-confidence candidates, the submitting non-
partner agencies did not receive any benefits from the submitted data.

      After identifying this problem, we asked the ATF if it had a routine
report showing the non-viewed correlations for each NIBIN partner agency
to determine whether other partner agencies were not reviewing the
correlations. The ATF responded that it did not have a standard NIBIN
report that showed this data, but stated that it was able to query NIBIN and
produce a report (NIBIN Non-Viewed Correlation Requests Report) showing
the non-viewed correlations as of September 30, 2004. The report identified
100 partner agencies that had a total of 4,024 bullet evidence correlations
recorded in NIBIN as non-viewed and 155 partner agencies that had a total
of 18,379 cartridge case evidence correlations recorded in NIBIN as non-
viewed.

        During our subsequent visits, we asked 15 NIBIN partner agencies to
verify the non-viewed correlation numbers shown on the NIBIN Non-Viewed
Correlation Requests Report. The partner agencies confirmed that the report
numbers agreed with the data in NIBIN. However, the partner agencies told
us that while the correlations were shown in NIBIN as non-viewed, they
actually had been reviewed, but NIBIN had not been updated to show this.
The partner agencies gave the following reasons for why the correlations had
not been updated in NIBIN:

      •   The NIBIN partners did not know how to use the “correlation
          viewed” feature within the system. As a result, the correlations
          were shown as not being viewed on the ATF’s report.

      •   The number of non-viewed correlations was representative of the
          volume of evidence that is put into the IBIS system on a daily
          basis. It takes about four hours from the time evidence is entered
                                       45
         until the time any correlations are ready for viewing. Consequently,
         the amount of non-viewed correlations was not really a backlog.

     •   The number of non-viewed correlations represented evidence that
         was downloaded from an RBI unit to another agency’s RDAS unit
         and the correlations were marked as viewed on the other agency’s
         RDAS unit. Later this agency received a RDAS unit and the NIBIN
         contractor downloaded the previous correlations to the new RDAS
         unit. Consequently, all the correlations appeared erroneously as
         non-viewed.

     •   A software upgrade caused previously viewed items to be reported
         as non-viewed.

     •   Correlations on the system were generated as experimental entries.

     •   The correlations were primarily from test-fired firearms. Personnel
         that were responsible for the entries for two years were in training
         to become a full-time firearms examiner and were not able to keep
         up with the correlations.

      Given the problems associated with the Georgia Bureau of
Investigation and the inaccurate data contained in the NIBIN Non-Viewed
Correlation Requests Report, the ATF needs to: (1) provide guidance to
partner agencies on the necessity to view correlations in a timely manner
and to ensure that they are properly marked as viewed in NIBIN, and
(2) monitor the non-viewed correlations by partner agencies, and take
corrective actions when a backlog of correlations is identified.

Backlogged Evidence

       The success of NIBIN depends on firearms evidence being entered into
the system as soon as possible. Otherwise, leads generated from the
system and from subsequent firearm examiners’ analyses of the evidence
may not be identified and followed-up on quickly enough to prevent
additional crimes from occurring. To determine whether participating
agencies were timely entering firearms evidence into NIBIN, we visited 22
NIBIN partner agencies and sent survey questionnaires to the remaining 174
partner agencies that had contributed evidence to NIBIN and to 411
participating non-partner agencies.

      During our visits to the 22 partner agencies, we found that many of
the agencies had significant backlogs of firearms evidence that had not been
entered into NIBIN. Below are some of the results:

                                     46
       •    1,000 or more bullets and cartridge casings, and 269 test-fired
            bullets, cartridge casings, and firearms (Prince George’s County,
            Maryland, Police Department) 36

       •    3,079 test-fired bullets and 5,202 test-fired cartridge casings
            (Georgia Bureau of Investigation – Decatur)

       •    500 bullets and cartridge casings, and 6 firearms awaiting test-fire
            (Hickory, North Carolina, Police Department)

       •    331 bullets and 940 cartridge casings (New Orleans, Louisiana,
            Police Department)

       •    100 test-fired bullets and cartridge casings and 300 cartridge
            casings (Rhode Island State Crime Laboratory)

       •    716 cartridge casings and bullets, and 1,730 test-fired cartridge
            casings and bullets (Los Angeles, California, Police Department)

      For the 174 partner agencies surveyed, 160 returned the survey
questionnaires to us. From the questionnaires returned, we determined that
many of the partner agencies had significant backlogs of firearms evidence
that had not been entered into NIBIN as shown in the following table.

          Summary of Partner Agency Survey Responses Indicating
               a Backlog of Evidence Awaiting Entry into NIBIN
                                                      Number    Amount
                                                         of     Awaiting
                    Type of Backlog                   Agencies   Entry 37
   Bullets collected                                         86     4,905
   Cartridge cases collected                                107    10,796
   Bullets from test-fired firearms collected                55    10,911
   Cartridge casings from test-fired firearms
   collected                                                 70     5,289
   Firearms awaiting test-fire                              119     9,738
 Source: Survey Questionnaires from Partner Agencies




       36
          An official at this partner agency told us that the backlog of bullets numbered in
the thousands. Since an exact number was not known, we used a conservative estimate of
1,000 or more.
       37
         The amount of evidence awaiting entry into NIBIN is a conservative estimate
because some agencies did not provide numbers and other agencies provided only a range
of numbers. In all cases, we used the lower estimate.
                                             47
      The primary reasons that the partner agencies provided for backlogged
evidence were staffing shortages, other priorities, and the large volume of
evidence submitted.

       For the 411 participating non-partner agencies surveyed, 228 returned
the survey questionnaires to us. From the questionnaires returned, we
determined that the participating non-partner agencies did not have a
significant amount of firearms evidence that had not been entered into
NIBIN.

        Any delays in entering firearms evidence into NIBIN prevents matching
the evidence to other evidence in the system, which could lengthen the time
it takes to identify and apprehend a criminal, or could result in additional
crimes being committed before the criminal is caught. Therefore, the ATF
needs to develop strategies to help the partner agencies eliminate the
current backlog of firearms evidence awaiting entry into NIBIN. The
research should consider whether: (1) the partner agencies can send their
backlogged evidence to the ATF laboratories or to other partner agencies for
entry into NIBIN, and (2) improvements to the efficiency of NIBIN would
facilitate more rapid and easy entry of evidence.

Federal Agencies

      In January 2001, the Secretary of Treasury and the Attorney General
issued memoranda requiring that all law enforcement agencies within those
two departments should trace every recovered crime firearm through the
ATF’s National Tracing Center and enter bullets and cartridge casings found
at crime scenes into NIBIN (See Appendix X).

       To determine whether the Department of Justice agencies were
complying with the January 2001 directive, we sent survey questionnaires to
the ATF, FBI, Drug Enforcement Administration (DEA), Federal Bureau of
Prisons (BOP), and United States Marshals Service (USMS) to ask whether or
not they collect firearms evidence. We found that all of the agencies except
the BOP collect such evidence. The BOP indicated that it does not collect
firearms evidence because this type of enforcement falls within the
jurisdiction of the FBI. Four agencies – the ATF, FBI, DEA, and USMS – also
indicated that they submit firearms evidence for entry into NIBIN. The DEA
said that the only locations that participate in the NIBIN program are the
Los Angeles, Chicago, and New York division offices. The DEA also explained
that it is currently working to revise the guidance given to division offices on
the ballistic testing of seized firearms, and that it will be working with the
ATF on specific requirements for firearms submissions to the NIBIN program.
We reviewed the firearms evidence data in NIBIN as of October 22, 2004,

                                      48
and found that while the ATF and FBI had many offices contributing data to
NIBIN, the DEA and USMS had much lower participation as shown below.

                   Participation in NIBIN by Department
                   of Justice Law Enforcement Agencies
                                Offices         Amount
                              Contributing      Of Data
                   Agency        Data         Contributed
                  ATF             114              25,170
                  FBI              76               2,170
                  DEA              38                 719
                  USMS             13                  50
                 Source: NIBIN database

       To ensure the ATF and other federal agencies adhere to the directive
established by the Attorney General and the Secretary of the Treasury, the
ATF developed a pilot program in August 2003 that placed IBIS equipment
for at least one year in the ATF’s newly formed Southern California Regional
Crime Gun Center, known as the Los Angeles Gun Center (Gun Center). The
pilot project required the ATF to hire an IBIS technician on a contract basis
to work at the Gun Center and enter images of the ATF’s recovered firearms
evidence, as well as images of all firearms evidence recovered by other
federal agencies in Southern California.

       One of the purposes of the pilot program was to determine the
feasibility and resources for imaging 100 percent of the recovered firearms
by federal agencies. Before the pilot program ended, the ATF and its NIBIN
contractor (Forensic Technology, Inc.) developed protocols and procedures
for test-firing and imaging all firearms recovered in the Southern California
area. Protocols were also developed for maintaining and archiving test-fired
evidence and associated documentation, so that the firearms evidence could
be destroyed. The NIBIN Program Director told us, however, that funding
was not available for the ATF to test-fire all federally seized firearms and
enter all firearms evidence collected by federal agencies into NIBIN. Given
the funding situation, the ATF needs to coordinate with the other
Department of Justice law enforcement agencies that seize firearms and
firearms evidence to help them establish a process for entering the seized
evidence into NIBIN.

Conclusion

       We found that only about 20 percent of the law enforcement agencies
nationwide participate in NIBIN. We believe the ATF could improve
participation by: (1) better promoting the use and benefits of NIBIN to law
enforcement agencies, and (2) involving the partner agencies more in
                                     49
promoting the NIBIN program to other law enforcement agencies in their
area. We also found that many participating agencies: (1) were not
satisfied with the quality of images produced by NIBIN from bullet evidence,
and (2) believed that it was not cost-effective to enter bullet evidence into
NIBIN because very few hits result from the poor-quality bullet images.

       The ATF needs to determine if new technology exists that will improve
the image quality of bullets enough to make it worthwhile for the
participating agencies to spend limited resources to enter the bullet data into
NIBIN. In addition, we found the potential matches in NIBIN had not been
reviewed by one high-volume partner agency since January 2002.
Consequently, potential leads that might result from reviewing potential
matches were not identified and pursued. Finally, the ATF needs to provide
guidance to NIBIN partners stressing the importance of viewing correlations
in a timely manner and for ensuring that NIBIN accurately reflects the status
of those viewed correlations.

Recommendations:

We recommend that the ATF:

3.   Ensure that NIBIN partner agencies enter the ORI number of the
     contributing agency for all evidence entered into NIBIN.

4.   Resolve the duplicate case ID number issue in the NIBIN database for
     the Colorado Bureau of Investigation – Montrose; and the Rhode Island
     State Crime Laboratory.

5.   Research the reasons why 12 agencies have achieved high hit rates with
     relatively low number of cases entered into NIBIN and share the results
     of such research with the remaining partner agencies.

6.   Establish a plan to enhance promotion of NIBIN to law enforcement
     agencies nationwide to help increase participation in the program. The
     plan should address steps to: (1) increase the partner agencies’ use of
     the system, (2) increase the non-partner agencies’ awareness and use
     of the system, and (3) encourage the partner agencies to promote the
     NIBIN program to other law enforcement agencies in their area.

7.   Determine whether new technology exists that will improve the image
     quality of bullets enough to make it worthwhile for the participating
     agencies to spend valuable resources to enter the bullet data into
     NIBIN, and deploy the technology if it is cost-effective.


                                      50
8.   Perform an analysis of the current RBI users, and any other potential
     users, to determine if they would use an improved system enough to
     warrant the additional cost. If the analysis concludes that another
     system would be cost-effective, then the ATF should pursue funding to
     obtain the system.

9.   Provide guidance to partner agencies on the necessity to view
     correlations in a timely manner and to ensure that correlations viewed
     in NIBIN are properly marked.

10. Monitor the non-viewed correlations of partner agencies and take
    corrective actions when a backlog is identified.

11. Research ways to help the partner agencies eliminate the current
    backlog of firearms evidence awaiting entry into NIBIN. The research
    should consider whether the partner agencies can send their backlogged
    evidence to the ATF Laboratories or to other partner agencies for entry
    into NIBIN, and whether improvements to the efficiency of NIBIN would
    facilitate more rapid and easy entry of evidence.

12. Coordinate with Department of Justice law enforcement agencies that
    seize firearms and firearms evidence to help them establish a process
    for entering the seized evidence into NIBIN.




                                     51
            3. PREVENTING ENTRY OF NEW FIREARMS
            DATA INTO NIBIN

            Federal law prohibits the entry of ballistic images from
            newly manufactured, imported, or sold firearms into
            NIBIN. To ensure that this prohibition is followed, the ATF
            established a control that consists of NIBIN users signing
            an MOU agreeing not to enter such data. We tested the
            effectiveness of this control system and found no evidence
            that prohibited data had been entered into NIBIN.

NIBIN Data Prohibitions

       The Firearms Owners’ Protection Act of 1986 (the Act) prohibits the
establishment of any system of registration of firearms, firearms owners, or
firearms transactions or dispositions. This provision prohibits directly linking
ballistic images through a centralized computer database to both the
firearms themselves (which would constitute a firearms registry), and the
identities of the private citizens who possess image firearms (which would
constitute a firearms owners’ registry). The Act states that:

      No such rule or regulation prescribed after the date of the
      enactment of the Firearms Owners’ Protection Act may require
      that records required to be maintained under this chapter or
      any portion of the contents of such records, be recorded at or
      transferred to a facility owned, managed, or controlled by the
      United States or any state or any political subdivision thereof,
      nor that any system of registration of firearms, firearms
      owners, or firearms transactions or dispositions be established.

      Language included in the ATF’s annual appropriations bill also requires
that ballistic images of bullets and cartridge casings from newly
manufactured, imported, or sold firearms are not to be available in or
connected to NIBIN. Therefore, the IBIS equipment deployed to law
enforcement agencies participating in the NIBIN program should not be used
to capture or store such ballistic images.

Controls Established by the ATF

      We interviewed ATF officials, observed the entry of data into NIBIN by
users, and obtained and reviewed documentation provided by ATF officials.
The ATF officials explained that it requires NIBIN users to sign an MOU that
forbids them from entering the prohibited data. The MOU states:


                                      52
       Ballistic imaging systems provided and deployed by ATF to
       other federal, state, or local law authorities may be used only
       for imaging operations associated with criminal law
       enforcement functions. Systems deployed to other federal,
       state, or local authorities shall not be used to capture, directly
       search, or store ballistic images acquired at the point of
       manufacture, importation, or sale.

      Since NIBIN does not contain controls to prevent the entry of
prohibited data, we asked an ATF official how such entry can be prevented.
She told us that the ATF does not monitor the data entered by NIBIN users,
but that it is unlikely that they are entering prohibited ballistic images into
the system because they are fully aware of the MOU prohibition.

      To evaluate whether NIBIN users were aware of and complying with
the MOU prohibition, we visited 22 NIBIN partner agencies during the audit
and sent survey questionnaires to the other 174 NIBIN partner agencies that
operated NIBIN RDAS units. We determined that all the NIBIN partner
agencies were aware of the MOU prohibition and we found no indication of
non-compliance. We also sent survey questionnaires to 411 participating
non-partner agencies in which we asked if the agencies submitted prohibited
data for entry into NIBIN. None of the participating non-partner agencies
that returned the questionnaires indicated that they submitted such data.

States That Maintain Their Own Databases

       An ATF official told us that two NIBIN partner agencies, the
Maryland State Police (MSP) Forensic Sciences Division and the New York
State Police (NYSP), also maintain state databases with ballistic images from
newly manufactured firearms. The ATF official said that it is unlikely these
NIBIN users are entering prohibited ballistic images into NIBIN because the
agencies are also fully aware of the MOU prohibition. We confirmed the ATF
official’s statement that the States of Maryland and New York had
established database systems for entering ballistic images from new
firearms. 38 Since these two agencies operate both NIBIN and a separate
state system for new firearms images, we evaluated their compliance with
the MOU prohibition by performing a comparison between the firearms data
in NIBIN and the firearms data in each agency’s system.



       38
           In April 2000, the State of Maryland adopted the first ballistic imaging law that
required the establishment of state ballistic imaging systems that directly link the images of
newly manufactured or sold firearms to firearms ownership. In August 2000, the State of
New York enacted a similar law that required the ballistic imaging of all handguns shipped
into the state after March 1, 2001.
                                             53
      Maryland State Forensic Sciences Division: The MSP system that
contains new firearms data is the Maryland-Integrated Ballistic Identification
System (MD-IBIS). MSP officials informed us that the State of Maryland
purchased its own IBIS equipment in September 2000 under the assumption
that they eventually would be able to connect it to the ATF's NIBIN and
share data. However, the MSP was told by the ATF that the data could not
be shared between the two systems because it was illegal to do so. We
observed that at the sole location where they co-exist, the NIBIN and MD-
IBIS systems were kept in separate rooms and each was accessible to
authorized staff only. In addition, according to MSP officials, the two
systems were not connected.

       The MSP officials also told us that they are aware of the federal law
prohibiting entry of new firearms information into NIBIN. Further, officials
believe their controls are strong enough to prevent any new firearms entry
into NIBIN, because the systems are kept separate and require checks and
double-checks before entry. We reviewed the MSP’s controls and did not
identify any weaknesses.

      To determine the MSP’s compliance with the prohibition against
entering firearms data from newly manufactured, imported, or sold firearms,
we obtained an electronic copy of the firearms data contained in the MSP’s
MD-IBIS system and the firearms data contained in the ATF’s NIBIN. The
MSP’s MD-IBIS system contained 47,798 firearms records and NIBIN
contained 254,187 firearms records. We performed a computerized
comparison between the data in both systems. The comparison identified
only 42 firearms entries from new firearms in the MD-IBIS system where the
same firearms were also entered in NIBIN. Of the 42 matching entries in
NIBIN, 32 were entered into NIBIN by the MSP, 8 were entered by the
Washington, D.C., Metropolitan Police Department, 1 was entered by the
Colorado Division of Investigation – Pueblo, and 1 was entered by the Los
Angeles, California, Police Department. However, all four agencies provided
documentation to show that the firearms were each entered into NIBIN as a
result of a crime and not as new firearms. Therefore, we concluded that the
MSP was complying with the prohibition against entering firearms data from
newly manufactured, imported, or sold firearms into NIBIN.

      New York State Police: The NYSP officials explained that they have
two state systems for entering firearms data. One system is used for the
entry of new firearms information and the other system is used for the entry
of crime-related firearms information. The two systems together are known
as the Combined Ballistic Identification System (COBIS). We will refer to the
COBIS system for new firearms data as COBIS 1 and the COBIS system for
crime-related firearms data as COBIS 2. The NIBIN and both the COBIS
systems were located only at the NYSP headquarters in Albany, New York.
                                     54
The NIBIN and the COBIS 2 system were located together in one room and
the COBIS 1 system was located in a separate room across the hall.

      The NYSP officials told us they were aware that the MOU with the ATF
prohibits the entry of newly manufactured, imported, or sold firearms into
NIBIN. Officials also said that they have not violated this MOU condition and
that since the State of New York requires the tracking of newly
manufactured, imported, or sold firearms, the state set up the separate
system (COBIS 1) with controls to identify and track such firearms. We
reviewed the NYSP’s controls and did not identify any weaknesses.

      To determine the NYSP’s compliance with the prohibition against
entering firearms data from newly manufactured, imported, or sold firearms,
we obtained an electronic copy of the firearms data contained in the NYSP’s
COBIS 1 system and the firearms data contained in the ATF’s NIBIN. 39 The
NYSP’s COBIS 1 system contained 90,063 firearms records and the NIBIN
contained 254,187 firearms records. We performed a computerized
comparison between the data in both systems. The comparison identified
only 14 firearms entries from new firearms in the COBIS 1 system where the
same firearms were also entered into NIBIN. Of the 14 matching entries in
NIBIN, 5 were entered into NIBIN by the NYSP; 3 were entered by the Erie
County, New York, Forensic Laboratory; 2 were entered by the Monroe
County, New York, Public Safety Laboratory; 2 were entered by the
Westchester County, New York, Police Department; 1 was entered by the
Massachusetts State Police; and 1 was entered by the Alabama Division of
Forensic Sciences laboratory. However, all six agencies provided
explanations to show that the firearms were each entered into NIBIN as a
result of a crime and not as new firearms. Therefore, we concluded that the
NYSP was complying with the prohibition against entering firearms data from
newly manufactured, imported, or sold firearms into NIBIN.




      39
          The NYSP provided us a copy of the data in their COBIS 1 system while we were
on-site and required that we return the data copy to them before we left the premises.
Since we were not able to keep a copy of the NYSP’s data, we had a NYSP official sign a
statement confirming the matches we found between the NYSP’s COBIS 1 data and the
NIBIN data.
                                           55
    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      We audited the Bureau of Alcohol, Tobacco, Firearms and Explosives’
(ATF) administration of the National Integrated Ballistic Information Network
(NIBIN) program. The audit covered the period from July 1999 to February
2005. The audit was conducted in accordance with the generally accepted
Government Auditing Standards.

      Compliance with laws and regulations is the responsibility of the NIBIN
Program Management Office. In connection with the audit and as required
by the Standards, we reviewed procedures, activities, and records to obtain
reasonable assurance about the Program Management Office’s compliance
with laws, regulations, and the Office of Management and Budget (OMB)
Circulars that, if not complied with, could have a material effect on program
operations.

      Our audit included examining, on a test basis, evidence about laws,
regulations, and OMB Circulars. The specific laws and regulations for which
we conducted tests are contained in the relevant portions of:

     •   OMB Circular A-123,

     •   the Firearms Owners’ Protection Act of 1986,

     •   annual appropriations for the Department of the Treasury for
         FY 1999 through FY 2003, and

     •   annual appropriations for the Department of Justice for FY 2004
         through FY 2005.

     We also reviewed the following laws, regulations, and NIBIN-related
documentation and procedural manuals applicable to the ATF’s
administration of the NIBIN program:

     •   Federal Firearms Regulations Reference Guide,

     •   Memorandum of Understanding between the ATF and the FBI,

     •   Memorandum of Understanding between the ATF and its NIBIN
         partner agencies,

     •   January 2001 memoranda from the Attorney General and the
         Secretary of the Treasury mandating participation of both
         departments’ law enforcement agencies in the NIBIN program,

                                     56
    •   ATF Office of Laboratory Services Policies and Procedures
        Guidelines,

    •   IBIS User’s Quick Reference Guide,

    •   IBIS User’s Guide, Version 3.3,

    •   IBIS User’s Training Guide, and

    •   IBIS User’s Training Course, Version 3.4.

      Except for instances of noncompliance identified in the Findings and
Recommendations section of this report, the NIBIN Program Management
Office was in compliance with the laws and regulations referred to above.




                                    57
                      ACRONYMS



ATF          Bureau of Alcohol, Tobacco, Firearms and
             Explosives
BOP          Bureau of Prisons
COBIS        Combined Ballistic Identification System
DEA          Drug Enforcement Administration
FBI          Federal Bureau of Investigation
GAO          Government Accountability Office
Gun Center   Southern California Regional Crime Gun Center
IBIS         Integrated Ballistic Information System
KBI          Kansas Bureau of Investigation
MD-IBIS      Maryland-Integrated Ballistic Identification
             System
MOU          Memorandum of Understanding
MSP          Maryland State Police
NIBIN        National Integrated Ballistic Information
             Network
NYSP         New York State Police
OMB          Office of Management and Budget
ORI          Originating Agency Reporting Identifier
PD           Police Department
RBI          Rapid Brass Identification
RDAS         Remote Data Acquisition Station
SO           Sheriff’s Office
The Act      Firearm Owners’ Protection Act of 1986
UCR          FBI’s Uniform Crime Reports
USMS         United States Marshals Service




                          58
                                                               APPENDIX I

           AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The objectives of our audit were to evaluate whether: (1) the National
Integrated Ballistic Information Network (NIBIN) program has been fully
deployed with the capability to compare ballistic images on a national level;
(2) controls are adequate to ensure that all bullets and/or cartridge casings
collected at crime scenes and from test-fires of crime firearms are entered
into NIBIN; and (3) controls are adequate to ensure that ballistic images of
bullets and cartridge casings from newly manufactured, imported, or sold
firearms are not available in, or connected in any way to NIBIN. We
performed our audit in accordance with the Government Auditing Standards
and, accordingly, included such tests of the procedures and practices, as we
deemed necessary.

Scope and Methodology

       As part of the audit, we reviewed applicable federal laws and
regulations, policies, procedures and management reports from the NIBIN
Program Management Office. We also interviewed officials from the NIBIN
Program Management Office; visited law enforcement agencies that were
provided IBIS equipment by the ATF and are considered NIBIN partner
agencies; and sent survey questionnaires to Department of Justice law
enforcement agencies, NIBIN partner agencies, NIBIN participating non-
partner agencies, and NIBIN non-participating non-partner agencies. We
also interviewed contractor personnel working on the NIBIN program in
connection with contracts established by the NIBIN Program Management
Office. We performed on-site audit work at the following 30 locations.

                       Agency Visited                   Location
         ATF Laboratory                            Ammendale, MD
         ATF Laboratory                            Atlanta, GA
         FBI Laboratory                            Quantico, VA
         Allegheny County Coroner’s Office         Pittsburgh, PA
         Boston Police Department                  Boston, MA
         Charlotte-Mecklenburg Police Department   Charlotte, NC
         Denver Police Department                  Denver, CO
         Detroit Police Department                 Detroit, MI
         Erie County Forensic Laboratory           Buffalo, NY
         Gastonia Police Department                Gastonia, NC
         Georgia Bureau of Investigation           Decatur, GA


                                     59
                         Agency Visited                Location
          Hickory Police Department               Hickory, NC
          Houston Police Department               Houston, TX
          Indianapolis-Marion County Forensic     Indianapolis, IN
          Laboratory
          Los Angeles Police Department           Los Angeles, CA
          Maryland State Police                   Pikesville, MD
          Minneapolis Police Department           Minneapolis, MN
          Mint Hill Police Department             Charlotte, NC
          Mississippi State Crime Laboratory      Jackson, MS
          New Mexico State Police                 Santa Fe, NM
          New Orleans Police Department           New Orleans, LA
          New York State Police Forensic          Albany, NY
          Investigation Center
          Omaha Police Department Crime           Omaha, NE
          Laboratory
          Prince George’s County Police           Landover, MD
          Department
          Rhode Island State Crime Laboratory     Kingston, RI
          Rowan County Sheriff’s Department       Salisbury, NC
          Salisbury Police Department             Salisbury, NC
          Statesville Police Department           Statesville, NC
          Tulsa Police Department                 Tulsa, OK
          Washington State Patrol Crime           Tacoma, WA
          Laboratory

      To determine whether the IBIS equipment has been fully deployed,
we:

      •   interviewed ATF officials concerning the methodology and process
          used to determine how the IBIS equipment would be deployed;

      •   obtained and reviewed documentation such as memoranda,
          schedules, and procedures related to the ATF’s deployment plan for
          NIBIN;

      •   obtained and analyzed a list showing the agencies that received the
          IBIS equipment and when the equipment was installed;

      •   compared the actual deployment of the IBIS equipment to the
          planned deployment schedule; and

      •   obtained and analyzed firearms data entered into NIBIN for both
          partner agencies and non-partner agencies.


                                      60
    To determine if NIBIN has been deployed with the capability to
compare ballistic images on a national level, we:

     •   interviewed ATF officials and made observations of the system’s
         capability to perform nationwide comparisons;

     •   visited 22 of the 196 NIBIN partner agencies that had received
         RDAS equipment as of October 22, 2004; and

     •   sent survey questionnaires to the remaining 174 partner agencies
         to understand how the nationwide comparison is used.

      To evaluate whether controls are adequate to ensure that all bullets
and/or cartridge casings collected at crime scenes and from test-fires of
crime firearms are entered into NIBIN, we:

     •   obtained a copy of the NIBIN database as of October 22, 2004, and
         determined it contained 888,447 records of firearms evidence,
         514,731 records of cases, and 254,187 records of firearms for 196
         NIBIN partner agencies;

     •   analyzed the database to identify errors and omissions in the
         database records;

     •   analyzed the NIBIN data to determine how many of the 38,717 law
         enforcement agencies with ORI numbers had contributed data to
         NIBIN;

     •   analyzed the NIBIN data entered by the partner agencies to
         determine its distribution;

     •   analyzed the NIBIN data entered into the system to compare it to
         the firearms crime data contained in the FBI’s UCR, and to
         determine whether the amount of data entered into NIBIN is
         comparable to the number of firearms crimes reported each year;

     •   analyzed the distribution of hits in NIBIN compared to the cases
         and evidence entered into NIBIN;

     •   interviewed ATF officials to determine what efforts they made to
         promote the NIBIN program to law enforcement agencies;

     •   asked both participating and non-participating law enforcement
         agencies about the ATF’s promotion of the NIBIN program.
         Specifically, we asked 16 NIBIN partner agencies we visited about
                                     61
    the ATF’s promotion efforts. We also sent survey questionnaires to:
    (1) 174 partner agencies and 411 participating non-partner
    agencies that contributed evidence to NIBIN, and (2) 85 non-
    participating non-partner agencies;

•   asked the partner agencies about their efforts to promote the NIBIN
    program among law enforcement agencies in their area.
    Specifically, we asked 16 partner agencies we visited about their
    efforts to promote the program and we sent survey questionnaires
    to 174 partner agencies that contributed data to NIBIN;

•   evaluated whether partner agencies and participating non-partner
    agencies were entering the maximum amount of evidence into the
    system by: (1) analyzing the evidence data entered into NIBIN for
    each partner agency, (2) visiting 22 partner agencies and
    discussing with agency officials the type of evidence entered into
    the system, (3) sending survey questionnaires to the remaining 174
    partners that contributed evidence to NIBIN and to a sample of 411
    participating non-partner agencies asking similar questions, and
    (4) contacting the agencies by telephone that received RBI units to
    discuss their use of these units when entering cartridge casings into
    NIBIN;

•   evaluated the correlation process during our visits to partner
    agencies to determine whether they were reviewing the correlations
    to identify hits in a timely manner. We also obtained a report from
    the ATF showing all correlations not viewed by the partner
    agencies. During our visits to the partner agencies, we verified the
    accuracy of the non-viewed correlations shown on the report and
    asked the agencies to explain the basis for the non-viewed
    correlations;

•   evaluated whether participating agencies were entering firearms
    evidence into NIBIN in a timely manner. We visited 22 NIBIN
    partner agencies and sent survey questionnaires to the remaining
    174 partner agencies that had contributed evidence to NIBIN and to
    411 participating non-partner agencies. We asked the agencies if
    they had firearms evidence awaiting entry, how much evidence was
    awaiting entry, and the reasons for the backlog; and

•   sent survey questionnaires to the Department of Justice law
    enforcement agencies to determine if they were complying with a
    January 2001 mandate from the Attorney General and the
    Secretary of the Treasury to enter crime-related firearms evidence
    into NIBIN.
                                62
      To evaluate whether controls are adequate to ensure that ballistic
images of bullets and cartridge casings from newly manufactured, imported,
or sold firearms are not available in, or connected in any way to NIBIN, we:

     •   interviewed ATF officials to determine whether the ATF had
         established any controls within NIBIN to prevent users from
         entering ballistic images from newly manufactured, imported, or
         sold firearms;

     •   observed the entry of firearms data into NIBIN at 22 agencies that
         received the IBIS equipment;

     •   sent survey questionnaires to: (1) the remaining 174 NIBIN
         partner agencies that had contributed data to NIBIN; and (2) 411
         participating non-partner agencies, and asked all of them if they
         had contributed data to NIBIN on newly manufactured, sold, or
         imported firearms;

     •   obtained and reviewed a copy of the MOU that is signed by the ATF
         and each NIBIN user prohibiting users from entering ballistic
         images from newly manufactured, imported, or sold firearms into
         NIBIN;

     •   interviewed Maryland State Police (MSP) officials to obtain an
         understanding of the MD-IBIS system that is used to enter ballistic
         images from new firearms;

     •   evaluated the MSP’s controls to ensure the new firearms data
         entered into the MD-IBIS system was not also entered into NIBIN
         operated by the MSP;

     •   obtained a copy of the MSP’s MD-IBIS system data containing
         47,798 firearms records and compared the MD-IBIS data to the
         254,187 firearms records contained in the NIBIN database to
         determine whether any firearms data entered into the MD-IBIS
         system was also entered into NIBIN;

     •   obtained documentation from the MSP; Washington, D.C.,
         Metropolitan Police Department; Colorado Division of Investigation
         – Pueblo; and the Los Angeles Police Department to confirm that
         the matching firearms data identified in our comparison of the MD-
         IBIS data and NIBIN data was entered into NIBIN as a result of
         crimes;

                                     63
     •   interviewed New York State Police (NYSP) officials to obtain an
         understanding of the COBIS system that is used to enter ballistic
         images from new firearms;

     •   evaluated the NYSP’s controls to ensure the new firearms data
         entered into the COBIS system was not also entered into NIBIN by
         the NYSP;

     •   obtained a copy, for review on-site, of the NYSP’s COBIS system
         data containing 90,063 firearms records and compared the COBIS
         data to the 254,187 firearms records contained in the NIBIN
         database to determine whether any firearms data entered into the
         COBIS system was also entered into NIBIN; and

     •   obtained documentation from the NYSP; Erie County, New York,
         Forensic Laboratory; Monroe County, New York, Public Safety
         Laboratory; Westchester County, New York, Police Department;
         Massachusetts State Police; and the Alabama Division of Forensic
         Sciences laboratory to confirm that the matching firearms data
         identified in our comparison of the COBIS data and NIBIN data was
         entered into NIBIN as a result of crimes.

Data Analysis

     To accomplish the audit objectives, we obtained and analyzed
automated data from the ATF regarding: (1) the records in the NIBIN
database as of October 22, 2004, and (2) the non-viewed correlation
requests in NIBIN as of September 2004.

       NIBIN Database Records: The NIBIN data is contained in multiple
tables in a relational database. The ATF provided to us the NIBIN database
evidence table containing records of discharged bullets and cartridge casings
in the system, the cases table containing associated cases information, and
the firearms table containing records of firearms in NIBIN. The evidence
table contained 888,447 records of firearms evidence with each record
containing 11 fields of information. The cases table contained 514,731 cases
records with each record containing 8 fields of information. The firearms
table contained 254,187 records of firearms with each record containing 15
fields of information.

      The law enforcement agency that entered the evidence or submitted
the evidence for entry, is identified in the database cases table by its ORI
number. To determine the agencies (based on ORI number) that submitted
evidence into NIBIN, we linked the NIBIN cases table to the NIBIN evidence
table. We were unable to link the ORI numbers in the cases table to
                                        64
evidence in the evidence table for 55,193 of the 514,731 cases in the cases
table because of the following omissions or errors in the cases table.

     •   52,392 records in the cases table had “unknown” entered in the
         ORI field.

     •   2,801 records in the cases table for two NIBIN partner agencies
         (Colorado Bureau of Investigation – Montrose and Rhode Island
         State Crime Laboratory) contained duplicate case ID numbers that
         made it impossible to link the cases table to the evidence table for
         these two agencies.

      As a result of these omissions and errors, we were unable to link the
ORI numbers from the 55,193 cases in the cases table to 115,092 evidence
items in the evidence table. Consequently, we were only able to link the
remaining 459,538 cases in the cases table to 773,355 records of evidence
in the evidence table from 194 NIBIN partner agencies. Thus, our analyses
of the NIBIN data in this report are limited to the 773,355 records of
evidence contributed by 194 NIBIN partner agencies.

      Non-Viewed Correlations Data: During the audit, we found that one
high-volume partner agency (Georgia Bureau of Investigation – Decatur) did
not view the correlations identified by NIBIN. We asked the ATF for a report
showing the non-viewed correlations for each NIBIN partner agency to
determine whether other partner agencies also were not reviewing the
correlations. The ATF queried NIBIN and produced a report (NIBIN Non-
Viewed Correlation Requests Report) showing the non-viewed correlation
request as of September 30, 2004. The report identified 100 partner
agencies that had a total of 4,024 bullet evidence correlations that were
recorded in NIBIN as non-viewed and 155 partner agencies that had a total
of 18,379 cartridge case evidence correlations that were recorded in NIBIN
as non-viewed. During our site visits to 15 of the 100 NIBIN partner
agencies, we verified the accuracy of the non-viewed correlations shown on
the NIBIN Non-Viewed Correlation Requests Report. Since our visits to 15
percent of the partner agencies identified on the report disclosed no
discrepancies in the reported numbers, we relied on the report for our audit
work.




                                      65
                                                             APPENDIX II

                       NIBIN PROGRAM HISTORY

       In 1993, the ATF established its computerized ballistics imaging
system called CEASEFIRE and later renamed the program as the Integrated
Ballistics Identification System (IBIS). Initially, the IBIS compared only
marks on bullets. The system was later expanded to compare marks on
cartridge casings as well. Approximately 103 law enforcement agencies
participated in the IBIS program.

       Also in 1993, the FBI established a computerized ballistics imaging
system called DRUGFIRE. DRUGFIRE compared only marks on cartridge
cases, but was later expanded to compare marks on bullets. Approximately
171 law enforcement agencies participated in the DRUGFIRE program.

       Because the ATF’s IBIS system and the FBI’s DRUGFIRE system
contained different firearms records, some federal, state, and local law
enforcement agencies used both systems. Because of the inefficiency for
the users of the systems and because the two systems were duplicative, in
1997 the ATF and the FBI signed an MOU in which they agreed to make the
two systems compatible. As a result, in 1997 the NIBIN program was
established to consolidate the two systems. Recognizing that it was not
technologically feasible to combine the two systems into one, the ATF and
the FBI directed their efforts to making the two systems interoperable so
that users of one system could have access to the firearms records of the
other. However, the attempt to achieve interoperability raised some
technological difficulties. The ATF and the FBI worked with the National
Institute of Standards and Technology to develop a standard for
interoperability and to develop and oversee interoperability conformance
tests. Although progress was made to achieve the interoperability of
DRUGFIRE and IBIS, it was ultimately decided to unify the system by using
only one type of ballistics imaging system. After evaluating the two
systems, the ATF and the FBI agreed to establish a unified system by using:
(1) the IBIS equipment used by the ATF; and (2) the secure, high-speed
telecommunications network used by the FBI. In December 1999, the ATF
and the FBI entered into a new MOU for joint agency implementation of the
NIBIN program.

      The two agencies’ efforts resulted in the development and
maintenance of a single system used by law enforcement agencies to collect
and store digital images of firearms evidence. Through the NIBIN program,
IBIS equipment was deployed to a total of 231 state and local law
enforcement agencies for their use in imaging and comparing crime firearms
evidence.
                                      66
       Until October 2003, the FBI was responsible for the establishment,
maintenance, and funding of the high-speed integrated, nationwide network
that connected the NIBIN program equipment. In addition, the FBI was
responsible for generating and disseminating statistical and activity reports
regarding the network communication system. In October 2003, after
realizing that having two agencies responsible for different aspects of the
same national program was an ineffective management arrangement, the
FBI relinquished its network responsibilities and authority to the ATF. The
FBI’s role in NIBIN, other than that of a participating partner under the
NIBIN program, ceased. Consequently, the ATF became solely responsible
for all aspects of the NIBIN program.




                                     67
                                     APPENDIX III

EXAMPLE MEMORANDUM OF UNDERSTANDING BETWEEN
    THE ATF AND THE NIBIN PARTNER AGENCIES




                    68
69
70
71
72
73
74
75
                                                             APPENDIX IV

                  LIST OF NIBIN SITES AND TYPE OF
                 EQUIPMENT DEPLOYED TO EACH SITE

                                                             Equipment
     Region                Site Name                 State     Type
1      1A     ATF CA Gun Center – Los Angeles         CA     RDAS
2      1A     CA Department of Justice – Riverside    CA     RDAS
3      1A     Kern County/Bakersfield District        CA     RDAS
              Attorney's Office
4      1A     Las Vegas Metropolitan Police           NV     RDAS
              Department
5      1A     Long Beach Police Department            CA     RDAS
6      1A     Los Angeles Police Department           CA     RDAS(3)
                                                             Matchpoint(5)
7      1A     Los Angeles Sheriff's Office            CA     RDAS
                                                             Matchpoint
8      1A     Orange County Sheriff's Office          CA     RDAS
9      1A     San Bernardino County Sheriff's         CA     RDAS
              Office
10     1A     San Diego County Sheriff's Office       CA     RDAS
11     1A     San Diego Police Department             CA     RDAS
12     1A     Santa Ana Police Department             CA     RDAS
                                                             Matchpoint
13     1A     Ventura County Sheriff’s Office         CA     RDAS
14     1B     Washoe County Sheriff’s Office          NV     RDAS
15     1B     Alameda County Laboratory               CA     RDAS
16     1B     Alaska Crime Laboratory – Anchorage     AK     RDAS
17     1B     ATF Walnut Creek Laboratory             CA     Servers(4)
                                                             RDAS
                                                             RBI
                                                             Matchpoint(3)
18     1B     CA Department of Justice – Fresno       CA     RDAS
19     1B     CA Department of Justice –              CA     RDAS
              Sacramento
20     1B     Contra Costa County Sheriff's Office    CA     RDAS
21     1B     Fresno County Sheriff's Department      CA     RDAS
              Forensic Laboratory Unit
22     1B     Guam Police Department                  GU     RDAS
23     1B     Honolulu Police Department              HI     RDAS
24     1B     Idaho State Police                      ID     RDAS
25     1B     Montana Department of Justice –         MT     RDAS
              Missoula


                                    76
                                                               Equipment
     Region               Site Name                    State     Type
26     1B     Oakland Police Department                 CA     RDAS
27     1B     Oregon State Police Forensic              OR     RDAS
              Laboratory                                       Matchpoint
28     1B     Sacramento County District                CA     RDAS
              Attorney's Office Laboratory of                  Matchpoint
              Forensic Services
29     1B     Salinas Police Department                 CA     RDAS
                                                               RBI
30     1B     San Francisco Police Department           CA     RDAS
                                                               Matchpoint
31     1B     San Mateo County Sheriff's Office         CA     RDAS
32     1B     Santa Clara County District               CA     RDAS
              Attorney's Office                                Matchpoint
33     1B     Stockton Police Department                CA     RDAS
                                                               Matchpoint
34     1B     U.S. Fish & Wildlife Service – Ashland    OR     RDAS
35     1B     Washington State Patrol – Seattle         WA     RDAS
36     1B     Washington State Patrol – Spokane         WA     RDAS
37     1B     Washington State Patrol – Tacoma          WA     RDAS
                                                               Matchpoint
38     2      Austin Police Department                  TX     RDAS
39     2      Bexar County Crime Laboratory             TX     RDAS
40     2      Corpus Christi Police Department          TX     RDAS
41     2      Fort Bend County Sheriff's Office         TX     RDAS
42     2      Ft. Worth Police Department               TX     RDAS
43     2      Harris County Sheriff's Office            TX     RDAS
                                                               Matchpoint
44     2      Houston Police Department                 TX     RDAS(2)
                                                               Matchpoint
45     2      Jefferson County Sheriff's Office         TX     RDAS
46     2      Montgomery County Sheriff's Office        TX     RDAS
47     2      Oklahoma City Police Department           OK     RDAS
48     2      Oklahoma State Bureau of                  OK     RDAS
              Investigation
49     2      Pasadena Police Department                TX     RDAS
50     2      Plano Texas Police Department             TX     RDAS
51     2      SW Institute of Forensic Sciences –       TX     RDAS
              Dallas
52     2      Texas Department of Public Safety –       TX     RDAS
              Austin                                           Matchpoint
53     2      Texas Department of Public Safety –       TX     RDAS
              El Paso

                                   77
                                                             Equipment
     Region               Site Name                  State     Type
54     2      Texas Department of Public Safety –     TX     RDAS
              Lubbock
55     2      Texas Department of Public Safety –     TX     RDAS
              McAllen
56     2      Texas Department of Public Safety –     TX     RDAS
              Tyler
57     2      Tulsa Police Department                 OK     RDAS
58     3      Alabama Department of Forensic          AL     RDAS
              Sciences – Birmingham
59     3      Alabama Department of Forensic          AL     RDAS
              Sciences – Huntsville
60     3      Alabama Department of Forensic          AL     RDAS
              Sciences – Mobile
61     3      Alabama Department of Forensic          AL     RDAS
              Sciences – Montgomery
62     3      ATF Laboratory – Atlanta                GA     Servers(3)
                                                             RDAS
                                                             RBI
                                                             Matchpoint(3)
63     3      Birmingham Police Department            AL     RDAS
                                                             Matchpoint
64     3      Broward County Sheriff's Office         FL     RDAS
                                                             Matchpoint
65     3      Florida Department of Law               FL     RDAS
              Enforcement – Jacksonville
66     3      Florida Department of Law               FL     RDAS(2)
              Enforcement – Orlando                          Matchpoint(2)
67     3      Florida Department of Law               FL     RDAS
              Enforcement – Pensacola
68     3      Florida Department of Law               FL     RDAS
              Enforcement – Tallahassee
69     3      Florida Department of Law               FL     RDAS(2)
              Enforcement – Tampa                            Matchpoint(2)
70     3      Georgia Bureau of Investigation –       GA     RDAS
              Decatur                                        RBI
71     3      Georgia Bureau of Investigation –       GA     RDAS
              Savannah
72     3      Indian River Laboratory – Ft. Pierce    FL     RDAS
73     3      Miami-Dade Police Department            FL     RDAS(2)
                                                             Matchpoint(2)
74     3      Palm Beach County Sheriff's Office      FL     RDAS
75     3      Puerto Rico Institute of Forensic       PR     RDAS
              Sciences                                       Matchpoint


                                   78
                                                             Equipment
      Region               Site Name                 State     Type
76       3     U.S. Army Laboratory – Atlanta         GA     RDAS
77       3     Valdosta Police Department             GA     RDAS
78       3     Virgin Islands Police Department       VI     RDAS
79      3A     Charleston County Sheriff's Office     SC     RDAS
80      3A     Charlotte Police Department            NC     RDAS
81      3A     Cumberland County Sheriff's Office     NC     RDAS
82      3A     Greensboro Police Department           NC     RDAS
83      3A     Greenville Police Department           NC     RDAS
84      3A     Hickory Police Department              NC     RDAS
85      3A     Knoxville Police Department            TN     RDAS
86      3A     Metropolitan Police Department –       TN     RDAS
               Nashville                                     Matchpoint
87      3A     New Hanover County Sheriff's Office    NC     RDAS
88      3A     North Carolina State Bureau of         NC     RDAS
               Investigation                                 Matchpoint(2)
89      3A     South Carolina State Law               SC     RDAS
               Enforcement – Columbia                        Matchpoint
90      3A     Tennessee Bureau of Investigation –    TN     RDAS
               Memphis                                       Matchpoint
91      3A     Tennessee Bureau of Investigation –    TN     RDAS
               Nashville
92      4      Allegheny County Coroner's Office      PA     RDAS
               Forensic Laboratory Division                  Matchpoint
93      4      Bergen County Sheriff’s Office         NJ     RDAS
94      4      Connecticut State Forensic Science     CT     RDAS
               Laboratory – Meriden                          Matchpoint
95      4      Erie County Forensic Laboratory        NY     RDAS
                                                             Matchpoint
96      4      Essex County Sheriff's Office          NJ     RDAS
                                                             Matchpoint
97      4      Hamilton NJ State Police               NJ     RDAS
                                                             Matchpoint
98      4      Monroe County Department of Public     NY     RDAS
               Safety                                        Matchpoint
 99     4      Nassau County Police – Mineola         NY     RDAS
100     4      New York State Police – Albany         NY     RDAS
101     4      Newark Police Department               NJ     RDAS
102     4      Onondaga County Center for Forensic    NY     RDAS
               Sciences
103     4      Pennsylvania State Police –            PA     RDAS
               Bethlehem


                                    79
                                                             Equipment
      Region                Site Name                State     Type
104     4      Pennsylvania State Police –            PA     RDAS
               Greenburg
105     4      Pennsylvania State Police –            PA     RDAS
               Harrisburg                                    Matchpoint
106     4      Philadelphia Police Department         PA     RDAS
                                                             Matchpoint
107     4      Somerset County Prosecutor's Office    NJ     RDAS
                                                             RBI
108     4      Suffolk County Laboratory              NY     RDAS
109     4      Westchester County Department of       NY     RDAS
               Public Safety
110     5      Illinois State Police – Carbondale     IL     RDAS
111     5      Illinois State Police – Chicago        IL     RDAS(3)
                                                             Matchpoint(3)
112     5      Illinois State Police – Fairview       IL     RDAS
               Heights
113     5      Illinois State Police – Joliet         IL     RDAS
114     5      Illinois State Police – Morton         IL     RDAS
115     5      Illinois State Police – Rockford       IL     RDAS
116     5      Illinois State Police – Springfield    IL     RDAS
117     5      Indiana State Police – Evansville      IN     RDAS
118     5      Indiana State Police – Fort Wayne      IN     RDAS
119     5      Indiana State Police – Lowell          IN     RDAS
120     5      Indiana State Police – General HQ      IN     RDAS
               Laboratory                                    Matchpoint
121     5      Indianapolis/Marion Co. Forensic       IN     RDAS
               Laboratory                                    Matchpoint
122     5      Iowa Division of Criminal              IA     RDAS
               Investigation
123     5      Johnson County Sheriff's Office        KS     RDAS
124     5      Kansas Bureau of Investigation –       KS     RDAS
               Topeka
125     5      Kansas Bureau of Investigation –       KS     RDAS
               Kansas City Community College                 Matchpoint
126     5      Kansas City Police Department          MO     RDAS
127     5      Lake County Crime Laboratory           IN     RDAS
128     5      Missouri State Highway Patrol –        MO     RDAS
               Jefferson City
129     5      Nebraska State Patrol Crime            NE     RDAS
               Laboratory – Lincoln
130     5      Northern Illinois Police Crime Lab     IL     RDAS
131     5      Omaha Police Department Crime          NE     RDAS
               Laboratory                                    Matchpoint
                                     80
                                                                Equipment
      Region               Site Name                    State     Type
132     5      Sedgwick County Forensic Science          KS     RDAS
               Center
133     5      South Bend Police Department              IN     RDAS
134     5      St. Louis County Police Department        MO     RDAS
               Crime Laboratory – Clayton
135     5      St. Louis Metropolitan Police             MO     RDAS
               Department
136     6      ATF Ammendale Lab                         MD     Servers(5)
                                                                Test Server
                                                                RDAS(2)
                                                                Matchpoint(3)
                                                                RBI
137     6      Baltimore County Police Department        MD     RDAS
138     6      Baltimore City Police Department          MD     RDAS(2)
                                                                Matchpoint(2)
139     6      Canton/Stark County Crime                 OH     RDAS
               Laboratory
140     6      Cleveland Police Department               OH     RDAS
141     6      Columbus Police Department                OH     RDAS
                                                                Matchpoint
142     6      FBI Laboratory – Quantico                 VA     RDAS
143     6      Hamilton County Coroner's                 OH     RDAS
               Laboratory – Cincinnati
144     6      Lake County Regional Laboratory           OH     RDAS
145     6      Miami Valley Regional Crime               OH     RDAS
               Laboratory
146     6      Maryland State Police                     MD     RDAS
147     6      Metropolitan Police Department            DC     RDAS
                                                                Matchpoint
148     6      Ohio Bureau of Criminal Identification    OH     RDAS
               – Bowling Green
149     6      Ohio Bureau of Criminal Identification    OH     RDAS
               – London
150     6      Ohio Bureau of Criminal Identification    OH     RDAS
               – Richfield
151     6      Prince George’s County Police             MD     RDAS
               Department
152     6      Virginia Department of Forensic           VA     RDAS
               Science – Eastern Laboratory –                   Matchpoint
               Norfolk
153     6      Virginia Department of Forensic           VA     RDAS
               Science – Northern Laboratory –
               Fairfax

                                    81
                                                              Equipment
      Region               Site Name                  State     Type
154     6      Virginia Department of Forensic         VA     RDAS
               Science – Richmond                             Matchpoint
155     6      Virginia Department of Forensic         VA     RDAS
               Science – Roanoke
156     6      West Virginia State Police –            WV     RDAS
               Charleston
157     6      Wilmington Police Department            DE     RDAS
158     7      Office of the Attorney General,         SD     RDAS
               Division of Investigation – Pierre
159     7      Battle Creek Police Department          MI     RDAS
160     7      Bureau of Criminal Apprehension         MN     RDAS
               Forensic Science Laboratory –
               Bemidji
161     7      Bureau of Criminal Apprehension         MN     RDAS
               Forensic Science Laboratory – St.
               Paul
162     7      Detroit Police Department               MI     RDAS
                                                              Matchpoint(2)
163     7      Hennepin County Sheriff's Office        MN     RDAS
164     7      Michigan State Police – Northville      MI     RDAS
165     7      Michigan State Police – Sterling        MI     RDAS
               Heights
166     7      Michigan State Police – Bridgeport      MI     RDAS
167     7      Michigan State Police – East Lansing    MI     RDAS
168     7      Michigan State Police – Grand Rapids    MI     RDAS
169     7      Michigan State Police – Grayling        MI     RDAS
170     7      Minneapolis Police Department           MN     RDAS
171     7      North Dakota Department of Health       ND     RDAS
               Forensic Laboratory – Bismarck
172     7      Oakland County Sheriff's Department     MI     RDAS
173     7      Wisconsin Department of Justice –       WI     RDAS
               Milwaukee
174     7      Wisconsin State Patrol – Milwaukee      WI     RDAS
                                                              Matchpoint
175     8      Albuquerque Police Department           NM     RDAS
176     8      Arizona Department of Public Safety     AZ     RDAS
               at Phoenix
177     8      Arizona Department of Public Safety     AZ     RDAS
               at Tucson
178     8      Cheyenne State Laboratory               WY     RDAS
179     8      Colorado Bureau of Investigation at     CO     RDAS
               Denver
180     8      Colorado Bureau of Investigation at     CO     RDAS
               Montrose
                                     82
                                                                Equipment
      Region               Site Name                    State     Type
181     8      Colorado Bureau of Investigation at       CO     RDAS
               Pueblo
182     8      Denver Police Department                  CO     RDAS
183     8      Maricopa County Sheriff                   AZ     RDAS
184     8      Mesa Police Department                    AZ     RDAS
185     8      New Mexico Department of Public           NM     RDAS
               Safety – Santa Fe
186     8      Northern UT Laboratory – Ogden            UT     RDAS
187     8      Phoenix Police Department                 AZ     RDAS
188     8      Tucson Police Department                  AZ     RDAS
189     9      Acadiana Criminalistic Laboratory         LA     RDAS
190     9      Arkansas State Crime Laboratory           AR     RDAS
191     9      Jefferson Parish Laboratory – Metairie    LA     RDAS
192     9      Louisiana State Crime Laboratory –        LA     RDAS
               Shreveport
193     9      Louisiana State Police – Baton Rouge      LA     RDAS
194     9      Mississippi Department of Public          MS     RDAS
               Safety – Biloxi
195     9      Mississippi Department of Public          MS     RDAS
               Safety – Jackson
196     9      New Orleans Police Department             LA     RDAS
                                                                Matchpoint(2)
197     9      Southwest Louisiana Laboratory –          LA     RDAS
               Lake Charles
198     9      St. Tammany Parish Sheriff's Office       LA     RDAS
199     10     Boston Police Department                  MA     RDAS
                                                                Matchpoint(3)
200     10     Maine State Police                        ME     RDAS
201     10     Massachusetts State Police –              MA     RDAS
               Sturbridge
202     10     Massachusetts State Police – Danvers      MA     RDAS
203     10     Massachusetts State Police – Sudbury      MA     RDAS
204     10     New Hampshire State Police Forensic       NH     RDAS
               Laboratory
205     10     Rhode Island State Crime Laboratory       RI     RDAS
206     10     Vermont Department of Public Safety       VT     RDAS
               – Waterbury
207     1A     San Bernardino Police Department          CA     RBI
208      2     Arlington Police Department               TX     RBI
209      2     Dallas Police Department                  TX     RBI
210      2     Garland Police Department                 TX     RBI
211      2     Wichita Falls Police Department           TX     RBI
                                    83
                                                             Equipment
      Region               Site Name                 State     Type
212     3      Orange County Sheriff's Office         FL     RBI
213     3      Puerto Rico Institute of Forensic      PR     RBI
               Sciences – Aquadilla
214     3      Puerto Rico Institute of Forensic      PR     RBI
               Sciences – Arecibo
215     3      Puerto Rico Institute of Forensic      PR     RBI
               Sciences – Ponce
216     3A     Guilford County                        NC     RBI
217     3A     High Point Police Department           NC     RBI
218     3A     Greenville County Sheriff's Office     SC     RBI
219     3A     Chattanooga Police Department          TN     RBI
220      4     Waterbury Police Department            CT     RBI
221      4     Passaic County Sheriff's Office        NJ     RBI
222      4     Paterson Police Department             NJ     RBI
223      4     Union County Department of Public      NJ     RBI
               Safety
224     5      Southeast Missouri Cape Girardeau      MO     RBI
               Laboratory
225     5      Lincoln Police Department              NE     RBI
226     6      Youngstown Police Department           OH     RBI
227     8      Arizona Department of Public Safety    AZ     RBI
               – Flagstaff
228     8      Colorado Springs Police Department     CO     RBI
229     9      North Louisiana Crime Laboratory –     LA     RBI
               Alexandria
230     9      North Delta West Monroe                LA     RBI
231     9      Jackson Police Department              MS     RBI




                                   84
                                                                 APPENDIX V

                PROCESS USED BY THE ATF TO IDENTIFY SITES
                  WHERE IBIS EQUIPMENT WAS DEPLOYED

       After deciding to combine the redundant ATF and FBI ballistic imaging
systems into a single system, both agencies worked to create a national
deployment schedule for NIBIN. Prior to the deployment, some state and
local law enforcement agencies participated in the ATF’s IBIS program, while
others participated in the FBI’s DRUGFIRE program. Under the NIBIN
program, partner agencies received either upgraded equipment and software
or new equipment and software.

       The sites were selected to receive equipment based on such factors as
population, rate of violent crime, and demonstration of commitment to
ballistic technology through the past use of IBIS or DRUGFIRE equipment.
Through this preliminary deployment plan, site surveys were conducted at
each agency scheduled to receive equipment to ensure that the type of
equipment sent matched the needs and capabilities of the receiving agency.
The ATF’s NIBIN contractor conducted site visits and met with upper
management from the partner agencies. The contractor used a site survey
to obtain information to deliver and install the IBIS equipment. The
contractor also discussed the responsibilities of each agency and provided a
copy of the MOU that was to be executed between the ATF and each partner
agency. The contractor also provided each partner agency with the technical
requirements that the facility needed to meet before the IBIS equipment
could be provided. Finally, the contractor coordinated with local ATF
personnel and each partner agency’s staff on the details of deploying the
equipment and coordinating the necessary training.

       In addition to distributing the IBIS equipment to the participants under
the IBIS and DRUGFIRE programs, other state and local agencies also could
request to participate in the NIBIN program. To do so, the agencies were
required to submit a letter signed by an agency executive on agency
letterhead to the attention of the NIBIN Program Director that included:

      •   the population of the area to be served by automated ballistics
          technology,

      •   the number of firearms-related violent crimes in the area serviced
          by the requesting agency,

      •   statistics on firearms-related assaults and homicides for the
          previous year,

                                       85
     •   the number of firearms recovered by the requesting agency for the
         previous year,

     •   the number of firearms traced by the requesting agency during the
         previous year,

     •   whether the requesting agency had a firearms/toolmark examiner,

     •   whether the requesting agency would dedicate staff to support the
         data entry of ballistics information into the IBIS equipment,

     •   whether the requesting agency had a bullet and casing recovery
         system,

     •   whether the requesting agency had sufficient space that was
         climate controlled for placement of the equipment,

     •   whether the agency would allow other agencies access to the IBIS
         equipment if the requesting agency received it, and

     •   whether the agency would enter into a MOU with the ATF regarding
         the administration of the program.

     The ATF evaluated each request on a case-by-case basis to determine
whether the request would be approved.




                                    86
                       APPENDIX VI

MAP OF NIBIN REGIONS
     Source: ATF




      87
                                                                      APPENDIX VII

                        DIAGRAMS OF PARTITIONS
                      CONTAINED ON NIBIN SERVERS
                       Source: Documents Provided by the ATF
                                Region 1A Server




                                        ATF Lab
                                    Walnut Creek, CA

-------------------------------------------------------------------------------------------------
Southern Partition




San Diego          San Diego
   PD                Co SO
  RDAS               RDAS

-------------------------------------------------------------------------------------------------
Central Partition




 ATF Gun         CA Dept.          Las Vegas             Long     Los Angeles PD    Los Angeles
Center, LA       of Justice        Metro PD            Beach PD      RDAS (3)           SO
  RDAS           Riverside           RDAS                RDAS     Matchpoint (5)       RDAS
                   RDAS                                                             Matchpoint




Orange Co        Santa Ana        San Bernardino
   SO               PD            Co SO Office of
  RDAS             RDAS           Science Invest.
                 Matchpoint           Division         San
                                       RDAS         Bernardino
                                                      PD RBI
-------------------------------------------------------------------------------------------------
Northern Partition




 Ventura           Kern Co/
  Co SO          Bakersfield DA
  RDAS               Office
                     RDAS
                                         88
                                          Region 1B Server




                                              ATF Lab
                                          Walnut Creek, CA

       -------------------------------------------------------------------------------------------------
       Northern California and Nevada Partition




       CA Dept.         CA Dept. of       Fresno Co      Sacramento       Stockton PD     Washoe
       of Justice         Justice        SD Forensic     Co DA Office        RDAS           Co
        Fresno          Sacramento         Lab Unit         Lab of        Matchpoint       RDAS
         RDAS              RDAS             RDAS           Forensic
                                                           Services
                                                            RDAS
                                                         Matchpoint




        Alameda        ATF Walnut           Contra          Oakland         Salinas PD     San Francisco
         Co Lab         Creek Lab          Costa Co           PD              RDAS              PD
         RDAS             RDAS                SO             RDAS               RBI            RDAS
                      Matchpoint (3)        RDAS                                            Matchpoint
                           RBI




     San Mateo          Santa Clara
       Co SO            Co DA Office
       RDAS                RDAS
                        Matchpoint




Region 1B
Continued
On Next Page




                                               89
                              Region 1B Server (Cont.)




                                        ATF Lab
                                   Walnut Creek, CA
-------------------------------------------------------------------------------------------------
Oregon, Idaho, Washington, & Montana Partition




   Idaho          Montana         Oregon State     U.S. Fish &     Washington       Washington
   State            DOJ              Police         Wildlife       State Patrol     State Patrol
   Police          RDAS           Forensic Lab      Ashland          Seattle          Tacoma
   RDAS                              RDAS            RDAS             RDAS             RDAS
                                   Matchpoint                                       Matchpoint




Washington
State Patrol
 Spokane
   RDAS

-------------------------------------------------------------------------------------------------
Alaska Partition




  Alaska
Crime Lab
Anchorage
  RDAS
-------------------------------------------------------------------------------------------------
Hawaii Partition




Honolulu PD
   RDAS
-------------------------------------------------------------------------------------------------
Micronesia Partition




    Guam
     PD
    RDAS
                                        90
                                                Region 2 Server




                                                ATF Lab
                                          Walnut Creek, CA
       -------------------------------------------------------------------------------------------------
       Northern Partition




        Plano              Fort Worth          Oklahoma        Oklahoma       SW Institute
      Texas PD                 PD               City PD       State Bureau     of Forensic
        RDAS                 RDAS                RDAS              of           Sciences
                                                             Investigations       Dallas
                                                                  RDAS            RDAS




            Arlington   Dallas   Garland PD   Wichita
                PD       PD         RBI       Falls PD
               RBI       RBI                    RBI




     Texas Dept.          Texas Dept. of      Texas Dept.     Tulsa PD
      of Public            Public Safety       of Public       RDAS
       Safety                Lubbock          Safety Tyler
       El Paso                RDAS               RDAS
        RDAS


     -------------------------------------------------------------------------------------------------
        Southern Partition




       Austin PD            Bexar Co             Corpus      Texas Dept. of   Texas Dept.
         RDAS                 Lab               Christi PD    Public Safety    of Public
                             RDAS                 RDAS           Austin         Safety
                                                                 RDAS           McAllen
                                                               Matchpoint        RDAS


Region 2
Continued
On Next Page




                                                     91
                               Region 2 Server (Cont.)




                                        ATF Lab
                                    Walnut Creek, CA

  -------------------------------------------------------------------------------------------------
  Eastern Partition




Harris Co SO      Houston PD       Jefferson        Montgomery         Pasadena       Fort Bend
   RDAS            RDAS (2)          Co SO            Co SO               PD            Co SO
Matchpoint        Matchpoint         RDAS              RDAS              RDAS           RDAS




                                         92
                                              Region 3 Server




                                                  ATF Lab
                                                 Atlanta, GA

        -------------------------------------------------------------------------------------------------
        South Florida Partition




         Broward Co      Palm Beach Co     Miami-Dade PD     Indian River Lab
             SO               SO              RDAS (2)          Ft. Pierce
            RDAS             RDAS          Matchpoint (2)         RDAS
         Matchpoint

        -------------------------------------------------------------------------------------------------
        North Florida Partition




         Florida Dept.    Florida Dept.      Florida Dept.     Florida Dept.    Florida Dept.
            of Law           of Law             of Law            of Law           of Law
         Enforcement      Enforcement        Enforcement       Enforcement      Enforcement
         Jacksonville     Tallahassee         Pensacola           Tampa            Orlando
             RDAS             RDAS               RDAS            RDAS (2)         RDAS (2)
                                                                Matchpoint       Matchpoint
                                                                    (2)              (2)




                                                                                  Orange
                                                                                 County SO
                                                                                    RBI


        -------------------------------------------------------------------------------------------------
        Georgia Partition




          Valdosta           Georgia           Georgia           ATF Lab
         Police Dept.       Bureau of         Bureau of          Atlanta
            RDAS          Investigations    Investigations        RDAS
                             Decatur          Savannah             RBI
Region 3                      RDAS              RDAS            Matchpoint
Continued                      RBI                                 (3)
On Next Page


                                                  93
                                                  Region 3 Server (Cont.)




                                                         ATF Lab
                                                        Atlanta, GA


            ------------------------------------------------------------------------------------------------
             Georgia Military Partition




             U.S. Army Lab
                Atlanta
                  RDAS


             -------------------------------------------------------------------------------------------------
             Alabama Partition




               Alabama           Alabama Dept.     Alabama Dept.     Alabama    Birmingham PD
               Dept. of            of Forensic       of Forensic     Dept. of       RDAS
               Forensic              Science           Science       Forensic     Matchpoint
               Science            Regional Lab      Regional Lab     Science
               Regional           Montgomery         Huntsville      Regional
                 Lab                  RDAS              RDAS           Lab
                Mobile                                             Birmingham
                RDAS                                                  RDAS


             -------------------------------------------------------------------------------------------------
             Caribbean Partition




             Puerto Rico                Virgin
             Institute of            Islands PD
              Forensic                  RDAS
               Science
                RDAS
             Matchpoint




 PR IFS      PR IFS         PR IFS
Aquadilla    Arecibo        Ponce
  RBI          RBI           RBI                         94
                                      Region 3a Server




                                              ATF Lab
                                             Atlanta, GA

------------------------------------------------------------------------------------------------
 Kentucky Partition
 -------------------------------------------------------------------------------------------------
 North/South Carolina Partition




    South        Greensboro     Charleston        North             Hickory PD
   Carolina          PD           Co SO       Carolina State           RDAS
  State Law         RDAS          RDAS          Bureau of
 Enforcement                                  Investigations
   Columbia                                       RDAS
     RDAS                                     Matchpoint (2)
  Matchpoint




  Greenville
    Co SO                              Guilford        High Point
     RBI                                 Co               PD
                                         RBI              RBI




 Charlotte          New         Greenville         Cumberland
    PD           Hanover Co        PD                Co SO
  RDAS               SO           RDAS               RDAS
                   RDAS
 -------------------------------------------------------------------------------------------------
 Tennessee Partition




Knoxville        Tennessee       Metro PD            Tennessee
  PD             Bureau of       Nashville           Bureau of
 RDAS          Investigations   Davidson Co        Investigations
                  Memphis          RDAS               Nashville
                   RDAS         Matchpoint             RDAS          Chattanooga
                 Matchpoint                                              PD
                                                                         RBI



                                              95
                                              Region 4 Server




                                                ATF Lab
                                              Ammendale, MD

       -------------------------------------------------------------------------------------------------
       Northern New York Partition




         Erie Co        Monroe Co Dept.    NY State Police   Onondaga Co
       Forensic Lab     of Public Safety       Albany         Syracuse
         Buffalo             RDAS              RDAS             RDAS
          RDAS            Matchpoint
        Matchpoint

       -------------------------------------------------------------------------------------------------
       Southern New York Partition




         Nassau Co        Suffolk Co Lab     Westchester
          Mineola          Hauppauge           Co DPS
           RDAS               RDAS              RDAS

       ------------------------------------------------------------------------------------------------
       Connecticut Partition




       Connecticut
       State Police
     Forensic Science
           Lab
         Meriden
          RDAS
       Matchpoint




        Waterbury
           PD
           RBI

Region 4
Continued
On Next Page


                                                  96
                                   Region 4 Server (Cont.)




                                          ATF Lab
                                        Ammendale, MD

-------------------------------------------------------------------------------------------------
New Jersey Partition




  Bergen          Essex Co SO         Hamilton NJ     Newark PD       Somerset Co
  County             RDAS             State Police      RDAS          Prosecutor’s
   RDAS           Matchpoint             RDAS                            Office
                                      Matchpoint                         RDAS
                                                                          RBI




  Passaic      Union Co   Paterson
   Co SO         DPS         PD
    RBI          RBI        RBI

-------------------------------------------------------------------------------------------------
Pennsylvania Partition




Allegheny Co       Pennsylvania       Pennsylvania    Pennsylvania     Philadelphia
  Coroner’s         State Police       State Police    State Police         PD
    Office          Bethlehem          Harrisburg      Greenburg          RDAS
    RDAS               RDAS               RDAS            RDAS         Matchpoint
 Matchpoint                            Matchpoint




                                            97
                                             Region 5 Server




                                               ATF Lab
                                             Ammendale, MD

       -------------------------------------------------------------------------------------------------
       Illinois Partition




         Illinois       Illinois State     Illinois State       Illinois       Illinois
       State Police         Police              Police        State Police      State
       Carbondale          Chicago            Fairview           Joliet        Police
          RDAS            RDAS (3)             Heights           RDAS          Morton
                       Matchpoint (3)           RDAS                            RDAS




         Illinois      Illinois State    Northern Illinois
       State Police        Police        Police Crime Lab
        Rockford        Springfield            RDAS
          RDAS              RDAS



       -------------------------------------------------------------------------------------------------
       Indiana Partition




       Indiana State    Indiana State      Indiana State     Indiana State     Indianapolis
           Police           Police             Police        Police General     Marion Co
         Evansville      Fort Wayne           Lowell             HQ Lab       Forensics Lab
           RDAS             RDAS               RDAS               RDAS            RDAS
                                                              Matchpoint        Matchpoint




         Lake Co       South Bend PD
        Crime Lab          RDAS
          RDAS


Region 5
Continued                                        98
On Next
Page
                                  Region 5 Server (Cont.)




                                         ATF Lab
                                    Ammendale, MD
-------------------------------------------------------------------------------------------------
Iowa and Nebraska Partition




Iowa Division Nebraska State         Omaha PD
  of Criminal  Patrol Crime Lab        RDAS
Investigations     Lincoln           Matchpoint
 Des Moines         RDAS
     RDAS




                    Lincoln
                      PD
                      RBI

-------------------------------------------------------------------------------------------------
Kansas Partition




Johnson Co           KBI                KBI        Kansas City   Sedgwick
    SO             Topeka           Kansas City        PD         County
   RDAS             RDAS            Community        RDAS          RDAS
                                      College
                                       RDAS
                                    Matchpoint

-------------------------------------------------------------------------------------------------
Missouri Partition




Missouri State    St. Louis Co        St. Louis
  Highway        PD Crime Lab         Metro PD
    Patrol          Clayton            RDAS
Jefferson City        RDAS
    RDAS


                                    SE Missouri
                                  Cape Girardeau
                                        RBI



                                          99
                                          Region 6 Server




                                            ATF Lab
                                          Ammendale, MD

     -------------------------------------------------------------------------------------------------
     Ohio Partition




     Canton/Stark       Cleveland       Columbus PD        Hamilton Co     Lake Co
     Co Crime Lab          PD               RDAS          Coroner’s Lab    Regional
         RDAS             RDAS           Matchpoint         Cincinnati       Lab
                                                              RDAS          RDAS




     Miami Valley     Ohio Bureau of     Ohio Bureau       Ohio Bureau
       Regional          Criminal        of Criminal       of Criminal
      Crime Lab       Identification    Identification    Identification
        RDAS          Bowling Green        London           Richfield
                          RDAS              RDAS              RDAS




                                                         Youngstown PD
                                                              RBI

     -------------------------------------------------------------------------------------------------
     Virginia Partition




     Virginia Dept.    Virginia Dept.   Virginia Dept.    Virginia Dept.
      of Forensic       of Forensic      of Forensic       of Forensic
        Science           Science          Science           Science
        Roanoke         Eastern Lab     Northern Lab        Richmond
         RDAS             Norfolk          Fairfax            RDAS
                           RDAS             RDAS           Matchpoint
                        Matchpoint
Region 6
Continued
On Next Page




                                             100
                          Region 6 Server (Cont.)




                                       ATF Lab
                                     Ammendale, MD

 -------------------------------------------------------------------------------------------------
 Delaware, Maryland, DC Partition




    ATF            Baltimore      Baltimore PD      Maryland      Metropolitan PD     FBI Lab
 Ammendale          Co PD          RDAS (2)        State Police        RDAS           Quantico
    Lab              RDAS        Matchpoint (2)     Pikesville      Matchpoint         RDAS
  RDAS (2)                                            RDAS
 Matchpoint
    (3)
    RBI




   Prince        Wilmington
 George’s Co         PD
     PD             RDAS
   RDAS


 -------------------------------------------------------------------------------------------------
 West Virginia Partition




WV State
 Police
 RDAS




                                        101
                                         Region 7 Server




                                           ATF Lab
                                         Ammendale, MD

     -------------------------------------------------------------------------------------------------
     Michigan Partition




     Battle Creek     Detroit PD     Michigan State    Michigan State      Michigan State
          PD            RDAS             Police            Police              Police
        RDAS          Matchpoint       Northville         Sterling           Bridgeport
                         (2)             RDAS             Heights               RDAS
                                                           RDAS




       Michigan     Michigan State    Michigan State      Oakland Co
     State Police       Police            Police         Sheriff’s Dept.
     East Lansing   Grand Rapids         Grayling            RDAS
        RDAS            RDAS              RDAS



     -------------------------------------------------------------------------------------------------
     Minnesota Partition




     Bureau of          Bureau of     Hennepin Co        Minneapolis
      Criminal           Criminal         SO                 PD
   Apprehension       Apprehension       RDAS               RDAS
     Forensic           Forensic
    Science Lab        Science Lab
      Bemidji            St. Paul
       RDAS               RDAS


Region 7
Continued
On Next Page




                                            102
                        Region 7 Server (Cont.)




                                      ATF Lab
                                    Ammendale, MD

-------------------------------------------------------------------------------------------------
North Dakota Partition




 North Dakota
   Dept. of
    Health
 Forensic Lab
  Bismarck
    RDAS

-------------------------------------------------------------------------------------------------
 South Dakota Partition




  Office of
the Attorney
  General
   Pierre
   RDAS

 -------------------------------------------------------------------------------------------------
 Wisconsin Partition




 Wisconsin         Wisconsin
  Dept. of        State Patrol
  Justice         Milwaukee
 Milwaukee           RDAS
   RDAS           Matchpoint




                                       103
                                            Region 8 Server




                                               ATF Lab
                                           Walnut Creek, CA

     -------------------------------------------------------------------------------------------------
     Arizona Partition




       Arizona          Arizona           Maricopa Co    Phoenix         Tucson PD      Mesa PD
       Dept. of         Dept. of              SO           PD              RDAS          RDAS
        Public           Public              RDAS         RDAS
        Safety           Safety
       Phoenix          Tucson
        RDAS             RDAS


                                   Arizona DPS
                                    Flagstaff
                                        RBI

     -------------------------------------------------------------------------------------------------
     Colorado Partition




       Colorado         Colorado           Denver PD      Colorado
       Bureau of        Bureau of            RDAS         Bureau of
     Investigations   Investigations                    Investigations
        Denver          Montrose                           Pueblo         Colorado
         RDAS             RDAS                              RDAS         Springs PD
                                                                             RBI

     -------------------------------------------------------------------------------------------------
     New Mexico Partition




      Albuquerque      New Mexico
          PD          Dept. of Public
         RDAS            Safety
                        Santa Fe
                          RDAS
Region 8
Continued
On Next Page




                                                 104
                               Region 8 Server (Cont.)




                                       ATF Lab
                                   Walnut Creek, CA

-------------------------------------------------------------------------------------------------
Utah Partition




Northern UT
 Lab Ogden
   RDAS


-------------------------------------------------------------------------------------------------
Wyoming Partition




  Cheyenne
  State Lab
    RDAS




                                       105
                                         Region 9 Server




                                            ATF Lab
                                           Atlanta, GA

 -------------------------------------------------------------------------------------------------
 South Louisiana Partition




  Acadiana            Jefferson     New Orleans PD    Southwest          St. Tammany    Louisiana
 New Iberia           Parish Lab        RDAS         Louisiana Lab         Parish SO   State Police
   RDAS                Metairie     Matchpoint (2)   Lake Charles            RDAS      Baton Rouge
                        RDAS                             RDAS                             RDAS


 -------------------------------------------------------------------------------------------------
 North Louisiana Partition




  Louisiana
 State Crime
     Lab
 Shreveport
    RDAS
                   North West
                  Delta Monroe
                       RBI

North Louisiana
  Crime Lab
  Alexandria
      RBI


 -------------------------------------------------------------------------------------------------
 Mississippi Partition                             Arkansas Partition




Mississippi           Mississippi                           Arkansas
 Dept. of              Dept. of                            State Crime
  Public                Public                                 Lab
  Safety                Safety                                RDAS
  Biloxi               Jackson Jackson
  RDAS                  RDAS      PD
                                   RBI



                                           106
                                  Region 10 Server




                                       ATF Lab
                                     Rockville, MD

-------------------------------------------------------------------------------------------------
Maine, New Hampshire, Vermont, Rhode Island, Massachusetts Partition




Boston PD        Maine State    Massachusetts    Massachusetts    Massachusetts
  RDAS             Police        State Police     State Police     State Police
Matchpoint        Augusta        Sturbridge         Danvers          Sudbury
   (3)             RDAS             RDAS             RDAS             RDAS




    New          Rhode Island    Vermont Dept.
 Hampshire        State Lab        of Public
State Police       Kingston         Safety
Forensic Lab        RDAS           Waterbury
  Concord                            RDAS
   RDAS




                                       107
                                                             APPENDIX VIII

          PROCESS FOR COLLECTING AND ENTERING EVIDENCE
          INTO NIBIN, COMPARING THE EVIDENCE TO IDENTIFY
           POTENTIAL MATCHES, AND EXAMINING POTENTIAL
                      MATCHES TO CONFIRM HITS

Collecting and Entering Evidence

       Evidence can be submitted for entry into NIBIN by either a NIBIN
partner agency or from a participating law enforcement agency through a
given partner agency. The ATF wants all crime-related bullets and cartridge
casings collected at crime scenes, and all bullets and cartridge casings from
test-fired firearms collected at crime scenes to be entered into NIBIN. The
exceptions are evidence from .22 caliber firearms, firearms greater than .50
caliber, and shotguns, because the IBIS equipment is not capable of
analyzing evidence from these types of firearms. During the audit, we
determined the policies and procedures for the collection and entry of
evidence into NIBIN varied among partner agencies. Therefore, the
collecting and entering process described below is based on the protocol for
ATF Laboratories, which is similar to the process used by the NIBIN partner
agencies.

      •   The evidence technician enters firearms and case information into
          the laboratory evidence tracking system when the evidence arrives
          at the laboratory. The items collected are compared to the
          evidence paperwork and transmittal. The containers are resealed
          and placed in a vault. A case jacket is produced with the case
          information.

      •   In the case of a single submission, with a single firearm to be test-
          fired for NIBIN, the container is brought into the exam room along
          with the corresponding case jacket. Notes are made on the type
          and condition of the evidence containers, the general description of
          the firearm, make, serial number, type of actions, and other related
          information. The firearm and container are marked for
          identification. The date of occurrence is noted from the case
          information. The firearm is evaluated for safety and functionality.
          The description of the number and caliber of rounds of ammunition
          is noted. Test-fire ammunition and the component container are
          selected and appropriately marked for identification.

      •   For safety reasons, the test-firing can only be performed with a
          witness. The firearm and ammunition are taken to the test-fire
          tank area; the firearm is loaded with no more than two rounds of
                                       108
          ammunition; the firearm is test-fired; and the bullets and cartridge
          casings are retrieved.

      •   Each of the test-fired bullets and cartridge casings are individually
          marked for identification, typically by scribing the base of the
          bullets and the side of the casings. The bullets are wrapped in
          tissue, and placed with the casings in the container. The evidence
          is then taken to the NIBIN entry area.

      •   The cartridge casings are evaluated for ejector placement. The
          bullets are also evaluated for the number of land-engraved areas
          and direction of twist. The bullets are then prepared for NIBIN
          entry by hot-gluing the bullets to pegs that are mounted onto the
          RDAS microscope. The case information is entered into the IBIS
          equipment regarding the firearm and component identifiers.

      •   The bullets and cartridge casings are repackaged and stored in a
          file system for any further examinations. The case file and notes
          are collected and a draft examination report is prepared. The
          report is peer reviewed, officially printed, and signed.

      •   The evidence custodian prepares the evidence for return, and the
          final entries are made into the evidence custody computer. All
          evidence (e.g., firearms, bullets, or casings) is returned to the
          investigation officer, the property custodian, or the participating law
          enforcement agency. Firearms evidence, if entered into NIBIN,
          should be retained for future comparison if a hit is determined. In
          the event there is test-fired evidence generated by a given
          laboratory, it is retained in the laboratory indefinitely for future
          reference.

       The types of cases that should be entered into NIBIN are those crimes
that could be identified as “serial” in nature, such as homicides, attempted
homicides, gang-type shootings, drug-related shootings, drive-by shootings,
officer-involved shootings, robberies, and concealed-weapons offenses.

       The process of entering firearms evidence into NIBIN is referred to as
acquiring images. After the images are acquired, the next process involves
comparing the images to identify potential matches and is called reviewing
correlation images. The final process is examining the potential matches to
identify hits and is called viewing results.




                                      109
Comparing Evidence to Identify Potential Matches

      After the firearms evidence is entered into NIBIN, the system can
perform searches on a local, regional, or national basis to identify potential
matches. In November 2003, the system was enhanced to track and
compare ballistic images associated with crime firearms nationwide. Prior to
the enhancement, the system could only track and compare images locally
and regionally.

       A local search is automatically performed by the system. Each time a
correlation is requested, the system automatically searches within the
partition location of the regional server that the partner’s IBIS equipment
has been configured to search against.

      Although regional and national searches can be performed, they must
be manually selected. To perform a regional search, the requestor must
designate where to search from a map of the NIBIN regions. The requestor
is then presented with a list of all the partner agencies in that region, and
can either search against all the partner agencies shown or de-select those
partner agencies that the requestor does not want included in the search.
To perform a national search, the requestor must repeat the regional search
for each NIBIN region, as the system will not search all regions at once.

       None of the searches result in a positive match of bullets or cartridge
casings fired from the same weapon. Instead, the system produces high-
confidence candidates that are similar. The IBIS equipment ranks a list of
images based on their correlation results. If the images are similar, they
likely represent images of ammunition components fired from the same
firearm. After the system identifies the high-confidence candidates, the top
matches must be reviewed by a firearms examiner to confirm whether an
actual match has been identified.

Examining the Potential Matches to Identify Hits

      To confirm the potential matches as a hit, the firearms examiner
obtains the original evidence and compare the high-confidence candidates to
the physical evidence. If the high-confidence candidates selected match the
actual evidence, a hit is identified and marked in the system by the firearms
technician. Once confirmed, the hit must be recorded in NIBIN for reference
purposes. Once the hit is recorded, the reference case, and the image
within the case file are displayed in red. If a hit occurs between two sites,
the information is not transferred to the other site by the system. Rather,
the other site must be notified to create the hit in its own database.


                                     110
        Other NIBIN linkages derived by investigative lead, hunches, or
previously identified laboratory examinations are termed “warm hits” and
should not be counted as hits. When there is an interagency hit, the agency
initiating and confirming the microscopic comparison will be credited for the
hit. For example, if “Agency A” discovers a high confidence candidate from
“Agency B’s” evidence, “Agency A” requests the physical evidence for review
and confirms whether the high-confidence candidate is an actual hit.
“Agency A” is credited for the hit because it was initiated by “Agency A.”
However, if “Agency A” determines a high-confidence candidate had
previously been discovered as a hit or had been identified as a hit from
previous investigations or leads, the high-confidence candidate is not
marked in the system as a hit. When an interagency hit is confirmed, each
involved agency should mark the hit in IBIS. Further, only the agency
initiating and confirming the comparison should include the hit in its
statistics reported to ATF’s NIBIN contractor. The NIBIN contractor reports
the hit information to the NIBIN field coordinators, who report the
information to NIBIN headquarters through an electronic reporting system
known as the NIBIN case system. 40




       40
          In addition, hit information is reported to NIBIN headquarters to promote the
NIBIN program, as well as to develop the “Hit of the Week” or “NIBIN Success Story”
publications.

                                           111
                                                                  APPENDIX IX

                               NIBIN SUPPORT

      The ATF provides customer support to NIBIN partner agencies through
a contractor (Forensic Technology, Inc.). The ATF also provides field support
through a network of support representatives that include both ATF and
contract personnel. These support systems are discussed below.

Customer Service/Support

    The ATF uses a contractor to provide program and project
management oversight. The services provided by the contractor include:

      •   scheduling contract activities,

      •   offering customer service support and engineering,

      •   developing new hardware and software,

      •   maintaining the hardware and software,

      •   training,

      •   contingency/backup planning,

      •   providing disaster recovery and data restoration, and

      •   maintaining documentation to support the IBIS equipment.

      The contractor conducts a training class to prepare NIBIN partners to
enter firearms evidence into NIBIN. The contractor also monitors the IBIS
equipment and provides preventative maintenance services. Further, the
contractor administers scheduled upgrades of NIBIN.

       The training offered by the contractor ensures that each partner has
the knowledge and ability to be proficient in the operation of the IBIS
equipment deployed within their agencies. The training includes:
(1) initial/basic user training upon the receipt and installation of new
equipment, (2) advanced user training offered to established users with prior
experience, and (3) IBIS equipment administration training for users who
perform administrative functions.

     The initial/basic user training ensures that users become proficient in
system components and functionality; case creation; cartridge case
                                      112
acquisition; correlation, scoring and comparisons; bullet acquisition;
damaged bullet and fragment acquisition scoring and manual correlations;
hit creation; reporting; and practical application of acquired knowledge and
understanding.

      The advanced user training is offered as a refresher training following
upgrades to the IBIS equipment. This training reinforces concepts and
elements from the basic user training and presents more detailed expert
instructions. The training also provides a refresher of the topics covered in
the basic user training along with training for upgrades to the IBIS
equipment.

      IBIS system/administration training assists users who will perform
system administrative functions; issue and manage user or administrator
accounts; perform backup functions; and help with any other IBIS
equipment in support of some disaster recovery and data restoration
actions.

NIBIN Field Support

       The ATF established field level staffing for the NIBIN program to
provide assistance in the administration at the field level. Support at the
field level is thought to be crucial to the success of the program. The field
level support is offered through: (1) regional coordinators, (2) NIBIN
coordinators, (3) NIBIN contractors, and (4) the NIBIN Users Congress.

      Regional Coordinators

            The regional coordinators act on behalf of the NIBIN
      headquarters office in Washington, D.C., within their respective
      regions. The regional coordinators also:

            •   act as the liaison between NIBIN headquarters and field
                divisions within their prescribed area of responsibility;

            •   act as the liaison between NIBIN headquarters, assigned
                coordinators, and contractors within the field divisions;

            •   act as the liaison between NIBIN headquarters and the state
                and local governments within their prescribed region of
                responsibility;

            •   provide presentations and training on behalf of NIBIN
                headquarters to various audiences, including federal, state,
                and local government officials at conferences and meetings;
                                     113
•   market the NIBIN program on behalf of NIBIN headquarters
    at conferences and meetings;

•   provide feedback to NIBIN headquarters and to the
    manufacturer of the IBIS equipment, on the utilization of the
    equipment in the field, as well as the problems associated
    with the equipment by the laboratories;

•   authorize and schedule training for the local users involved in
    the NIBIN program;

•   participate in the dissemination of the IBIS equipment by
    meeting with management at prospective sites;

•   tour the laboratory sites to determine if they meet the pre-
    defined criteria of the NIBIN headquarters’ standards of use,
    and if justified, coordinate delivery and placement of the
    equipment;

•   act as the representative for the assigned area of
    responsibility at the NIBIN Users Congress meetings;

•   manage the NIBIN program and provide guidance through
    regular interaction and communication with the NIBIN
    coordinators, contractors, and field divisions within each area
    of responsibility;

•   act as liaison with state and local law enforcement executives
    to discuss the need for the utilization of IBIS and the NIBIN
    program;

•   visit all NIBIN sites within each regional coordinator’s area of
    responsibility to discuss usage of the program within that
    area;

•   provide support to each field division as it relates to the
    special agent-in-charge’s goals and objectives, keeping an
    emphasis on the NIBIN program and its priorities;

•   inform state and local agencies, in conjunction with the field
    division, of various federal grants available to assist them
    with the NIBIN program;


                          114
      •   assist the field divisions, when requested, by assigning ATF
          employees to local NIBIN coordinator positions;

      •   attend, and assist in the development of local users meetings
          within each area;

      •   visit and support the local laboratories and act as a liaison
          between the laboratories and the coordinators/field divisions;

      •   support and assist in initiating criminal investigations where
          NIBIN may play a role;

      •   maintain daily e-mail and telephone contact with the local
          coordinators and contractors within the regional coordinators’
          areas of responsibility;

      •   review the hit reports and make recommendations for further
          investigative courses of action;

      •   provide NIBIN training and marketing materials to the field
          divisions and law enforcement entities within their areas of
          responsibility; and

      •   provide general troubleshooting, if required.

NIBIN Special Agent Coordinators

      The NIBIN special agent coordinators work with the NIBIN
contractors to ensure that the NIBIN program is succeeding in their
region of responsibility. The special agent coordinators also represent
the ATF at laboratories and at state and local partner agencies. The
special agent coordinators perform this duty in addition to their regular
duties. The special agent coordinators:

      •   coordinate and conduct all investigative activity associated
          with the NIBIN program;

      •   conduct quality control activities involving ATF-owned
          inventories;

      •   coordinate intelligence information with other ATF field
          divisions and local police departments;




                                115
      •   provide roll-call training on the benefits of participating in the
          program and emphasize processing as much evidence as
          possible;

      •   ensure that performance measurement data is transmitted
          regularly to NIBIN headquarters;

      •   direct and review the activities of the NIBIN contractor; and

      •   verify the hours worked by the NIBIN contractor.

NIBIN Contractors

       The NIBIN contractors are assigned to the field divisions to
provide immediate assistance to the partner agencies. These
individuals are usually retired law enforcement personnel. The NIBIN
contractors report to the NIBIN coordinator at the field division level.
The NIBIN contractors:

      •   assist the NIBIN coordinator in roll-call training and inventory
          control;

      •   obtain statistical data from NIBIN partner agencies on a
          monthly basis and troubleshoot potential problems with the
          IBIS equipment;

      •   report outcomes of hits generated, by contacting and linking
          affected law enforcement agencies; preparing case synopses
          involving hits; and reporting arrests; and

      •   encourage law enforcement agencies to submit evidence to
          participating laboratories.

NIBIN Users Congress

      To offer additional support at the field level, the NIBIN
Users Congress was established in November 2002. The NIBIN Users
Congress is comprised of a representative from a partner agency from
each region and is responsible for: (1) advising program participants
on policies and standards, (2) seeking out and publicizing best
practices for implementation, and (3) assisting in audits of NIBIN sites.




                                 116
                                          APPENDIX X

MEMORANDA DIRECTING THAT ALL DEPARTMENT OF JUSTICE
 AND DEPARTMENT OF THE TREASURY LAW ENFORCEMENT
   AGENCIES ENTER BULLETS AND CARTRIDGE CASINGS
         FOUND AT CRIME SCENES INTO NIBIN




                       117
118
119
120
                                     APPENDIX XI

ATF NIBIN PROGRAM HITS OF THE WEEK




               121
                                                             APPENDIX XII

               HOW NIBIN SEARCHES ARE USED
           BY NIBIN PARTNER AGENCIES WE VISITED

 Partner Agency Visited              Response on Searches Used
Minneapolis Police          Manual searches are very seldom performed
Department                  and only if other localities ask for it. A
                            national search has never been performed,
                            but if the opportunity arises, the department
                            will conduct it.
New Orleans Police          Only one regional search has been done at the
Department                  request of another agency. No other national
                            or regional searches have been requested.
Rhode Island State Crime    The local search, which is automatically
Laboratory                  performed, is always used. However, no law
                            enforcement agency has requested regional or
                            national search options. If such a request
                            were made, the options would be used.
Boston Police Department    The local search is used because of the
                            automatic comparison. The regional search
                            and national search options are seldom used
                            because crimes generally occur in the area
                            where the suspect is arrested and the
                            evidence is recovered. Regional or national
                            searches are done when case agents have
                            specific evidence that: (1) suspects are from
                            a different part of the United States, and (2) a
                            crime was committed in another part of the
                            United States.
Omaha Police Department     Local searches have been done. The agency
Crime Laboratory            could not demonstrate how to perform a
                            national search.
Denver Police Department    Manual searches, either regionally or
                            nationally, are rarely done. Some regional
                            searches and only one national search have
                            been done, and those types of searches are
                            only done upon request.
New Mexico Department of    A regional search has been done. On one
Public Safety               occasion, a national search was done as a
                            result of a request, but this is very rare. This
                            national search was arranged by the ATF and
                            Forensic Technology, Inc.
Houston Police Department   Only local searches are performed.




                                  122
 Partner Agency Visited                Response on Searches Used
Tulsa Police Department       Only local searches are performed because
                              most “hits” are going to be local and it is too
                              cumbersome to do national searches.
Detroit Police Department     Manual searches have been done for Indiana.
Forensic Services Crime       A high-confidence candidate resulted from one
Laboratory                    of the images found, and as a result, a
                              manual search and side-by-side comparison
                              were done. In addition, some manual
                              searches have been done for Highland Park,
                              Michigan.
Mississippi State Crime       Searches are performed both regionally and
Laboratory                    nationally.
Allegheny County (PA)         Manual searches are done regionally and
Coroner’s Office Forensic     nationally. If the staff knows the firearms
Laboratory Division           evidence is from an outside resident, an effort
                              is made to search outside the automatic
                              search. Also, if evidence was entered on one
                              date, and additional evidence is entered on
                              another date, a manual search is performed to
                              double check for hits.
Washington State Patrol       Local searches are always used for comparing
Crime Laboratory – Tacoma     firearms evidence, but regional and national
                              search options are often used when state and
                              local law enforcement agencies make specific
                              requests.
Indiana/Marion County         Regional searches are always performed.
Forensic Laboratory           National searches have never been
                              performed.
Charlotte Police Department   Local searches are performed as the default
                              setting; which is for the locations within their
                              respective partitions.
Hickory (NC) Police           Searches are performed within the respective
Department                    regions. In one instance, a national search
                              was done for the Philadelphia Police
                              Department. However, national searches are
                              not performed regularly and only upon
                              request or if there is a particular lead.
ATF Laboratory –              Whenever federal, state, or local law
Ammendale (MD)                enforcement agencies submit a case for entry
                              into NIBIN, the lead investigator informs the
                              technicians of the type of search to make.
                              Almost all searches are made against the local
                              partitions.




                                    123
  Partner Agency Visited              Response on Searches Used
 Prince George’s County       Searches are not performed outside of the
 (MD) Police Department       local partition because the agency did not
                              know how to initiate the regional or national
                              search. Since 2003, there have been two
                              instances where the agency needed to use the
                              national search feature. In both instances,
                              the ATF Ammendale Laboratory was
                              requested to perform the national searches.
 ATF Laboratory – Atlanta     Searches are performed locally. Generally,
                              case agents request nationwide searches.
 Georgia Bureau of            Local searches are always performed.
 Investigation – Decatur      National searches are done upon request.
 Los Angeles Police           The system automatically performs local
 Department                   searches. Regional and national searches are
                              performed upon the case agents’ request.
 Erie County (NY) Forensic    Local searches are always performed.
 Laboratory                   Regional and national searches are performed
                              upon the case agents’ request.
Source: Interviews with Partner Agency Officials




                                    124
                                                               APPENDIX XIII

                  EXPLANATION OF “RARELY” AND “NEVER”
                   RESPONSES FOR REGIONAL SEARCHES

   Partner Agency Surveyed          Response             Explanation
 Montgomery County (TX)              Rarely    Regional searches are not
 Sheriff’s Office                              performed because the agency
                                               does not have a firearms
                                               examiner.
 Fresno County (CA) Sheriff’s        Rarely    Searches are performed upon
 Department                                    request or if the case’s
                                               circumstances dictate; however,
                                               regional searches are rarely
                                               requested.
 Hamilton County Coroner’s           Rarely    Kentucky is the primary region
 Laboratory – Cincinnati                       of interest; however agencies in
                                               that region do not enter images.
 West Virginia State Police –        Rarely    Regional searches are not
 Charleston                                    performed because there is little
                                               time for this type of search.
 Honolulu Police Department          Rarely    There is no opportunity to do
                                               regional searches.

 Oakland County (MI) Sheriff’s       Never     No requests have been received
 Office                                        to search regionally.

 Johnson County (KS) Sheriff’s       Never     Searches are done at the
 Office                                        Kansas Bureau of Investigation.

 Idaho State Police                  Never     Regional searches are not
                                               performed because of the lack
                                               of training.
 Virgin Islands Police Department    Never     Regional searches are not
                                               performed because the system
                                               is in the process of coming
                                               online.
Source: Survey Questionnaires from NIBIN Partner Agencies




                                      125
                                                           APPENDIX XIV

                 EXPLANATION OF “RARELY” AND “NEVER”
                  RESPONSES FOR NATIONAL SEARCHES

 Partner Agency Surveyed         Response             Explanation
Oakland (CA) Police Department    Rarely    National searches are done
                                            only if the investigative
                                            information suggests such a
                                            search.
Metropolitan Police Department    Rarely    National searches should not
– Nashville                                 be done as a matter of course.
Michigan State Police – East      Rarely    The need for national searches
Lansing                                     never arises.
Iowa Division of Criminal         Rarely    National searches are
Investigation                               performed if requested by the
                                            submitting agency.
Montgomery County (TX)            Rarely    National searches are not
Sheriff’s Office                            performed because the agency
                                            does not have a firearms
                                            examiner.
Indiana State Police – Lowell     Rarely    National searches are done
                                            only as warranted.
Santa Ana (CA) Police             Rarely    Normally, there needs to be a
Department                                  reason to conduct a national
                                            search.
Kern County/Bakersfield (CA)      Rarely    The laboratory routinely checks
District Attorney’s Office                  regions 1A, 1B, and 8.
                                            Historically, guns are used
                                            locally or in adjoining regions.
San Francisco Police              Rarely    There has never been a need
Department                                  to perform national searches.
Broward County (FL) Sheriff’s     Rarely    National searches are only
Office                                      done when there is a request.
Miami-Dade Police Department      Rarely    Searches are usually not
                                            needed beyond the Southeast
                                            region.
Virginia Division of Forensic     Rarely    National searches are not
Science – Eastern Laboratory –              necessary.
Norfolk
Baltimore County Police           Rarely    Searches outside the area are
Department                                  by request only.




                                   126
  Partner Agency Surveyed          Response             Explanation
Wisconsin Department of Justice     Rarely    Searches are done in the local
– Milwaukee                                   and surrounding areas.
                                              Usually, another agency
                                              requests searches outside the
                                              local region.
Washington State Police –           Rarely    National searches are
Spokane                                       performed if case information
                                              warrants.
Miami Valley (OH) Regional          Rarely    National searches are done
Crime Laboratory                              when the case synopsis
                                              indicates the possibility of
                                              travel outside the region.
Kansas Bureau of Investigation      Rarely    National searches are too slow
– Topeka                                      and cumbersome.
St. Louis County Police             Rarely    National searches are not
Department                                    performed, because most
                                              crimes occur regionally.
Knoxville Police Department         Rarely    National searches are
                                              performed when investigators
                                              request them.
Massachusetts State Police –        Rarely    National searches are not
Sturbridge                                    performed because of the
                                              amount of time they take.
Maine State Police                  Rarely    National searches are done
                                              only when a case should be
                                              searched with good reason.
Newark (NJ) Police Department       Rarely    National searches are done
                                              only when the department is
                                              asked to do so.
California Department of Justice    Rarely    No explanation provided.
– Riverside
New Jersey State Police             Rarely    No explanation provided.

Mesa Police Department Crime        Rarely    No explanation provided.
Laboratory
South Carolina Law                  Never     National searches have never
Enforcement Division –                        been requested.
Columbia
Lake County (IN) Crime              Never     National searches are too
Laboratory                                    difficult because of the lengthy
                                              steps involved.




                                     127
   Partner Agency Surveyed        Response              Explanation
 Fresno County (CA) Sheriff’s       Never     National searches would be
 Department                                   performed upon request, or if
                                              the case circumstances
                                              dictated them. However,
                                              national searches have never
                                              been requested.
 Florida Department of Law          Never     A national search request has
 Enforcement – Tallahassee                    never been received or
                                              determined to be needed.
 Suffolk County (NY) Laboratory     Never     National searches are not
                                              viewed as a viable use of
                                              resources.
 Oakland County (MI) Sheriff’s      Never     A request to perform a national
 Office                                       search has never been
                                              received.
 West Virginia State Police –       Never     There is very little time for this
 Charleston                                   type of search.
 Johnson County (KS) Sheriff’s      Never     Searches are done at the
 Office                                       Kansas Bureau of
                                              Investigation.
 St. Louis Metropolitan Police      Never     A request to perform a national
 Department                                   search has never been
                                              received.
 Alabama Department of              Never     National searches are
 Forensic Science – Mobile                    performed only upon request.
 Louisiana State Police – Baton     Never     A request for national searches
 Rouge                                        has never been received.
 Honolulu Police Department         Never     The opportunity to do national
                                              searches is rare because there
                                              are not many open cases.
 Idaho State Police                 Never     National searches are not
                                              performed because of a lack of
                                              training.
 Virgin Islands Police              Never     National searches are not
 Department                                   performed because the system
                                              is in the process of coming
                                              online.
 Texas Department of Public         Never     No explanation provided.
 Safety – Tyler
Source: Survey Questionnaires from Partner Agencies




                                    128
                                     APPENDIX XV

ATF’S RESPONSE TO THE DRAFT AUDIT REPORT




                  129
130
131
132
133
134
135
136
137
138
139
                                                              APPENDIX XVI

       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
         ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                      TO CLOSE THE REPORT

     We provided the draft report to the ATF for comment. The ATF’s
response, included in this report as Appendix XV, agrees with each of our
recommendations and proposes corrective action sufficient to resolve the
recommendations. Our analysis of the status of the recommendations
begins on page 141 of this appendix.

      In its response to the draft audit report, the ATF stated that our use of
the Originating Agency Reporting Identifier (ORI) number as the statistical
basis to evaluate technology allocation, program utilization, and
performance was misleading because a single agency can have numerous
ORI numbers assigned to it. For example, the ATF stated that the ATF alone
has over 362 ORI numbers, many of the larger NIBIN partner agencies have
multiple ORI numbers, and all local law enforcement agencies have at least
one ORI number, regardless of size.

       We disagree with the ATF’s contention that it is misleading to use ORI
numbers as a basis to evaluate technology allocation, program utilization,
and performance. We reported that as of January 2005, the NIBIN program
had been deployed to 231 of the 38,717 law enforcement agencies or
divisions of law enforcement agencies that had received an ORI number
from the FBI. The 38,717 agencies or divisions of agencies were contained
in the ATF’s NIBIN database and used as the basis for NIBIN users to select
the ORI number applicable to the agency, or agency division, submitting
evidence for entry into NIBIN. At the end of our audit, NIBIN officials
expressed to us concern about ORI numbers and said that a more realistic
number of law enforcement agencies nation-wide was about 17,000. We
asked the NIBIN officials for documentation to support the 17,000 number,
but they could not provide support. Because 38,717 is the actual total of
ORI numbers maintained in NIBIN as potential contributors of evidence into
NIBIN, we continue to believe in the use of this number as a basis to
evaluate technology allocation, program utilization, and performance.




                                     140
      The status of the recommendations and the actions necessary to close
the recommendations are presented below.

1.   Resolved. This recommendation is resolved based on the ATF’s
     concurrence with the recommendation. However, the ATF’s response
     did not adequately address actions it will take.

     The ATF response stated that the volume of ballistic evidence
     submissions for NIBIN entry cannot be the sole reason for deploying
     equipment to an agency and that numerous agencies identified as non-
     partner, high-usage agencies do not have forensic laboratories or the
     necessary staff that can support deployment of the IBIS equipment.
     The ATF also noted that some states, such as Virginia, have laboratory
     systems that support other law enforcement agencies with forensic
     evidence. Finally, the ATF indicated that without increased funding, the
     NIBIN Branch cannot purchase additional equipment to deploy to more
     agencies.

     Our report does not state that the volume of ballistic evidence
     submissions for NIBIN entry should be the sole reason for deploying
     equipment to an agency. We understand and accept that multiple
     factors must be considered in determining whether high-usage,
     non-partner agencies should be provided IBIS equipment. Also, some
     factors, such as lack of laboratory staff or equipment, may be overcome
     with the ATF’s assistance in helping the agencies obtain funding through
     grants or other means, as the ATF indicated in its response to
     Recommendation 11. To implement this recommendation, the ATF
     needs to evaluate the circumstances surrounding each high-usage, non-
     partner agency to determine whether IBIS equipment should be
     deployed to the agency. If the ATF determines that it would be more
     cost effective and efficient for the non-partner agency to have its own
     IBIS equipment, the ATF should either redistribute equipment from low-
     usage partner agencies or request funding in its budget to purchase the
     additional equipment.

     The ATF response also stated that the NIBIN Program Office is
     addressing the issue of redistributing IBIS equipment from low-usage
     partner agencies. The ATF indicated that policies are in place to address
     low usage and that the ATF will continue to monitor low-usage sites and
     make determinations as to whether the equipment should remain.

     We noted in the audit report that the ATF has implemented a system to
     monitor low-usage of partner agencies. However, the system only
     involved looking at low-usage partner agencies to determine whether
     they were effectively utilizing the equipment. The ATF did not perform
                                       141
     routine analyses to determine whether high-usage, non-partner
     agencies could benefit from having their own IBIS equipment.

     The recommendation can be closed when we receive documentation
     showing that the ATF has: (1) analyzed the high-usage, non-partner
     agencies to determine if any issues exist that could preclude the
     agencies from receiving IBIS equipment; (2) determined whether
     remedies exist to resolve these issues; and (3) either identified
     equipment from low-usage partner agencies that could be redistributed
     to eligible high-usage, non-partner agencies or included funding in its
     budget to purchase additional IBIS equipment for the eligible high-
     usage, non-partner agencies.

2.   Resolved. This recommendation is resolved based on the ATF’s
     agreement to identify the NIBIN partner sites needing direction for
     executing regional and national database searches and to provide
     remedial instruction to those partner sites. The recommendation can be
     closed when we receive documentation showing the ATF has taken the
     planned actions.

3.   Resolved. This recommendation is resolved based on the ATF’s
     agreement to: (1) perform random site audits to verify that NIBIN
     users are following the data entry protocols and procedures; and
     (2) reiterate the best practices identified during the site audits to the
     other users through on-site training, professional conferences, and
     meetings. The recommendation can be closed when we receive
     documentation showing the ATF has taken the planned actions.

4.   Resolved. The ATF’s response to the draft audit report stated that the
     software configuration for the NIBIN equipment will not allow a user to
     enter duplicate case identification numbers. However, our audit
     disclosed that, contrary to the ATF’s assertion, two NIBIN partner
     agencies (Colorado Bureau of Investigation – Montrose and Rhode
     Island State Crime Laboratory) entered duplicate case identification
     numbers for its own cases. As a consequence, it was impossible to link
     the cases table to the evidence table for these agencies. A total of
     2,801 records in the cases table for these two agencies contained
     duplicate case identification numbers. Of the total, 478 records were
     from the Colorado Bureau of Investigation – Montrose and 2,323
     records were from the Rhode Island State Crime Laboratory.

     This recommendation is resolved based on the ATF’s agreement to
     review data from the Colorado Bureau of Investigation – Montrose and
     the Rhode Island State Crime Laboratory to identify cases that
     necessitate electronic consolidation. The recommendation can be closed
                                      142
     when we receive documentation showing that the ATF has taken the
     planned actions and has corrected the duplicate case identification
     numbers in NIBIN.

5.   Resolved. This recommendation is resolved based on the ATF’s
     response showing it has reviewed the 12 agencies with high hit rates
     and determined that the high hit rates resulted because more than 50
     percent of the images entered into NIBIN were evidence images, as
     opposed to non-evidence images from test-fired guns. The ATF
     determined that partner laboratories with lower hit rates were found to
     have an abundance of test-fire images and not evidence images from
     crimes in NIBIN. The recommendation can be closed when we receive
     documentation that the ATF has informed all the partner agencies of the
     results of their review and stressed to the partner agencies the
     importance of entering as much crime evidence into NIBIN as possible.

6.   Resolved. This recommendation is resolved based on the ATF’s
     agreement to: (1) evaluate ways to better utilize its resources to
     provide greater outreach and promote greater utilization of the system,
     (2) determine ways in which non-partner agencies may have greater
     accessibility to the program through either existing NIBIN partner
     agencies or future system deployments, and (3) assess different ways in
     which NIBIN partner agencies may better recruit non-partner agencies
     within their regions. The recommendation can be closed when we
     receive documentation showing the ATF has taken the planned actions.

7.   Resolved. This recommendation is resolved based on the ATF’s
     agreement to: (1) periodically poll NIBIN users for their
     recommendations on possible IBIS equipment and software
     enhancements; (2) consider all user recommendations in its
     technological and operational decision-making process; and (3) assess
     new ballistic imaging products, such as “BrassTrax” (an automated
     system for entering cartridge casings), for possible inclusion into the
     NIBIN inventory. The recommendation can be closed when we receive
     documentation showing the ATF has taken the planned actions.

8.   Resolved. This recommendation is resolved based on the ATF’s
     agreement to evaluate and test replacement units for the current RBI
     units to ascertain whether the replacement units meet NIBIN program
     standards and user needs. The recommendation can be closed when we
     receive documentation showing the ATF has taken the planned actions.

9.   Resolved. This recommendation is resolved based on the ATF’s
     agreement to: (1) reiterate to users “best practices” for data entry and
     evaluation; (2) use venues such as regional user meetings, the National
                                     143
    Users Congress, NIBIN contractor conference, and the NIBIN web site
    for stressing the importance of timely and accurate entry and correlation
    of both evidence and non-evidence entries; and (3) continue monitoring
    acquisition and non-viewed correlation reports to determine partner
    agencies with backlogs. The recommendation can be closed when we
    receive documentation showing the ATF has taken the planned actions.

10. Resolved. This recommendation is resolved based on the ATF’s
    agreement to: (1) monitor non-viewed correlation reports, in
    conjunction with monthly user data acquisition reports, to ensure
    correlation data is being assessed in a timely manner; and (2) continue
    monitoring acquisition and non-viewed correlation reports to determine
    partner agencies with backlogs. The recommendation can be closed
    when we receive documentation showing the ATF has taken the planned
    actions.

11. Resolved. In its response, the ATF indicated that in the past it has
    assisted partner agencies by sending IBIS Specialists, Firearms
    Examiners, Field Division staff, and NIBIN contractor staff to various
    sites to inventory backlogs, image ballistic evidence into NIBIN, and
    review correlation results. However, the ATF stated that it does not
    have the staff or budget to provide such assistance on a continuing
    basis. The ATF also stated that several ATF Field Divisions have
    assisted State and local agencies with grant applications under
    Project Safe Neighborhoods to secure funding for additional laboratory
    positions and equipment. This recommendation is resolved based on
    the ATF’s agreement to: (1) assist and support partner agencies in
    securing funding wherever available to obtain staff and equipment to
    help reduce the backlog of firearms evidence awaiting entry into NIBIN,
    and (2) work with the NIBIN contractor to ensure that partner agencies
    have a seamless network on which to operate the IBIS equipment. The
    recommendation can be closed when we receive documentation showing
    the ATF has taken the planned actions.

12. Resolved. This recommendation is resolved based on the ATF’s
    statement that it: (1) is presently conducting a pilot program in its
    Columbus, Ohio, Field Division to determine the most effective and
    efficient method to not only enter all ballistic evidence into NIBIN as
    required by the Attorney General’s and the Secretary of the Treasury’s
    January 19, 2001, memoranda, but also to enter test-fires of all
    weapons taken into ATF custody; and (2) will share with other
    Department of Justice agencies what it learns from the pilot program to
    help the other agencies establish a protocol for implementing the
    Attorney General’s directive to participate in the NIBIN program. The

                                    144
recommendation can be closed when we receive documentation showing
the ATF has taken the planned actions.




                             145
